<html>
<title> - OVERSIGHT HEARING ON ``WILDFIRE AND FOREST MANAGEMENT''</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





                    WILDFIRE AND FOREST MANAGEMENT

=======================================================================

                           OVERSIGHT HEARING

                               before the

                      SUBCOMMITTEE ON PUBLIC LANDS

                      AND ENVIRONMENTAL REGULATION

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                        Thursday, July 11, 2013

                               __________

                           Serial No. 113-32

                               __________

       Printed for the use of the Committee on Natural Resources





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

81-897 PDF                WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001












                     COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman
            EDWARD J. MARKEY, MA, Ranking Democratic Member

Don Young, AK                        Peter A. DeFazio, OR
Louie Gohmert, TX                    Eni F. H. Faleomavaega, AS
Rob Bishop, UT                       Frank Pallone, Jr., NJ
Doug Lamborn, CO                     Grace F. Napolitano, CA
Robert J. Wittman, VA                Rush Holt, NJ
Paul C. Broun, GA                    Raul M. Grijalva, AZ
John Fleming, LA                     Madeleine Z. Bordallo, GU
Tom McClintock, CA                   Jim Costa, CA
Glenn Thompson, PA                   Gregorio Kilili Camacho Sablan, 
Cynthia M. Lummis, WY                    CNMI
Dan Benishek, MI                     Niki Tsongas, MA
Jeff Duncan, SC                      Pedro R. Pierluisi, PR
Scott R. Tipton, CO                  Colleen W. Hanabusa, HI
Paul A. Gosar, AZ                    Tony Cardenas, CA
Raul R. Labrador, ID                 Steven A. Horsford, NV
Steve Southerland, II, FL            Jared Huffman, CA
Bill Flores, TX                      Raul Ruiz, CA
Jon Runyan, NJ                       Carol Shea-Porter, NH
Mark E. Amodei, NV                   Alan S. Lowenthal, CA
Markwayne Mullin, OK                 Joe Garcia, FL
Chris Stewart, UT                    Matt Cartwright, PA
Steve Daines, MT
Kevin Cramer, ND
Doug LaMalfa, CA
Jason T. Smith, MO

                       Todd Young, Chief of Staff
                Lisa Pittman, Chief Legislative Counsel
               Jeffrey Duncan, Democratic Staff Director
                David Watkins, Democratic Chief Counsel
                                 ------                                

       SUBCOMMITTEE ON PUBLIC LANDS AND ENVIRONMENTAL REGULATION

                        ROB BISHOP, UT, Chairman
            RAUL M. GRIJALVA, AZ, Ranking Democratic Member

Don Young, AK                        Peter A. DeFazio, OR
Louie Gohmert, TX                    Niki Tsongas, MA
Doug Lamborn, CO                     Rush Holt, NJ
Paul C. Broun, GA                    Madeleine Z. Bordallo, GU
Tom McClintock, CA                   Gregorio Kilili Camacho Sablan, 
Cynthia M. Lummis, WY                    CNMI
Scott R. Tipton, CO                  Pedro R. Pierluisi, PR
Raul R. Labrador, ID                 Colleen W. Hanabusa, HI
Mark E. Amodei, NV                   Steven A. Horsford, NV
Steve Daines, MT                     Carol Shea-Porter, NH
Kevin Cramer, ND                     Joe Garcia, FL
Doug LaMalfa, CA                     Matt Cartwright, PA
Jason T. Smith, MO                   Edward J. Markey, MA, ex officio
Doc Hastings, WA, ex officio

                                 ------                                


                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Thursday, July 11, 2013..........................     1

Statement of Members:
    Bishop, Hon. Rob, a Representative in Congress from the State 
      of Utah....................................................     1
        Prepared statement of....................................     2
    Gosar, Hon. Paul A., a Representative in Congress from the 
      State of Arizona...........................................    12
    Grijalva, Hon. Raul M., a Representative in Congress from the 
      State of Arizona...........................................     3
        Prepared statement of....................................     4
    Hastings, Hon. Doc, a Representative in Congress from the 
      State of Washington........................................     5
        Prepared statement of....................................     6
    Lamborn, Hon. Doug, a Representative in Congress from the 
      State of Colorado..........................................     7
    Tipton, Hon. Scott R., a Representative in Congress from the 
      State of Colorado..........................................     8

Statement of Witnesses:
    Douglas, James, Acting Director, Office of Wildland Fire, 
      Senior Advisor, Public Safety, Resource Protection and 
      Emergency Services, U.S. Department of the Interior........    22
        Prepared statement of....................................    24
    Duda, Joseph A., Deputy State Forester, Colorado State Forest 
      Service, Colorado State University, on behalf of the State 
      of Colorado................................................    34
        Prepared statement of....................................    35
        Response to questions submitted for the record...........    38
    Hubbard, James, Deputy Chief, State and Private Forestry, 
      Forest Service, U.S. Department of Agriculture.............    16
        Prepared statement of....................................    17
    Kirkpatrick, Hon. Ann, a Representative in Congress from the 
      State of Arizona...........................................    10
    Rigdon, Phil, Natural Resource Deputy Director, Yakama 
      Nation, and President, Intertribal Timber Council..........    28
        Prepared statement of....................................    30
        Response to questions submitted for the record...........    31
    Roady, Charles W. ``Chuck,'' General Manager, F.H. Stoltze 
      Land and Lumber Company, Columbia Falls, Montana...........    51
        Prepared statement of....................................    53
    Topik, Christopher, Ph.D., Director, Restoring America's 
      Forests, The Nature Conservancy............................    39
        Prepared statement of....................................    43
        Response to questions submitted for the record...........    50

Additional materials supplied:
    Graham, Patrick, State Director, The Nature Conservancy in 
      Arizona, Statement submitted for the record................    39
                                     


 
        OVERSIGHT HEARING ON ``WILDFIRE AND FOREST MANAGEMENT''

                              ----------                              


                        Thursday, July 11, 2013

                     U.S. House of Representatives

       Subcommittee on Public Lands and Environmental Regulation

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to notice, at 10:05 a.m., in 
room 1334, Longworth House Office Building, Hon. Rob Bishop 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Bishop, Lamborn, McClintock, 
Tipton, Labrador, Amodei, Daines; Grijalva, DeFazio, Tsongas, 
Shea-Porter, and Garcia.
    Also Present: Representatives Hastings, Gosar; and 
Kirkpatrick.
    Mr. Bishop. All right, we welcome you here. We are still 
waiting for a couple of Members to join us. And it is one of 
those areas where parliamentary games on the Floor will 
actually maybe help us get this hearing rolling along. So I 
hope they continue what they are doing.
    But we welcome all of you who are here. This hearing today 
is going to explore how we implement something that I consider 
needs to be a paradigm shift of how we handle the issue of 
wildfires and the management of our Federal lands.

STATEMENT OF THE HON. ROB BISHOP, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF UTAH

    Mr. Bishop. Last year's fire season we saw the third most 
acres burned since 1960. And the recent tragic events in 
Arizona and the catastrophic fires that were almost record-
setting in Colorado simply teach us the painful lesson that the 
status quo is simply not acceptable. We have to come up with a 
different way of doing what we are doing.
    To me, decades of failed policies, the kinds of hands-off 
management that we have had, have left our forests in what I 
consider to be an unnatural and definitely an unhealthy state. 
And they have become a threat to those who are forced to be 
neighbors of our Federal lands.
    So, we are adding volumes of material to our forests at the 
rate of 30 percent each year. That is easily complicating the 
problems that we have, and will complicate the debate and 
discussion we have on the issue. The equation is actually very 
simple. We can't control the weather, we can't control sparks 
that fly here and there, but what we can control are the fuel 
loads that are now doubling every 3 years on public lands, on 
Federal lands.
    We are going to hear from witnesses today about what they 
are doing right in trying to minimize the risk of catastrophic 
wildfire, and what the Federal Government should be doing to 
achieve those same kinds of results. We are going to be hearing 
that Tribes and local governments are able to sustain and 
manage their lands and create a healthy forest, as well as 
creating jobs, and that is the business that we should be able 
to get back into. We should return to the policies of what the 
Forest Service had when it was originally established.
    We need to thin our forests, we need to have a sustainable 
response, we need to protect our wildlife habitat and our 
watersheds, put people back to work to sustain local economies, 
and we can do that at the same time that we protect our 
environment. This is not anti-environment, it is simply a 
common-sense approach that is needed. If we don't do it, Mother 
Nature will. And I think we found out that Mother Nature is not 
always as rational as mankind is.
    So, we need to look to the future. We need to, in some 
respects, think outside the box to come up with new ways of 
handling a problem, which apparently continues to exacerbate. 
We have to find a solution to this, and we have to find a 
solution very, very quickly.
    [The prepared statement of Mr. Bishop follows:]

           Statement of The Honorable Rob Bishop, Chairman, 
       Subcommittee on Public Lands and Environmental Regulation

    This hearing today continues to explore how we can implement--
something I've been focusing on for quite a while now--a paradigm shift 
in federal lands management. Last year's fire season saw the third most 
acres burned since 1960, and this year's season has so far brought more 
than enough tragedy, particularly with the events last week in Arizona 
and the record-setting fires in Colorado. This painful status quo is 
simply unacceptable.
    Decades of failed policies and hands-off management of our federal 
forests have left these lands in an unnatural, and unhealthy state. The 
federal government has not only become an absentee landlord, but has 
allowed the federal estate to become a threat to those forced to be its 
neighbor.
    Our national forests are currently adding volume at a rate of 30% 
each year. While some try to complicate this debate to justify a lock-
it-up-and-throw-away-the-key approach to managing our federal lands, 
the equation is actually very simple--we cannot control the weather, 
and we cannot control the next stray spark that will ignite a fire, but 
we can control the fuel loads that are currently doubling every three 
years.
    We will hear from our witnesses about what they are doing right 
when it comes to protecting themselves from the risk of catastrophic 
wildfire and what the federal government should be doing to achieve the 
same results. As past hearings in this subcommittee have highlighted, 
states, tribes, and local governments are able to sustainably manage 
their lands, have healthy forests, and create jobs. That's the business 
that we should also be getting back to, and the purposes for which our 
national forests were established.
    Again, this is not a new issue, and not a new solution. We need to 
thin the forests, and we can do so in a manner that is sustainable, 
responsible, protects wildlife habitat and watersheds, and puts people 
to work and supports local economies at the same time. It is not anti-
environment to do so, it is commonsense. If we do not, Mother Nature 
will only continue to remove fuel on her own, with the same disastrous 
results that we are witnessing now.
    I thank our witnesses for joining us today and I look forward to 
their testimony. I now turn to our Ranking Member for his opening 
statement.
                                 ______
                                 
    Mr. Bishop. With that, I will yield to the Ranking Member 
for any opening statement he has, and then to our good Chairman 
for an opening statement, as well.

  STATEMENT OF THE HON. RAUL M. GRIJALVA, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    Mr. Grijalva. Thank you, Mr. Chairman, I appreciate it. And 
welcome to our colleague--singular, at this point--for being 
here, and to the witnesses later.
    It has been less than 2 weeks since we lost 19 heroic 
firefights in Arizona. These brave responders from the Granite 
Mountain Hotshots were only laid to rest 2 days ago. And the 
tragedy of their loss is still in the minds of their families, 
friends, and the communities in Arizona, and, frankly, across 
the Nation. I attended a previous vigil for these firefighters 
last week, and my thoughts and prayers continue to go to their 
families, who are, honestly, the people most affected by this 
loss.
    While wildfire and forest management are issues that this 
Committee has an obligation to address, I would ask for a delay 
of this hearing, and didn't want the lost lives of these brave 
men to become part of a kind of tired and predictable debate we 
are going to have regarding the role of logging and wildland 
fire prevention and assorted topics. The hearing was not 
postponed. And reading some of the testimony, I think we are 
still going to deal with some of the politicized and polarized 
issues that I had hoped we would have more time to get to and 
allow the tragedy to settle in.
    Forest management is a volatile issue, even without this 
tragic loss of life or terrible fire seasons. It gets even more 
volatile when you combine the state of our forests with the 
state of the Congress. We have failed miserably to address this 
issue and provide the agencies with resource and tools they 
need to address this critical issue.
    Next week I will meet with a delegation from Arizona State 
Parks to discuss--that was one of the agenda items they asked 
to talk about--the lack of Federal funding for fire 
suppression, mitigation, and the main challenges that they face 
during wildfire season. We can't starve Federal and State 
agencies of resources they need and expect them to complete all 
the work that needs to be done, and provide a safe balance. If 
thinning is the issue, projects are backlogged, the resources 
are not there, cooperative agreements with communities are 
done, but can't be executed.
    We also cannot ignore the role of climate change in 
prolonging and intensifying the fire season. Increased heat, 
less rain, more frequent extreme weather events added 2 months 
to the fire season in the Southwest.
    Despite universal agreement at the beginning of this year 
that wildfire prevention would be a top priority for this new 
Congress, we have yet to move legislation. Oversight hearings 
held this Congress and last Congress identified two tools that 
agencies needed to address wildland fire risk: stewardship 
contracting and good neighbor authority. We hope that, as a 
consequence of this hearing, Mr. Chairman, those items will 
once again have an opportunity to be fully discussed by the 
Committee and an opportunity to move forward.
    We might never reach agreement on broader forest management 
policy, but certainly we can find common ground on these two 
issues, and then move forward. As we sit here today and talk 
about the work that needs to be done in the forest and all the 
failures of Federal land managers, and all the harassing 
lawsuits by renegade environmental groups, we need to think 
about what we have failed to do to find a bipartisan answer to 
move forward. With the forest restoration initiative in 
Arizona, Federal and State agencies, conservation groups, 
timber companies, and other local stakeholders have found a 
collaborative way to move forward. This is the sort of model we 
need to explore, not a blanket waiver of environmental review 
and oversight.
    I am encouraged by the common ground that has been found in 
those four Federal forests, and I hope that we can continue to 
hold up that progress as we continue this important discussion.
    [The prepared statement of Mr. Grijalva follows:]

     Statement of The Honorable Raul M. Grijalva, Ranking Member, 
       Subcommittee on Public Lands and Environmental Regulation

    It's been less than two weeks since we lost 19 heroic firefighters 
in Arizona. These brave servicemen from the Granite Mountain Hotshots 
were only laid to rest two days ago, and the tragedy of their loss is 
still raw in the minds of their families, friends, and in communities 
around Arizona and across the nation.
    I attended a vigil for these firefighters last week and my thoughts 
and prayers continue to go out to their loved ones.
    While wildfire and forest Management are issues that this committee 
has an obligation to address, I asked to delay today's hearing. I do 
not want the lost lives of these brave men to become part of a tired 
and predictable debate regarding the role of logging in wildland fire 
prevention.
    The hearing was obviously not postponed, and based on some of the 
testimony presented to the committee, my concern was legitimate--the 
issue remains as politicized and polarized as ever.
    Forest management is a volatile issue even without the tragic loss 
of life or terrible fire seasons.
    It gets even more volatile when you combine the state of our 
forests with the state of Congress.
    We have failed miserably to address this issue and provide the 
agencies with the resources and tools they need to address the issue.
    I met with a delegation from Arizona State Parks, and they told me 
that lack of federal funding for fire suppression and mitigation is the 
main challenge they face during wildfire season.
    We can't starve federal and state agencies of the resources they 
need, and expect them to complete all of the work that needs to get 
done.
    We also cannot ignore the role of climate change in prolonging and 
intensifying the fire season. Increased heat, less rain, and more 
frequent extreme weather events added two months to the fire season in 
the Southwest.
    Despite universal agreement at the beginning of the year that 
wildfire prevention should be the top priority in the new Congress, 
this Committee has failed to move legislation.
    Oversight hearings held this Congress and last Congress identified 
two tools the agencies need to address wildland fire risk--stewardship 
contracting and good neighbor authority.
    We have tried repeatedly to get these two things through this 
committee and have failed.
    We might never reach agreement on broader forest management policy, 
but certainly we can find common ground on these two issues and move 
them forward.
    As we all sit here today and talk about all the work that needs to 
be done in the forests, and all the failures of federal land managers, 
and all of the harassing lawsuits by renegade environmental groups--we 
need to think about what we have failed to do--on a bipartisan basis.
    With the Four Forest Restorative Initiative in Arizona, federal and 
state agencies, conservation groups, timber companies, and other local 
stake holders have found a collaborative way to move forward. This is 
the sort of model we need to explore, not blanket waivers of 
environmental review and oversight. I'm encouraged by the common ground 
that's been found on those 4 federal forests, and I hope we can 
continue to hold up that progress as we continue this important 
discussion.
    With that, I thank the witnesses and yield back my time.
                                 ______
                                 
    Mr. Grijalva. With that, thank you very much, Mr. Chairman. 
And thank you and I yield back.
    Mr. Bishop. Thank you. We are happy to have the Chairman of 
the full Committee with us. We will turn to Chairman Hastings 
for an opening statement, and then perhaps an introduction.

    STATEMENT OF THE HON. DOC HASTINGS, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF WASHINGTON

    The Chairman. I will do that. Thank you very much. And, Mr. 
Chairman, thank you for having this hearing.
    This Subcommittee will hear testimony on an issue that is 
of utmost importance to communities across the Nation, 
including those in the Central Washington district that I have 
the honor to represent. Each year, wildfires in our Nation's 
Federal forests damage or destroy millions of acres across the 
United States. Catastrophic wildfire is a growing problem. Last 
year, a senior Forest Service official testified before our 
Committee that 65 million acres of forest lands are at ``high 
risk of wildfire.'' Unfortunately, their response to that has 
been, in my view, inadequate. Already this year, we've seen 
record-breaking fires in Colorado, the tragic deaths of 24 
firefighters, and hundreds of homes lost.
    Now, we know there will always be drought, there will 
always be heat spells, and there will always be a fire that is 
out of our control. While our hearts are with the families and 
communities affected by wildfire and those who put themselves 
in harm's way to protect us from it, an ounce of cure is worth 
a pound of prevention. And what must be cured are the overgrown 
and unhealthy forests that are in many cases providing the fuel 
for these fires.
    Common sense management to remove excess forest growth can 
be implemented effectively and responsibly. And a side benefit 
is that it would create jobs, it would protect communities. And 
unfortunately, the Federal entities are simply not doing that.
    And let me give you an example in my home State of 
Washington. The Washington State Department of Natural 
Resources has already harvested more than 10 million board feet 
of salvage timber from lands that burned in last year's fire 
season. And the total acreage that was burned in Washington 
State was 68,000 acres. So they got 10 million board feet of 
salvage from 68,000 acres. In contrast, the U.S. Forest Service 
in Washington State has never conducted salvage on any of the 
300,000 acres that burned in Washington State.
    Much of this Federal inaction is caused by the Forest 
Service's fear of lawsuits by environmental groups, using the 
Endangered Species Act and the National Environmental Policy 
Act, or NEPA, to block local, State and Federal timber fuels 
reduction and thinning projects.
    Our forests, communities, and species deserve better than 
being placed at continual and increasing risk of catastrophic 
wildfires and this Committee and this Subcommittee will 
continue working toward policies that force Federal land 
managers to follow their statutory responsibilities to improve 
forest health to protect these lands and local economies.
    [The prepared statement of Mr. Hastings follows:]

          Statement of The Honorable Doc Hastings, Chairman, 
                     Committee on Natural Resources

    Today, this Subcommittee will hear testimony on an issue that is of 
utmost importance to communities across this nation, including those in 
the Central Washington state district that I have the honor to 
represent. Each year, wildfires in our nation's federal forests damage 
or destroy millions of acres across the United States.
    Catastrophic wildfire is a growing problem. Last year, a senior 
Forest Service official testified before our Committee that 65 million 
acres of Forest Service lands are at ``high risk of wildfire.'' Their 
response has been woefully inadequate. Already this year, we've seen 
record-breaking fires in Colorado, the tragic deaths of 20 
firefighters, and hundreds of homes lost.
    There will always be drought, there will always be heat spells, and 
there will always be fire that is out of our control. While our hearts 
are with the families and communities affected by wildfire and those 
who put themselves in harm's way to protect us from it, an ounce of 
prevention is worth a pound of cure, and what must be cured are the 
overgrown and unhealthy forests that are in many cases providing the 
fuel for these fires.
    Common sense management to remove excess forest growth can be 
implemented effectively and responsibly, while creating jobs, 
protecting communities, and reducing the soaring costs of wildfire 
suppression. Many non-federal entities are doing just that.
    For example, the Washington Department of Natural Resources already 
harvested more than 10 million board feet of salvage timber from lands 
that were burned in last year's fire season, and continues to produce 
timber from its state trust lands. In contrast, the U.S. Forest Service 
in Washington state never conducted salvage on any of the 300,000 acres 
of burned land that it manages.
    Much of this federal inaction is caused by the Forest Service's 
fear of lawsuits by environmental groups, using the Endangered Species 
Act and the National Environmental Policy Act to block local, state and 
federal timber fuels reduction and thinning projects.
    Our forests, communities, and species deserve better than being 
placed at continual and increasing risk of catastrophic wildfires and 
this Committee will continue working toward policies that force federal 
land managers to follow their statutory responsibilities to improve 
forest health to protect these lands and local economies.
    I welcome Phil Rigdon, who is with us today to testify on behalf of 
the Yakama Nation and also on the recently-released, third report from 
the Indian Forest Management Assessment Team. The Yakama manage one of 
the few remaining saw mills in the State of Washington and manage over 
400,000 acres of timber on their 1.3 million acre reservation. For 
comparison and an illustration of the current problem, the 400,000 
acres under the care of the Yakama is twice the total amount of acres 
that the Forest Service harvests nationwide in a year.
    As Deputy Director of the Yakama Department of Natural Resources, 
Phil Rigdon oversees responsible and sustainable management that keeps 
their forests healthy and reduces the risk of fire. It's a lesson that 
our federal land management agencies can, and should, learn from.
    I thank Phil for making the long trip from Washington, as well as 
our other witnesses for being here today and I look forward to their 
testimony on how we can protect our forests from the growing threat of 
catastrophic wildfire.
                                 ______
                                 
    The Chairman. Now, Mr. Chairman, on the second panel you 
will have Mr. Phil Rigdon, who is with us here to testify on 
behalf of the Yakama Nation in my district, and also on the 
recently released, third report from the Indian Forest 
Management Assessment Team.
    By way of background, the Yakamas manage one of the few 
remaining forest mills, or saw mills, in the State of 
Washington. And they manage over 400,000 acres of timber on 
their 1.3 million acre reservation. Another comparison. That 
400,000 acres that is under the care of the Yakamas is twice 
the amount of acres that the Forest Service harvests 
nationwide.
    Mr. Rigdon is the Deputy Director of the Yakama Department 
of Natural Resources, and he has the responsibility to oversee 
sustainable management that keeps his forests healthy and so 
forth.
    So, I want to thank, ahead of the panel two that will be 
here, Mr. Rigdon for coming across the country. And, obviously, 
the Committee looks forward to his testimony.
    And with that, Mr. Chairman, I will yield back.
    Mr. Bishop. Thank you, Mr. Chairman. I appreciate that. I 
appreciate your witness for being here, and for the 
introduction.
    Our first panel--Ms. Kirkpatrick, you may feel like you are 
alone down there, but you are not. There are other Members, 
they are just not sitting by you. Nothing personal. But we have 
other Members who are on here.
    Mr. Lamborn has asked to testify. He is also chairing 
another meeting at this moment. So I would like to ask him to 
go first, his testimony. And then, obviously, if you have to 
leave us for a secondary committee, fine--that you happen to 
chair--fine, you can do that, we will understand.
    Mr. Lamborn, you are recognized.

    STATEMENT OF THE HON. DOUG LAMBORN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF COLORADO

    Mr. Lamborn. Thanks for your understanding, and I will be 
back as soon as I can. And thank you for your indulgence, and 
thank you for calling this important hearing to examine the 
need for increased forest management to reduce the risk of 
catastrophic wildfires.
    It is clear that our national forests are in an unhealthy 
and dangerous state that poses an extreme risk to public 
safety, water supply, and wildlife, resulting in larger and 
more intense wildfires. This year marks the second consecutive 
year that my home State of Colorado and my congressional 
district has experienced record-setting fires in terms of 
property lost in a single wildfire.
    Last year, the Waldo Canyon fire destroyed 347 homes and 
killed 2 people. This year the Black Forest fire tragically 
claimed about 500 homes and 2 lives. I could see the fire, the 
smoke, from my house. And you could tell when it was burning 
wood, because it was white smoke, and you can tell when a house 
was going up in flames because it would be black smoke. A 
tragedy.
    Since the beginning of the year, there have been more 
than--however, the community has really come together, and I 
think that is one silver lining on the cloud. Since the 
beginning of the year there have been more than 25,000 fires 
across the country. Currently, 22 active large fires are 
burning across 11 States. These have burned a total of 1.9 
million acres. Last year's fire season burned a total of 9.3 
million acres, the third worst fire season on record for 
acreage.
    Colorado and other States cannot afford to continue 
absorbing the enormous costs associated with these fires. Most, 
though not all, of which have burned on Federal land, primarily 
in areas where trees are far too old and dense, and often have 
been affected by insects or disease.
    Poor forest condition is one of the primary factors that 
have led to destructive wildfires and catastrophic insect and 
disease outbreaks. It is widely recognized that management of 
our forest resources has not kept pace with the ever-increasing 
need for restoration. Decades of failed policies with respect 
to active forest management have created unhealthy and 
overstocked forest conditions, placing 73 million acres of 
national forest land and 397 million acres of forest land 
nationwide at risk to severe wildfire.
    The soaring annual Federal budget--Federal cost of managing 
catastrophic wildfires comes at the expense of land management 
activities that create jobs, the funding for rural schools, and 
the improvement of forest health. Currently, the Forest 
Service, an agency that once managed millions of acres and 
averaged over $1 billion in revenues annually, now spends $2 
for every $1 it produces, and spends half of its appropriated 
budget on wildfire suppression. A great deal of research, 
including research conducted by the Forest Service, indicates 
that active management, which produces valuable timber, can 
help reduce fire threats, while meeting a wide variety of 
restoration goals.
    Active forest management and timber harvest have been shown 
to have multiple long-term benefits. Despite these findings, 
one of the main reasons for the declining health of our forests 
is a lack of long-term and affordable timber harvest access 
caused by litigation. This is in large part due to 
preservationist organizations using Federal statutes like the 
Endangered Species Act and the National Environmental Policy 
Act as tools to litigate and prevent timber harvesting. 
Further, the Forest Service's own research highlights that the 
Agency is only able to access less than 25 percent of the 
suitable timber base for forest management and fuels treatment, 
due to regulatory and legal constraints.
    Nationally, approximately 80 million acres of trees are 
projected to be at risk of severe mortality due to insect and 
disease. Instead of addressing these problems, the 
Administration has proposed cutting hazardous fuels reduction 
funding by 37 percent--that is a $115 million decrease--while 
proposing to increase land acquisition funding by 10 percent.
    Finally, the Administration requested a 27 percent increase 
in suppression funding, making it clear that its preference is 
to continue fighting catastrophic wildfires and adding to the 
Federal estate, instead of reducing the risk of fire on lands 
it already owns. State and local governments, Federal land 
management agencies, and this Congress must do more to better 
manage our Nation's forests and to provide the resources 
necessary to fight wildfires when they happen.
    Thank you again, Mr. Chairman, for holding this critical 
hearing. And I yield back.
    Mr. Bishop. Thank you, Representative Lamborn, and we will 
excuse you to your committee.
    We have four Members who wish to be part of this panel. 
Let's stick with the Colorado version first.
    I will turn next to Mr. Tipton for a comment, and then we 
have representatives from Arizona who have requested to speak.

  STATEMENT OF THE HON. SCOTT R. TIPTON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF COLORADO

    Mr. Tipton. Thank you, Mr. Chairman. I appreciate your 
holding this hearing.
    Prevention: a simple idea with profound implications for 
the future of western forests and communities. Right now, fires 
are burning thousands of acres in Colorado, Arizona, and in 
many areas throughout the Western United States. The incident 
commanders in charge of suppression on a 110,000 acre fire in 
the West Fork burning in my district, which has threatened 
entire communities, told me that the behavior of the fire is 
unprecedented. Because of all of the beetle-killed timber and 
dry conditions, the fire has acted in a way that defies 
computer models, and has been incredibly devastating.
    The environmental effects of this fire will continue to 
impact our communities for years after the fire is out. The 
most tragic part of this is that the occurrence of these forest 
fires could be reduced, if not outright prevented, with common-
sense forest management. By taking action such as removing 
hazardous fuels like beetle-killed timber and unnaturally dense 
undergrowth, we would not only be able to allow our forests to 
thrive in a healthy natural states, but to be able to prevent 
future loss of life and destruction of property, safeguard 
water supplies, species habitat, air quality, and promote a 
healthy, natural environment overall.
    The President spends a fair amount of his time speaking 
about the need to reduce carbon emissions, and just the other 
week announced his latest fiat to move forward with a 
significant back-door energy tax that will further restrict 
responsible energy development in this country and stunt job 
growth. If the President is truly interested in reducing carbon 
emissions without handcuffing our Nation's economy, his 
Administration should take meaningful action to prevent the 
catastrophic wildfires that are burning in California, Arizona 
and other parts of the West.
    According to a 2012 presentation from NASA, carbon dioxide 
emissions from wildfires have more than doubled, up 2.4 times, 
since the 1980's. The amount of carbon emissions from wildfires 
has grown from an average of 8.8 million tons per year from 
1984 to 1995 to more than 22 million tons from 1996 to 2008.
    Wildfire can often emit more carbon in a few weeks than all 
of the cars in that State do in a year. This was the case with 
the Hayman Fire in Colorado, and likely will be the case with 
the West Fork Complex Fire.
    In addition, according to a 2007 study published by the 
NIH, wildfires can be primary contributors to individual 
States' total carbon emissions. In Idaho in 2006, wildfire 
produced 1.6 times more CO<INF>2</INF> than all other fossil 
fuel sources. In 2006 wildfire emissions also accounted for 47 
and 42 percent of CO<INF>2</INF> emissions in Montana and 
Washington, respectively. And according to a report from 
researchers with the Forest Service, Auburn University, and 
George Mason University, wildfire CO<INF>2</INF> emissions are 
expected to increase by 50 percent by the year 2050.
    When trees are growing they absorb carbon. But when the 
trees die, like thousands of acres of dead bark beetle trees 
that cover our hillsides, it starts to release carbon slowly as 
it decomposes, or rapidly when it burns. The failure to address 
responsible forest management for the health of the natural 
environment and for the safety of our communities simply defies 
logic.
    If we proactively manage our forests we can remove dead 
trees and restore forest areas with healthy trees that will 
once again absorb carbon, restore our environment to a healthy 
state, and protect people and communities from catastrophic 
wildfire.
    When developing a plan to improve conditions throughout the 
Western United States' vast expanses of forest, it should be 
common sense to include the input of those who live in the 
region and have a boots-on-the-ground view of the urgent 
challenges facing forest management. To that end, I have 
proposed a comprehensive, all-hands-on-deck approach to 
restoring forest health.
    The Healthy Forest Management and Wildfire Prevention Act, 
H.R. 818, would give States and affected counties and Tribes 
the authority to designate high-risk areas on the National 
Forest System land and lands under the jurisdiction of the 
Bureau of Land Management, as well as the authority to be able 
to provide for the development of proposed emergency hazardous 
fuels reduction projects for these high-risk areas. With 
increased local control, States can better protect their 
communities, species' habitats, water supplies, and natural 
areas with preventative action to control conditions fueling 
devastating wildfires.
    In addition to the environmental benefits of this 
legislation, it would provide incredible long-term cost savings 
by investing in prevention. The cost of proactive, healthy 
forest management is far less than the cost of wildfire 
suppression. According to the Forest Service, the Agency spent 
$296 million on hazardous fuel reduction treatments nationwide 
in 2012, while spending $1.77 billion on wildfire suppression 
during the same time.
    That is what this legislation and today's hearing is 
important, and what it is about: getting ahead of this problem 
by investing greater resources toward prevention so we can make 
a more proactive approach to restoring our forests' health to a 
natural state, and preventing intense wildfires that have 
caused so much damage throughout the West.
    I look forward today's hearing and the testimony from the 
Committee. Thank you, Mr. Chairman, and I yield back.
    Mr. Bishop. Thank you. I appreciate your testimony and your 
time here.
    Mrs. Kirkpatrick, you have been sitting here long enough. I 
apologize for that. We welcome you to this Committee, and we 
would like to give you the time now if you have a comment to 
make.

  STATEMENT OF THE HON. ANN KIRKPATRICK, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    Mrs. Kirkpatrick. Thank you, Mr. Chairman. Thank you for 
having this important hearing today. And thank you, Ranking 
Member Grijalva, for your participation. I want to extend a 
special thanks to my Arizona colleague, Congressman Paul Gosar, 
for extending a very kind and courteous hand to me during the 
week of the Yarnell fire, allowing me to attend briefings, 
participate in the memorial service, visit the fire site. It 
was a fire that had a personal impact on my family. Thank you, 
Congressman, very much, for that.
    The issues of forest health and management are important. 
But they carry a special significance right now, as folks 
across Arizona mourn the heartbreaking loss of 19 firefighters. 
These 19 men were bravely battling the Yarnell fire in 
Congressman Gosar's district when they died--this tragedy and 
our Nation's worst loss of first responders since 9/11. 
Unfortunately, Arizona has a long history of devastating 
wildfires, and it is important that we learn from them, and 
create smarter policies that protect our forests, our citizens, 
and our firefighters.
    In my Arizona district, we have millions of acres of 
national forest land and State land. We have suffered from 
several major fires in recent years. In 2011, the Walla fire 
was started by an abandoned campfire. It affected Apache, 
Greenlee, Graham, and Navajo Counties; 6,000 people were 
evacuated. It burned for 41 days before it was contained, and 
it burned about 538,000 acres, 840 square miles, making it the 
largest fire recorded in Arizona. The estimated cost was $109 
million.
    In 2010 the Schultz fire near my home in Flagstaff burned 
in Northern Arizona and was ignited by an abandoned campfire. 
It burned more than 15,000 acres of pristine forest in about 10 
days, and it forced the evacuation of more than 700 properties. 
The financial impact of the Schultz fire and its subsequent 
flooding reached more $130 million. Research found that the 
impact would have been lessened had the forest been thinned 
before the fire broke out.
    In 2002 the Rodeo-Chediski fire ravaged communities in my 
district, forcing the evacuation of 30,000 people from places 
like Sholo, Pinetop, Lakeside, and Heber-Overgaard; 468,000 
acres burned, and 400 homes were destroyed. It took 20 days to 
contain this fire, which was started, again, by humans.
    Today's hearing occurs during the current wildfire season. 
Fires are raging right now in Arizona and other areas of the 
West. So we need to treat the issue of forest health and 
management with urgency. So, allow me to share with you one 
example of something that can work.
    The Four Forest Restoration Initiative in Arizona is a 
collaboration of many diverse stakeholders. This project, known 
as 4FRI took root several years ago, and has come a long way 
since my previous term in Congress. We brought together the 
timber industry, conservationists, the Forest Service, and 
local communities from across district one. We worked on a plan 
to help our forests while strengthening rural economies at 
minimal cost to the taxpayer. The overall goal of 4FRI is to 
restore the structure, pattern, and composition of the historic 
fire adapted ecosystems. This will reduce ground fuels, it will 
aid forest health, wildlife, and plant diversity, and it has 
the support of the business sector.
    The business sector plays a key role in 4FRI by harvesting, 
processing, and selling wood products from the forest work. 
4FRI will create over 600 jobs and begin the restoration of 2.4 
million acres of forest land. It will help revitalize our 
region's timber industry, it will greatly reduce the threat of 
wildfires. 4FRI offers a model for helping our forests and our 
local economies.
    Mr. Chairman, again, thank you for this opportunity to 
discuss the need for real action. Let's do all we can to ensure 
our forests are healthy and to protect our communities and our 
first responders. Thank you.
    Mr. Bishop. Thank you very much. As with many of our 
guests, if you would like to stay and join us as part of the 
panel, you are welcome to come up on the dais, as well. If you 
have other business, I understand how that actually happens.
    Mrs. Kirkpatrick. I would like to stay for a while. Thank 
you, Mr. Chairman.
    Mr. Bishop. Thank you very much.
    The last Member who has asked to speak in this first panel 
is the other representative from Arizona, Mr. Gosar. In a 
previous meeting I actually introduced you ahead of time. So 
this time I got the names correct. I know who Gosar now is, you 
are not----
    Dr. Gosar. That is him, right?
    Mr. Bishop. Yes, you are----
    Dr. Gosar. I am Tipton.
    Mr. Bishop. You both look so much alike. Anyway, 
Representative Gosar, you would be recognized for a statement.

   STATEMENT OF THE HON. PAUL A. GOSAR, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    Dr. Gosar. Thank you. Before I get started, I would like to 
say my thoughts and prayers continue to go out to the people 
who have suffered from the terrible tragedy of the Yarnell 
fire. I would also like to take the time to express my sincere 
thanks and appreciation to all the men and women working around 
the clock to protect lives and property across this country.
    In my short 3 years in Congress, I have represented nearly 
all of rural Arizona, as a result of redistricting. Over that 
time, my constituents have become recurring victims of multiple 
wildfires each year. In my first year, the Waldo fire, now the 
largest fire in Arizona history, ravaged 800-plus square miles 
of our treasured Ponderosa Pine country in just a few short 
weeks. Last year, over 900 fires charred over nearly 6,000 
square miles in Western States. Over 50,000 of those acres are 
in Arizona alone, as a result of the Sunflower, Gladiator, 
Poco, Bull Flat fires, and this year, our State was struck with 
the loss of 19 firefighters in the Yarnell Hill fire. That fire 
was one of four fires to strike rural Arizona just so far in 
this fire season.
    Each of these fires has their unique circumstances. Some 
were by an Act of God, some human-caused. Some were on 
federally administered land, others were a combination of 
Federal, State, and private lands. Some are difficult to avoid 
and contain. The Yarnell Hill fire, for example, was started by 
lightning and ravaged brush on State and private land in 
Yavapai County before extending into public lands. Monsoon 
lands rapidly changed the direction of the fire, causing it to 
spread and change direction uncontrollably.
    But the fate of many of these fires can be changed. We can 
facilitate conditions that minimize the chance that they will 
start, and reduce their size and intensity once they burn. 
Today I would like to briefly touch on the experience that I 
have had in my State, and share what I believe Congress must do 
to address this crisis in rural communities. We owe it all to 
our brave men and women working in public safety, including our 
firefighters, who do everything they can to reduce the 
frequency and intensity of fires we send them into year after 
year. Our public safety officials can and will succeed.
    Funding. Without a doubt, we need to ensure proper forest 
health and firefighting programs are adequately funded. The 
House has actually led in this fight, putting forth robust 
funding hazardous fuel reductions, and other programs in our 
budgets. While the Administration and the Senate, particularly 
in their 2014 budget, proposed cuts. But we have to do more 
than just spend money. We have to do it smarter.
    The current Federal system continues to prioritize fighting 
fires. Although the need to suppress fires is never going to go 
away, we must shift to a proactive management of our public 
lands. If we don't, we are going to go bankrupt, both our 
Federal and local governments. We are going to lose natural 
treasures many of us hold dear, cause a rural way of life to go 
extinct, and imperil more of our public safety personnel.
    I would like to submit for the record Northern Arizona 
University's Ecological Restoration Institute report titled, 
``The Efficacy of Hazardous Fuel Treatments'' for the record. 
And it underscores this point. In short, it concludes that by 
proactively treating a significant portion of the Schultz fire 
imprint with an investment of $15 million, we could have 
greatly reduced the cost of the Schultz past fire, and avoid 
the damage and loss of life associated with the fire and post-
fire flooding that is now conservatively estimated between $133 
and $147 million. In other words, it is 10 times more expensive 
to suppress and recover from a fire than it is to prevent it.
    In the wildfire, we spent millions to put it out, and lost 
over $2.5 billion worth of assets. And this just talks about 
dollar signs. It is impossible to look at what the cost of the 
Mexican Spotted Owl nests that exist in the world; 20 percent 
were lost in that fire. Or even worse, how do we quantify the 
loss of 19 brave firefighters? We can't do that. But what we 
can do is prevent fires by implementing common sense solutions 
and applying them.
    Congress must give our land management agencies the tools 
they need to reduce forest fires and fuels, and restore the 
ecological balance of our Nation's national forests and 
grasslands. Two of the most important steps Congress could take 
is the extension and reform--and result--the stewardship 
contracting, and the expansion of the policy known as the Good 
Neighbor Authority.
    The Good Neighbor Authority is a tool that allows the Feds 
to partner with State foresters to treat our forests. Since 
2000, Colorado has used this for 40 projects. Utah used it to 
carry out 15 projects on 2,800 acres. The pilot study has been 
a success. It works. Expand it to all States.
    NEPA relief. The National Environmental Policy Act has 
become the third rail in natural resources. Any time any Member 
of Congress tries to amend the Act or streamline it, the 
proposal becomes dead on arrival. But nearly every expert in 
the field will tell you that you have to cut red tape if we are 
going to seriously address our forest health.
    These are just a few major items I believe Congress must do 
to make it work. We can and we must do this together. Congress 
can focus on this issue, but the time to work is now. We must 
build some type of consensus and navigate some type of these 
solutions. I have my legislation, The Catastrophic Wildfire 
Prevention Act, which accomplishes many of these items I have 
put forward today. So do many of the other Members with their 
bills.
    What I would like to leave with is let's figure out what we 
can all support and get it done. We have an obligation to 
provide relief to our rural communities. I want to remind 
people ``no'' isn't an answer, particularly from the 
environmental communities. If not, there will be consequences.
    I look forward to hearing from the community and from the 
experts today, and I thank you for the opportunity to speak.
    Mr. Bishop. Thank you. I appreciate all the Members who 
have taken the time to speak in this first panel. I appreciate 
very much your efforts and the words you have shared.
    I ask, without objection, the information that Mr. Gosar 
wished to place in the record will be placed in the record.
    [The Northern Arizona University Ecological Restoration 
Institute report titled ``The Efficiency of Hazardous Fuel 
Treatments'' is available online at: http://
blogs.missouristate.edu/gpfirescience/files/2013/05/
DOI_Efficacy-of-Fuel-Treatments_final.pdf.]
    Mr. Bishop. Without objection, any other Member that wishes 
to have an opening statement placed in the record, if they 
present it to staff, to the office of the clerk, by the close 
of business today, it will also be included.
    And for Ms. Kirkpatrick, even though you are here 
officially, I need to have a vote on that. Without objection, 
we would ask Ms. Kirkpatrick and any other member of the full 
Committee who may be here, to be able to join us on the dais.
    [No response.]
    Mr. Bishop. OK, we have covered that.
    I would now like to introduce the second panel and ask them 
to come and take their places. We have Mr. Jim Hubbard, who is 
the Deputy Chief, State and Private Forestry, for the U.S. 
Forest Service; James Douglas, who is the Acting Director, 
Office of Wildland Fire, and Senior Advisor, Public Safety, 
Resource Protection, and Emergency Services in the U.S. 
Department of the Interior--you must have two doors to get all 
that stuff on there.
    [Laughter.]
    Mr. Bishop. Mr. Phil Rigdon, who is the Deputy Director of 
the Yakama Nation Department of Natural Resources, who has 
already been introduced by Chairman Hastings; Joe Duda, who is 
the Deputy Forester from the Colorado State Forest Service at 
Colorado State University; Christopher Topik, who is the 
Director of Restoring America's Forests, North America Region; 
and Chuck Roady, who is the Vice President and General Manager 
of F.H. Stoltze Land and Lumber Company. I hope the name Roady 
is correctly pronounced.
    Mr. Roady. Yes, sir.
    Mr. Bishop. And I understand you are also from Montana and 
a constituent of Mr. Daines. I would like to turn to Mr. Daines 
for just a second to introduce Mr. Roady to the panel.
    Mr. Daines. Thank you, Mr. Chairman. It is my honor to 
introduce Mr. Chuck Roady here this morning, a fellow Montanan. 
This is a critical issue for one of my constituents, Mr. Roady, 
as well as myself, and it is why I am grateful he is here 
today.
    Let me tell you a little about Chuck. He manages Stoltze 
Lumber. This is a lumber mill located in the beautiful Flathead 
Valley in the northwest corner of our State. We talk a lot 
about endangered species on this Committee. The lumber mills in 
Montana are an endangered species. We used to have 30 of them; 
we are down to 8 over the course of time. We are going to talk 
more about why that is the case.
    When I was visiting Chuck's mill up in Northwest Montana 
here recently he gave me something that is in my office. It is 
a coaster. And I think this illustrates what is going on and 
why we need responsible forest management. What you have here 
is a cross-section of two different trees, both the same 
diameter. If you remember from your high school biology days, 
you count rings of trees to determine age, one ring per year. 
On one side is a tree that is 56 years old. You flip it over, 
there is another tree that is 9 years old. Why the difference? 
This tree that is 9 years old had responsible forest management 
and thinning techniques. Like anybody knows who manages 
forests, this side did not. And it is 56 years old. So we are 
going to hear more about why it is important to responsibly 
manage our forests. Because, guess what? Trees grow faster, and 
we reduce fire risk.
    And speaking of fire, let me just say this. We lost a 
Montana firefighter in that Yarnell fire last week. A young 
man, Dustin DeFord, from Ekalaka, Montana, the pride of that 
community, one of nine children. His older brother, a staff 
Marine sergeant in Afghanistan, is coming home for the memorial 
service. He was a true prize, and we extend our condolences to 
the DeFord family of Ekalaka, Montana.
    Mr. Stoltze's mill has survived the worst recession in 
history. He has survived the decline of the timber industry in 
my State, and saw the most devastating wildfires that we have 
seen in Montana last year since 1910. Today Stoltze sustains 
thousands of acres of timberland. They have always been the 
cutting edge of technology, as well as good forest stewardship, 
and his organization is committed to the land, and is here 
today to testify to their challenges.
    And let me say this. In Montana, land use is critical to 
our way of life, not only for our jobs--we have to start with 
having a job so we can stay in the State--but also for what we 
like to do on the weekends. And to show the balance that Mr. 
Roady has, he not only, in his day job here, is involved with 
Stoltze, but he also serves on the board of directors for the 
Rocky Mountain Elk Foundation. There is a classic example of 
somebody who works where he also likes to play. And that 
captures, I think, the way that most Montanans feel, that we 
can have both responsible forest management and a great place 
to take our kids hunting and fishing.
    Responsible stewardship on forest lands by companies like 
Stoltze continues to be held back by frivolous litigation by 
fringe environmental groups. We will talk more about that. The 
folks who are stopping this are not the folks who are 
collaborating at the table right now; it is the folks who 
aren't there who file these lawsuits and stop responsible 
forest management. It is overwhelmingly evident that reforms 
are needed to protect the health of our forests, the safety of 
our communities, our watersheds, and the strength of our timber 
industry, which is jobs. It is of great importance to Montana's 
economy.
    Thanks for being here, Chuck.
    Mr. Bishop. Thank you, Congressman Daines. I am glad 
counting the rings only deals with trees and not me. I was able 
to get that same girth--never mind.
    Mr. Daines. I yield back my time, Mr. Chairman.
    Mr. Bishop. Thank you. You cut me off at the right time.
    [Laughter.]
    Mr. Bishop. We look forward to the panel's testimony.
    For those of you who have not been here before, your 
written testimony is part of the record already. This is an 
oral addition to the testimony, so it doesn't need to be 
replicative of what you have already given us in written form.
    In front of you is the timer there. When your 5 minutes 
starts, the green light will go on. When the yellow light comes 
on you have a minute left, so that is when you have to speed 
up. And when it turns red again we wish you would stop in mid-
sentence, if possible.
    So, we will turn, first of all, to Deputy Chief Hubbard, if 
you would, from the Forest Service. I appreciate having you 
here. You are recognized for 5 minutes for an oral statement.

  STATEMENT OF JAMES HUBBARD, DEPUTY CHIEF, STATE AND PRIVATE 
 FORESTRY, U.S. FOREST SERVICE, U.S. DEPARTMENT OF AGRICULTURE

    Mr. Hubbard. Thank you, Mr. Chairman, Ranking Member 
Grijalva. The Forest Service, too, would like to express its 
condolences to the families and for the firefighters that lost 
their lives, the Granite Mountain Hotshot crew.
    Our forest conditions, combined with our weather, continue 
to be dangerous. We don't see that changing for the foreseeable 
future. We have fires starting earlier in the season, and the 
season lasting longer than it has before, the fires are burning 
hotter, and there is more in the way, in terms of value, 
especially homes and people.
    This fire season has--already tragic. It didn't materialize 
much in the East, but it is in the West. And our forecasts tell 
us that we will continue to have problems, especially in 
California and Oregon. Montana and Idaho, to some extent.
    We in the Forest Service certainly agree that restoration 
and hazardous fuels reduction are important to dealing with 
this situation. So far, currently, we are able to treat 4 
million acres a year in restoration and hazardous fuels 
treatments. And, as this panel will tell you, that is going to 
be an even more important thing as we move into the future with 
the kinds of conditions that we face.
    And as Mr. Grijalva and Mr. Gosar have already said, 
stewardship contracting and Good Neighbor Authorities are tools 
that do help. And those--an extension of those tools would be 
very useful.
    The key to all of this, as far as the Forest Service is 
concerned, is a collaborative approach across the boundaries. 
That forest condition is certainly on the National Forest 
System lands, but it doesn't stop there. And so it is the 
Federal agencies, it is the Tribes, it is the States, it is the 
local governments, it is the homeowners that have to all work 
together on any incident, any situation that we face, if we are 
going to be successful in protecting those values.
    It is the fuels, it is the forest condition, it is the 
development, it is the fire-adapted communities, all of that 
within an ecosystem that depends on the fire. And, as you 
stated in your opening remarks, Mr. Chairman, it is about a 
sustainable response which we struggle with. It is about 
protecting those communities. And it is about restoring the 
landscapes. If we put all that together, we have some chance of 
success. That has been difficult to achieve.
    And we would like to offer the Forest Service would 
continue to work with this Committee to find solutions. Thank 
you, Mr. Chairman.
    [The prepared statement of Mr. Hubbard follows:]

 Statement of James Hubbard, Deputy Chief, State and Private Forestry, 
             Forest Service, U.S. Department of Agriculture

    Chairman Bishop, Ranking Member Grijalva and members of the 
Subcommittee, thank you for the opportunity to appear before you today 
to provide the status of the U.S. Department of Agriculture (USDA) 
Forest Service's wildland fire and forest management program. I first 
would like to offer my condolences and the condolences of the Chief on 
behalf of the Forest Service to the families of the members of the 
Granite Mountain Interagency Hotshot Crew.
    Secretary Vilsack and the Forest Service recognize the importance 
of increasing the pace and scale of forest restoration in our National 
Forests while at the same time preventing and responding to wildland 
fires. We must manage and restore more acres to reduce the threat of 
catastrophic wildfire, to address insects and disease, and to restore 
the ecological health of forests for the benefit of all Americans. We 
address the need to restore ecosystems through two strategies: the 
Accelerated Restoration Strategy and the National Cohesive Wildland 
Fire Strategy.
    According to the Drought Monitor, more than 44 percent of the 
contiguous United States is in a moderate or more severe stage of 
drought--in many portions of the country 2012 was among the driest 
years on record. In addition, insects and disease have weakened the 
resilience of America's forests. Nationally, approximately 80 million 
acres of trees are projected to be at risk of severe mortality due to 
insect and disease. Over the past 10 years in the West, approximately 
45 million acres across all land ownerships have been affected by 20 
different species of bark beetles. It is estimated that there are 
between 65 and 82 million acres of National Forest System (NFS) lands 
in need of restoration because of high and very high risk of fire.
    Facing these threats, we've recognized for some time the importance 
of increasing our restoration efforts. We continue to explore new and 
existing tools to become more efficient. In February 2012, the FS 
outlined a strategy for increasing restoration activities across large 
landscapes through more efficient implementation of existing programs 
and policies, as well as pursuing new initiatives. This strategy will 
allow the Forest Service to increase the number of acres and watersheds 
restored across the National Forest System, while supporting existing 
infrastructure and jobs. Through these efforts, in FY 2012, the FS 
attained 2.6 billion board feet (BBF) volume sold and exceeded a number 
of restoration targets.
FOREST MANAGEMENT
    It is widely recognized that management of our forest resources has 
not kept pace with the ever increasing need for restoration. 
Organizations such as the National Forest Foundation, American Forest 
Foundation, The Nature Conservancy, the National Association of State 
Foresters, the Wilderness Society, the U.S. Endowment for Forests and 
Communities, the Intertribal Timber Council, and the Western Governors 
Association have embraced an agenda to actively restore the resiliency 
of landscapes and provide for community vitality. The Forest Service is 
striving to increase the number of acres that are restored by a variety 
of treatments annually.
    The Forest Service recognizes the need for a strong forest industry 
to help accomplish forest restoration work. The best opportunity for 
reducing the cost of these restoration treatments is through forest 
management using timber and stewardship contracts. We have worked with 
sister USDA agencies to implement the Department's Wood to Energy 
Initiative. In FY 2012, our joint efforts resulted in private and 
public investments potentially exceeding $1 billion in wood energy. For 
example, funding provided by this Initiative is being used to construct 
is an 11.5 megawatt power plant in Gypsum, Colorado.
    The forest products industry workforce is larger than either the 
automotive or chemical industries, currently employing nearly 900,000 
workers. Encouragingly, there have been recent upturns in the housing 
market and lumber prices, resulting in higher demand and prices for 
sawtimber. The capacity exists within the current industry 
infrastructure to meet this increased demand for lumber through adding 
extra shifts, reopening mills, and achieving efficiency gains. The 
higher demand and prices for timber will enable the Forest Service to 
complete more restoration treatments. In spite of flat budgets in the 
past few years, the Forest Service increased the timber volume sold 
from 2.38 BBF in 2008 to 2.64 BBF in 2012. However, even though we will 
continue to search for efficiencies, due to increased budget cuts in 
2013 and projected cuts in 2014, we project a slight decline in 
restoration treatments in both years.
    To accomplish effective vegetation management, the Forest Service 
is fostering a more efficient National Environmental Policy Act (NEPA) 
process by focusing on improving agency policy, learning, and 
technology. These NEPA process improvements will increase decision-
making efficiencies, resulting in more on-the-ground restoration work 
getting done more quickly and across a larger landscape. Specifically, 
we are looking at expanding the use of focused Environmental 
Assessments (EAs), expanding categories of actions that may be excluded 
from documentation in an EA or an environmental impact statement (EIS), 
and applying an adaptive management framework to NEPA.
    Our landscape-scale NEPA projects will also increase efficiencies. 
For example, our Mountain Pine Beetle Response Project on the Black 
Hills National Forest is implementing a landscape-scale adaptive 
approach for treating current and future pine beetle outbreaks within a 
200,000 acre area. Since signing the decision of the project last 
December, the Forest has already completed one timber sale and has two 
others planned for this fiscal year. Sales for next fiscal year have 
been identified, along with plans to treat existing and newly infested 
areas in subsequent years. This project has given the Forest greater 
flexibility in treating existing and new infestations in a timely and 
strategic manner.
    All of these efforts are aimed at becoming more proactive and 
efficient in protecting the Nation's natural resources, while providing 
jobs to the American people.
COLLABORATIVE FOREST LANDSCAPE RESTORATION AND STEWARDSHIP CONTRACTING
    The 23 Collaborative Forest Landscape Restoration (CFLR) projects 
emphasize restoration across large scale landscapes. In addition to 
finding efficiencies in planning and treating larger landscapes, CFLR 
emphasizes collaboration. Collaboration with our partners and 
stakeholders from all interest areas is one of the tools to becoming 
more efficient through shared development and understanding of the 
desired condition, objectives, and issues at the outset of projects. In 
2012, these projects exceeded the targets for the majority of 
performance measures.
    In Arizona, the Four Forest Restoration Initiative project is 
contributing to healthier ecosystems and safer communities, and 
supporting rural communities. In addition to a range of other 
restoration activities, this project has treated hazardous fuels on 
more than 171,900 acres, produced more than 168 MMBF of timber and more 
than 878,817 green tons of bioenergy since 2010.
    Colorado has two CFLR projects which are having a measurable impact 
on rural economies. The Uncompahgre Plateau project as well as projects 
on other lands administered by the Grand Mesa, Uncompahgre and Gunnison 
National Forests will play a key role in support of the newly opened 
lumber mill in Montrose. To date, the Uncompahgre project has generated 
12 MMBF of timber and reduced hazardous fuels on more than 11,500 
acres. As part of the Colorado Front Range project, Denver Water 
contributed more than $1,000,000 in 2012 for restoration efforts. Since 
FY 2010, the Front Range project has reduced hazardous fuels on more 
than 17,000 acres, and generated more than 17 MMBF of timber.
    Three CFLR projects are underway in Idaho, creating measurable 
shifts in ecosystem resilience and supporting local economies. The 
Selway-Middle Fork project has sold more than 13 MMBF of timber and 
harvested more than 2,000 green tons of biomass. The Weiser-Little 
Salmon Headwaters project, selected for funding in FY 2012, has already 
maintained or generated 136 direct full or part-time jobs. The project 
plans to generate 50,000 green tons of biomass annually and 
approximately 25 MMBF of saw timber annually. In FY 2012 the Forest 
completed a major NEPA analysis that approved vegetative treatments on 
more than 25,000 acres. The Kootenai Valley Resource Initiative, also 
selected for funding in FY 2012, will treat 39,430 acres mechanically 
over 10 years. The project generated more than 10 MMBF of timber and 
produced more than 2,700 green tons of bioenergy.
    Stewardship contracting is a critical tool to allow the Forest 
Service to more efficiently complete restoration activities, along with 
continuing to use timber sales to accomplish our restoration efforts. 
Permanently reauthorizing stewardship contracting and expanding the use 
of this tool is crucial to our ability to collaboratively restore 
landscapes at a reduced cost to the government by offsetting the value 
of the services received with the value of forest products removed. In 
FY 2012, 25 percent of all timber volume sold was under a stewardship 
contract. Stewardship contracting authorities allow the Agency to fund 
watershed and wildlife habitat improvement projects, invasive species 
removal, road decommissioning, and hazardous fuels reduction 
activities.
WILDLAND FIRE MANAGEMENT
    At the same time the Forest Service undertakes these restoration 
efforts, wildland fires continue to impact our nation's forests and the 
agency.
    In 2012, over 9.3 million acres burned in the United States. The 
fires of 2012 were massive in size, with 51 fires exceeding 40,000 
acres. Of these large fires, 14 exceeded 100,000 acres (NICC 2012). The 
increase in large fires in the west coincides with an increase in 
temperatures and early snow melt in recent years. This means longer 
fire seasons. The length of the fire season has increased by over two 
months since the 1970s (Westerling, 2006).
    We estimate that 65 to 82 million acres of National Forest System 
lands are in need of fuels and forest health treatments--up to 42 
percent of the entire system. Part of the problem is severe drought, 
resulting in extreme fire weather and very large fires. At the same 
time that landscapes are becoming more susceptible to fire impacts, 
more and more Americans are choosing to build their home in wild lands. 
The number of housing units within half a mile of a national forest 
grew from 484,000 in 1940 to 1.8 million in 2000. In 2000, nearly a 
third of U.S. homes (37 million) were located in the Wildland Urban 
Interface (Radeloff and others, 2005).
NATIONAL COHESIVE WILDLAND FIRE MANAGEMENT STRATEGY
    In 2009, Congress passed the Federal Land Assistance, Management, 
and Enhancement (FLAME) Act calling on federal land managers to develop 
a joint wildland fire management strategy. Working together with the 
Department of the Interior, we took the opportunity to involve the 
entire wildland fire community in developing a long-term National 
Cohesive Wildland Fire Management Strategy. Our strategy has three 
components:
        1.  Restoring fire-adapted ecosystems. Hundreds of post-fire 
        assessments show that fuels and forest health treatments are 
        effective in reducing wildfire severity. Accordingly, our fuels 
        treatments have grown. From FY 2001 to FY 2011, the Forest 
        Service treated about 27.6 million acres. We focus our 
        treatments on high-priority areas in the Wildland Urban 
        Interface, particularly communities that are taking steps to 
        become safer from wildfire.
        2.  Building fire-adapted human communities. With more 
        communities in the Wildland Urban Interface at risk from 
        wildfire, the Forest Service is working through cross-
        jurisdictional partnerships to help communities become safer 
        from wildfires in part by developing community wildfire 
        protection plans. Through the Firewise program, the number of 
        designated Firewise communities--communities that have 
        implemented actions to help prevent the potential for home 
        ignitions from wildfire using techniques in home siting and 
        development, home construction, and home landscaping and 
        maintenance--rose from 400 in 2008 to more than 700 in FY 2012.
        3.  Responding appropriately to wildfire. Most of America's 
        landscapes are adapted to fire; wildland fire plays a natural 
        and beneficial role in many forest types. Where suppression is 
        needed to protect homes, property and resources, we focus on 
        deploying the right resources in the right place, at the right 
        time. Using improved decision support tools, fire managers are 
        making risk-based assessments to decide when and where to 
        suppress a fire--and when and where to use fire to achieve 
        management goals for long-term ecosystem health and resilience.
RESTORING ECOSYSTEMS
    The Forest Service is restoring the ability of forest and grassland 
ecosystems to resist climate-related stresses, recover from climate-
related disturbances, and continue to deliver important values and 
benefits. By restoration, we mean restoring the functions and processes 
characteristic of healthier, more resistant, more resilient ecosystems, 
even if they are not exactly the same systems as before. Restoring and 
maintaining fire resilient landscapes is critical and essential to our 
stewardship responsibilities for the national forests. Factors 
including human activities and land development, loss of indigenous 
burning practices, and fire suppression have all led to changes in 
forests that historically had frequent fires. Some forests have 
experienced a buildup of trees and brush due to a lack of fire. In some 
areas fuel loads on the forest floor have increased where low intensity 
fires were historically the norm. These forest types are now seeing 
high severity fires under even moderate weather conditions.
    Approaches to restoring vegetation closer to an historic range of 
variability within fire-adapted ecosystems often require treatment or 
removal of excess fuels (e.g., through mechanical thinning, prescribed 
fire, or a combination of the two), reducing tree densities in 
uncharacteristically crowded forests, and application of fire to 
promote the growth of native plants and reestablish desired vegetation 
and fuel conditions. Excess fuels are those that support higher 
intensity fires than those under which the ecosystem evolved, and can 
include leaf litter and debris on the forest floor as well as the 
branches and foliage of small trees that provide ladder fuels allowing 
surface fires to transition to crown fires.
    When a wildfire starts within or burns into a fuel treatment area, 
an assessment is conducted to evaluate the resulting impacts on fire 
behavior and fire suppression actions. Over 1,600 assessments have been 
conducted to date, of which over 90% of the fuel treatments were found 
to be effective in changing fire behavior or helping with control of 
the wildfire (USFS, Fuels Treatment Effectiveness Database).
    In Fiscal 2012, the Forest Service accomplished over 1.2 million 
acres of prescribed fire, over 600 thousand acres of mechanical 
treatment to reduce hazardous fuels, and over 140 thousand acres of 
managed wildfires to benefit natural resources as well as reduce 
hazardous fuels for a total accomplishment of 2 million acres. The 
Wildland Urban Interface remains the highest priority and approximately 
1.2 million of the total treated acres were in the WUI. Of these 
treatments, 93 percent of the acres accomplished were identified as a 
treatment priority in a community wildfire protection plan or an 
equivalent collaborative plan. Hazardous fuels treatments also produced 
2.8 million green tons used for energy and 900 thousand CCF of wood 
products. In FY 2012, 20 biomass grant awards from the Woody Biomass 
Utilization Grant program totaling approximately $3 million were made 
to small business and community groups across the country. The Woody 
Biomass Utilization Grant program has contributed to the treatment of 
over 500,000 acres and removed and utilized nearly 5 million green tons 
of biomass at an average cost of just $66 per acre. Grantees also 
reported a combined 1,470 jobs created or retained as a result of our 
grant awards.
FIRE ADAPTED COMMUNITIES
    The spread of homes and communities into areas prone to wildfire is 
an increasing management challenge. From 2000 to 2030, we expect to see 
substantial increases in housing density on 44 million acres of private 
forest land nationwide, an area larger than North and South Carolina 
combined (USDA Forest Service. 2005. Forests on the Edge: Housing 
Development on America's Private Forests. PNW-GTR-636. Portland, OR: 
Pacific Northwest Research Station). Currently, more than 70,000 
communities are now at risk from wildfire, and less than 15,000 have a 
community wildfire protection plan or an equivalent plan. (USDA Forest 
Service. 2012. National Fire Plan Operations and Reporting System.) 
Federal engagement with State and local fire agencies and other 
partners is central to our collective success in assisting communities 
at risk from wildfires. Wildfires know no boundaries, and we must work 
within an all-lands context to prevent human caused fires, mitigate 
risk to communities, and manage for and respond to wildfires. According 
to studies cited in the 2013 USDA Forest Service General Technical 
Report (RMRS-GTR-299), more than one-third of all housing units in the 
continental U.S. are located within the wildland urban interface, and 
the trends suggest that these numbers will continue to grow.
    To help address the risk faced by communities in the WUI, the 
Forest Service began developing the Fire Adapted Communities program in 
2009, with a 2012 launch (including the website www.fireadapted.org and 
an Ad Council national public awareness campaign). This program assists 
communities in becoming fire adapted and is critical to protecting 
residents, firefighters, property, infrastructure, natural resources, 
and cultural values from wildfires. The strategy emphasizes that 
mitigation is a shared responsibility by federal, state, local, and 
private stakeholders and that pre-fire mitigation is part of the 
solution to escalating wildfire suppression costs in the WUI.
    The Forest Service's Fire Adapted Communities effort brings 
together a wide array of government and non-government partners to 
educate the public about the full suite of mitigation tools that can 
help communities adapt to wildfire. Fire Adapted Communities messaging 
is delivered by partners including the National Fire Protection 
Association (NFPA), International Association of Fire Chiefs (IAFC), 
The Nature Conservancy (TNC), Ad Council, National Volunteer Fire 
Council (NVFC), and the National Association of State Foresters (NASF) 
who leverage federal dollars with their own program dollars for maximum 
effect. Fire Adapted Communities create a safer place for firefighters, 
give response teams more decision space, reduce the need for additional 
suppression in the community, and reduce large fire suppression costs.
FIREFIGHTING RESOURCES
    The agency has the capability to protect life, property, and 
natural resources while assuring an appropriate, risk-informed, and 
effective response to wildfires that is consistent with land and 
resource management objectives. We do this through not only the 
resources of the Federal Government, but also with employees from 
States, tribal governments, and local governments, contract crews, and 
emergency/temporary hires. Firefighter and public safety are the 
primary considerations for all operations. The agency continues to 
suppress about 98 percent of the fires on initial attack. However, the 
few fires that escape initial attack tend to grow quickly.
    Wildland fire response requirements are unpredictable. This 
requires a workforce management strategy that can increase and decrease 
based on fire activity levels. The FS employs both permanent 
firefighting assets, which also conduct fuels treatments, and seasonal 
assets to support suppression activities during peak fire season. Call 
When Needed (CWN) assets are important in meeting fire response 
requirements when activities exceed our standard asset capability. 
Firefighting assets are employed in a cost effective way when they are 
justified within our preparedness and suppression strategies. We 
evaluate each asset's cost effectiveness relative to the need they 
meet.
    Under the President's budget for FY14, suppression capability will 
be comparable to previous years. However, we recognize that given 
limited budgets, maintaining this capability will present challenges. 
With greater mobility and with agreement to focus assets on high risk 
areas, it is likely that high levels of initial attack success will 
continue. For the 2013 fire season, the available firefighting forces--
firefighters, equipment, and aircraft--are slightly reduced when 
compared to those available in 2012 due to sequestration. Nonetheless, 
we will have close to 13,000 firefighters available from the Department 
of Agriculture and the Department of the Interior with approximately 
70% coming from the Forest Service. The reduction resulted in fewer 
firefighters and engines, but the level of highly-trained smokejumpers, 
Type 1 national interagency incident management teams (the most 
experienced and skilled teams) available for complex fires or 
incidents, and Type 2 incident management teams available for 
geographical or national incidents, are comparable to those available 
in 2012. Depending on how the 2013 fire season develops, we are 
prepared to bring on additional CWN resources (engines and aircraft) to 
offset the reduction in firefighters and engines. However these 
additional resources will increase suppression costs since the cost of 
CWN resources averages 1.5 to 2 times the cost of exclusive use 
resources.
    Additionally, the federal wildland firefighting community works 
with State and local fire departments, which serve a critical role in 
our initial attack and, in many cases, our extended attack success. The 
Forest Service uses its authority to provide State Fire Assistance 
funds to State partners to support State fire management capacity. We 
could not achieve the successes we have without these key partners.
    Nationally, the wildland firefighting agencies continue to employ a 
mix of fixed and rotor wing aircraft. The number of these aircraft may 
fluctuate depending on contractual and other agreements. Key components 
of the Forest Service 2013 aviation resources include:
        <bullet>  Up to 26 contracted large air tankers;
        <bullet>  420 helicopters;
        <bullet>  15 leased Aerial Supervision fixed-wing aircraft;
        <bullet>  Up to 12 Smokejumper aircraft;
        <bullet>  2 heat detecting infrared aircraft;
        <bullet>  3 water scoopers including 1 CL-415.
    An additional key component is the organized network of 295 
federal, state, and local government dispatch and coordination centers 
which provide tactical, logistical, and decision support to the federal 
wildland fire agencies.
CHALLENGES
    We face a number of challenges to implement our Restoration 
Strategy. At the completion of fiscal year 2012, we were on a 
trajectory to increase treatment acres, along with timber harvest. In 
2013, at a time when lumber prices are increasing and the additional 
value can help pay for other restoration work, we received a reduced 
budget with the same reduction projected for 2014. We have had to 
decrease the amount of acres we could treat, along with timber volume 
to reflect these budget reductions. In addition to declining budgets, 
we are facing another active fire year. Costs of wildland fire 
management have increased to consume nearly half of the entire FS 
budget. In FY 1991, fire activities accounted for about 13 percent of 
the total agency budget; in FY 2012, it was over 40 percent.
    Post-wildfire rehabilitation costs can exceed the costs of 
suppression by 2 to 30 times, as shown in the ``The True Cost of 
Wildfire in the Western U.S. (Western Forestry Leadership Coalition 
2010). Over the last two fiscal years the FS Burned Area Emergency 
Response (BAER) program spent almost $94 million in emergency 
stabilization efforts on NFS lands immediately after fires to help with 
erosion, flooding, and other threats to human health and safety, and 
threats to resources. Treatments were as diverse as hillside 
stabilization, road protection, hazardous material stabilization, and 
hazard tree removal, as well as myriad other treatments, and this does 
not include the long-term costs of reforestation and monitoring.
    Staffing within the Agency has also shifted to reflect an increased 
focus on fire. Since 1998 fire staffing within the FS has increased 110 
percent from over 5,700 in 1998 to over 12,000 in 2012. Over the same 
time period, staffing levels for those dedicated to managing NFS lands 
have decreased by 35 percent from over 17,000 in 1998 to over 11,000 in 
2012. In particular, Forest Management staffing has decreased by 49 
percent from over 6,000 in 1998 to just over 3,200 in 2012.
    Fire transfers occur when the agency has exhausted all available 
fire resources from the Suppression and FLAME accounts. From FY 2002 to 
FY 2012, the Forest Service made fire transfers from discretionary, 
mandatory, and permanent accounts to pay for fire suppression costs six 
times, ranging from $100,000,000 in FY 2007 to $999,000,000 in FY 2002, 
and totaling approximately $2.7 billion. Of that total, $2.3 billion 
was eventually repaid but still led to disruptions within all Forest 
Service programs. In FY 2012, the Forest Service transferred $440 
million to the fire suppression account for emergency fire suppression 
due to severe burning conditions and increasing fire suppression costs. 
Projects at all levels of the organization were deferred or canceled as 
a result of the transfers.
    When transfers are necessary, we attempt to reduce the impacts on 
our operations and public services. Still, each time the agency 
transfers money out of accounts to pay for fire suppression there are 
significant and lasting impacts across the entire Forest Service. Not 
only do these impacts affect the ability of the Forest Service to 
conduct stewardship and restoration work on national forests, they also 
affect our partners, local governments and Tribes.
ISSUES FOR THE FUTURE
    The largest issue is how we adapt our management to anticipate 
climate change impacts and begin to mitigate their potential effects. 
Additionally, the Agency needs to continue to advance the Cohesive 
Strategy and treatment of landscapes collaboratively through our 
Accelerated Restoration Strategy to increase the number of acres and 
watersheds restored across the system, while supporting jobs and 
increasing annual forest products sales. Finally, we must discuss and 
find ways to fund fire programs while minimizing the effect on all 
Forest Service operations, including restoration efforts.
    Despite these challenges, we remain optimistic that through 
collaboration with our many interest groups and officials the FS can 
improve accomplishment of our restoration objectives. I want to thank 
the Committee for its interest, leadership, and commitment to our 
national forests and their surrounding communities. I would be pleased 
to answer any questions you may have.
                                 ______
                                 
    Mr. Bishop. Thank you very much.
    Mr. Douglas.

STATEMENT OF JAMES DOUGLAS, ACTING DIRECTOR, OFFICE OF WILDLAND 
 FIRE, SENIOR ADVISER, PUBLIC SAFETY, RESOURCES PROTECTION AND 
      EMERGENCY SERVICES, U.S. DEPARTMENT OF THE INTERIOR

    Mr. Douglas. Good morning, Mr. Chairman, Ranking Member 
Grijalva. I am joined today by Linda Boody, the Division Chief 
for Forests, Rangeland, Riparian, and Plant Conservation in the 
BLM, along with myself, today.
    I too join members of the Committee, members of the 
community, the Forest Service, in grieving the loss of the 19 
firefighters in Arizona. It is a time of sadness for the 
community. And it reminds us, as has been said before, this 
isn't just a Federal issue. Those were not Federal employees, 
they were not working on Federal ground. This is a national 
problem that we face. And it is going to require national 
solutions, everybody working together.
    A few words about the 2013 fire season. We are well into 
it, as has been expressed already today. As Jim Hubbard has 
said, the outlook is primarily dire along the West Coast, 
California, up into Oregon. But as we saw in Colorado with 
severe fires there this summer, just because the outlook 
doesn't say that is a high fire danger area doesn't mean that 
we are not going to have fires. So it helps us predict where, 
when, and how to preposition our resources, but it certainly 
doesn't predict when and where fires will occur.
    A few words about our 2013 fire preparedness. Like all 
agencies, we had to absorb some reductions due to the 
sequester. We are down about 100 fire seasonal positions. We 
are down about 250 overall positions. We have cut back on non-
essential travel, training, equipment, that sort of thing, and 
focused our preparedness on this fire season and readiness for 
this fire season.
    That is getting us through this year. I will point out, 
though, that does have long-term consequences. The fewer people 
we hire now, the fewer people we have for the workforce of the 
future, going into our leadership ranks. If we postpone 
training, we reduce our capabilities for the future. When we 
postpone replacement of equipment and technologies, we fall 
further behind. So we are mindful of the long-term consequences 
of continuing to reduce and looking for efficiencies and 
effective ways to improve our capabilities.
    I join Mr. Hubbard and the Forest Service in our commitment 
to inter-agency collaboration. It is not just between the 
Federal agencies, it is with State agencies, local agencies, 
tribal agencies, private citizens, to meet the three goals of 
our national cohesive strategy for resilient restoring and 
maintaining resilient landscapes for building fire-adapted 
communities and for having safe and resilient--or, I am sorry, 
for having safe and effective response capabilities. That 
requires a mixture of activities, it requires a good 
preparedness workforce, it requires good response.
    But it also requires us to work effectively prior to fires, 
treating fuels where they pose dangers to the landscape, to the 
communities, and to our firefighters. And, along with the 
Forest Service, we are committed to continuing to place 
treatments on the ground. We treat an average of a little over 
a million--probably a million-three acres a year in the 
Department of the Interior. We will continue to do that in the 
most effective and high-priority areas.
    I will point out there are two large forces that have been 
mentioned, at least in passing, already this morning that we 
are dealing with. One is the continued settlement into wildland 
areas as our population grows, our communities grow, we have 
more and more interface with wildland areas, presenting more 
and more opportunities for conflict between human settlement 
and fire. And that is a reality that we all have to deal with, 
in terms of how we hardscape our communities, how we treat our 
landscapes, how we manage.
    And the second is--again, as Jim Hubbard mentioned, we are 
getting longer fire seasons, we are getting higher 
temperatures, we are getting changing precipitation patterns, 
we are getting increased fire severity on those fires, larger 
fires, longer fires.
    Those are our challenges that, collectively, we need to 
look at our training, we need to look at our equipment, we need 
to look at our response protocols, and we need to look at what 
we can do to mitigate those measures ahead of time with 
appropriate fuels treatments in the right places.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Douglas follows:]

  Statement of Jim Douglas, Acting Director, Office of Wildland Fire, 
                    U.S. Department of the Interior

Introduction
    Chairman Bishop, Ranking Member Grijalva, and members of the 
Subcommittee, thank you for the opportunity to testify today on the 
Department of the Interior's readiness for the 2013 wildland fire 
season. The U.S. Department of the Interior (DOI), along with the 
Forest Service within U.S. Department of Agriculture, is prepared for 
the 2013 wildland fire season with our available resources.
2012 Wildfire Season
    For the Department, the 2012 wildfire season was an active year. 
The fire season was especially notable because about 9.3 million acres 
burned across the United States (all jurisdictions) one of the largest 
fire seasons in terms of annual acreage burned, based on the reporting 
of fire statistics from 1960 to present. Fifty-one fires exceeded 
40,000 acres in 2012, ten more than in 2011. Over 4,200 structures were 
reported destroyed by wildfires, including over 2,200 residences, 
nearly 2,000 outbuildings, and approximately 70 commercial structures. 
This is well above the annual average of 1,400 residences, 1,300 
outbuildings, and 50 commercial structures (data from 1999 through 
2012, NICC).
    More than twenty percent of the United States (510 million acres) 
is managed or held in trust by the Department's bureaus with fire 
management responsibilities. Those lands stretch from Florida to 
Alaska, from Maine to California. DOI has achieved a high success rate 
in suppressing unwanted fires during the initial attack stage, and uses 
fire where appropriate to achieve management goals for long-term 
ecosystem health and resilience.
2013 Fire Season
    Since January our nation has suffered the loss of 24 wildland 
firefighters in the line of duty. The last 19 were members of an elite 
firefighting crew--the Granite Mountain Interagency Hotshots from the 
state of Arizona. These men perished in the course of their duties on 
the Yarnell Fire in Arizona on June 30--just two days after the fire 
was started by lightning, when the weather changed, and the fire 
behavior intensified. This tragedy represents the worst in Arizona's 
history and the worst loss of wildland firefighters for our country 
since 1933. Federal wildland fire assets responded at the onset of the 
Yarnell Fire; and we continue to support the incident today. A Type 1 
Incident Management Team and a National Incident Management 
Organization team were dispatched immediately after the tragedy to 
manage the fire operation and provide support to the incident by 
dealing with the issues surrounding the fatalities. Together with our 
partners at the U.S. Forest Service and from the U.S. Military, we have 
federal crews, engines, aviation assets, and other large firefighting 
equipment deployed to provide assistance. Our hearts go out to the 
families, friends, and co-workers of these fine men.
    We are expecting the remainder of 2013 fire season to be similar to 
last year's. The National Wildfire Potential Outlook for the period of 
July through September predicts:
July
    Long-term drought across the West coupled with hot, dry weather in 
early July, will raise fire potential across portions of Oregon, Idaho, 
Nevada, and northern California;
    Southern California, southern Utah, Arizona, New Mexico and 
Colorado will continue to experience extremely dry conditions and be at 
significant risk for significant fires throughout July;
August
    Heat and normal summer precipitation in the West will keep above-
normal fire potential across most of California and Oregon, and parts 
of Washington, Idaho, and Montana during August;
September
    For September, above-normal significant fire potential will 
continue for much of the coastal and interior California while 
returning to normal by October over the Sierras, Oregon, and parts of 
Idaho and Nevada.
    Wildland fire behavior and the Department's response are influenced 
by complex environmental and social factors as discussed in the 2009 
Quadrennial Fire Review (QFR), the National Cohesive Wildland Fire 
Management Strategy, and other strategic foundational documents used to 
guide the Wildland Fire Management program. The impacts of climate 
change, cumulative drought effects, increasing risk in and around 
communities, and escalating emergency response continue to impact 
wildland fire management and wildfire response operations. Drought is 
forecasted to persist or worsen across much of the western United 
States and parts of Alaska and Hawaii.
    Since the beginning of the year, more than 25,000 fires have burned 
over 740,000 acres, predominantly in the Southwest and Western states.
Effects of Sequestration
    Much like other Departments across the federal government, programs 
within Interior have felt the impact from sequestration. As we 
developed our sequestration implementation plan, we made every effort 
to prioritize preparedness for the upcoming fire season and to absorb 
the cuts in a way that would not compromise our ability to respond to 
fires this season. Therefore, we focused cuts to the wildland fire 
management program in areas such as travel, training, contracted 
services, and operating supplies first. Overall, the sequestration 
resulted in a $37.5 million cut to Interior's fire program and resulted 
in a reduction of approximately 7 percent of the Department's 
firefighter seasonal workforce, with reduced lengths of employment for 
those hired.
    Exceptions from the DOI-wide hiring freeze were granted for 
seasonal firefighters; and I believe that, in the short term, we have 
the necessary resources to respond. The long-term impacts of 
sequestration are impossible to avoid. We have had to make difficult 
choices that will reduce our overall capacity in the longer term, such 
as not filling permanent staff vacancies, reducing seasonal firefighter 
employment periods, and reducing the number of hazardous fuels crews. 
In addition, other reductions in seasonal hiring across Interior will 
have a residual impact on the overall numbers of firefighters available 
for dispatch, since many of these hires, while being non-fire 
positions, are ``red-carded'' or trained to fight fire when needed.
Expected Available Fire Resources
    Among its bureaus, the Department will deploy just over 3,400 
firefighters, including 135 smokejumpers, 17 Type-1 crews; 750 engines; 
more than 200 other pieces of heavy equipment (dozers, tenders, etc.); 
and about 1,300 support personnel (incident management teams, 
dispatchers, fire cache, etc.); totaling nearly 5,000 personnel.
    In aviation, this year, Interior has 27 single-engine airtankers or 
SEATS on exclusive use contracts--double the number we have had in the 
past, and an additional 42 on call-when-needed contracts. The 
Department made a conscious decision to double the number of SEATs on 
exclusive use contracts in order to be prepared for the 2013 season and 
to reduce the overall costs to the program. SEATs are a good fit for 
the types of fires that the Interior agencies experience. Many of these 
fires usually burn at lower elevations, in sparser fuels, on flatter 
terrain. We also have small and large helicopters and water scoopers 
available. We will utilize Forest Service contracted heavy airtankers 
and, if necessary, Modular Airborne FireFighting System (MAFFS) 
aircraft from the Military. Agreements are in place to acquire 
supplemental aircraft from our state and international partners, if 
necessary.
Department of Defense Assistance
    Over the past year, officials from the Departments of the Interior 
and Agriculture have worked with officials from Northern Command 
(NorthCom), in Colorado, to develop a new approach for obtaining 
support from the Department of Defense (DoD) should their assistance be 
needed during the 2013 fire season and into the future.
    Previously, the DoD provided ground forces configured as 
battalions--550 soldiers each. Future requests for support will now 
include approximately ten 20-person crews from regionally based 
installations, within a reasonable distance from the incident. This 
ability will provide flexibility in the use of DoD resources as well as 
providing the anticipated numbers needed based on historical use. Our 
staffs are in the process of developing options for training that will 
include a smaller training cadre and include qualified DoD personnel. 
An Incident Awareness Assessment is also being conducted to identify 
potential gaps and areas where DoD may be able to provide specialized 
and/or surge capability in imagery products for use on wildfire 
incidents.
Fiscal Year 2014 Budget
    The President's FY 2014 budget proposes a total of $776.9 million 
to support the fire preparedness, suppression, fuels reduction, and 
burned area rehabilitation needs of the Department. The budget fully 
funds the inflation-adjusted 10-year average of suppression 
expenditures of $377.9 million, with the funding split between $285.9 
million in the regular suppression account and $92.0 million in the 
Federal Land Assistance, Management, and Enhancement (FLAME) Fund. This 
represents a program increase of $205.1 million over the 2012 enacted 
level, because the full 10-year average was not appropriated in 2012 
and the program relied on available balances from prior years. 
Consistent with the FLAME Act, the regular suppression account will 
fund the initial attack and predictable firefighting costs, while the 
FLAME Fund will fund the costs of large, catastrophic-type fires and 
also serve as a reserve when funds available in the regular suppression 
account are exhausted. While the budget provides funding to cover 
anticipated preparedness and suppression needs, the Department 
recognizes the need to invest not just in firefighting related 
activities, but also hazardous fuels reduction, community assistance, 
and rehabilitation of burned areas. Interior has made significant 
improvements to management information tools to provide program 
leadership information on determining where funds may best be directed. 
The Department will continue to pursue efficiencies and reforms that 
reduce project cost, increase performance, ensure the greatest value 
from invested resources, all while strengthening the accountability and 
transparency of the way in which taxpayer dollars are being spent.
Hazardous Fuels Reduction Program
    The 2014 budget requests $95.9 million for the Department's 
Hazardous Fuels Reduction (HFR) program, a reduction of $88.9 million 
from 2012 and $49.4 million from 2013. The increase in complexity and 
intensity of fires over the last ten years presents enormous budgetary 
challenges for the wildland fire program. With today's fiscal climate, 
and competition for limited resources, we are being asked to make tough 
choices. The reduction to the fuels budget is one of those tough 
choices. This presents an opportunity to re-evaluate and recalibrate 
the focus of the HFR program to align and support the direction in the 
National Cohesive Wildland Fire Management Strategy and the Federal 
Wildland Fire Management Policy. Affirming a commitment to the 
intergovernmental goals of the Cohesive Strategy, HFR program 
activities will be planned and implemented to mitigate risks posed by 
wildfire. The program uses a risk-based prioritization process to 
ensure activities are implemented in the areas of greatest risk from 
wildfire, and will foster closer alignment and integration of the 
program into the bureaus' broader natural resource management programs. 
To encourage this, the 2014 program includes $2 million to conduct 
additional research on the effectiveness of hazardous fuels treatments. 
As a result, the Department will take a serious look at how we can make 
the most difference on the ground with what we have. The program will 
continue to focus fuels reduction on the highest priority projects in 
the highest priority areas resulting in the mitigation of risks to 
communities and their values.
BLM Forest Management
    The BLM manages about 60 million acres of forests or woodlands, 
including 2.2 million acres of O&C forest lands. The BLM manages 
forests to restore and maintain forest ecosystems, reduce the risk of 
catastrophic wildfire, and generate a sustainable flow of forest 
products that can be sold through commercial and salvage timber sales 
and personal use permits that support rural communities. Resilient 
forests store and filter water for aquifers and reservoirs, offer 
opportunities for recreation, provide habitat for thousands of species, 
store carbon, provide clean air, support timber and other jobs, and 
provide millions of board feet of lumber and thousands of tons of 
biomass for alternative energy. According to the Department of the 
Interior's 2011 Economic Impact Report, timber harvested from BLM 
forests supported $659 million in economic activity in 2011, and 
biomass from BLM forests has become part of the feedstock that meets 
various State and Federal renewable energy portfolio standards. BLM 
forests also support local businesses dependent on tourism and outdoor 
recreation. Additionally, the value of forests for biological carbon 
storage is being increasingly studied and understood and can help the 
United States toward a better carbon balance.
    Extreme drought, wildfires, pests, and invasive species 
infestations have plagued much of the West over the past decade, 
causing significant impacts to both forest health and local economies. 
The BLM has worked collaboratively with Federal, State, and other 
partners to develop strategies for addressing forestry issues such as 
the mountain pine beetle outbreak and whitebark pine tree decline. In 
2012 fire affected over 287,000 acres of BLM forests and a cumulative 
1.7 million acres of BLM forest mortality have been attributed to bark 
beetles, other insect attacks, and pathogens. Overall, the BLM 
estimates that about 14 million acres of BLM-managed forests are at 
elevated risk of insect and disease attacks or catastrophic wildfire. 
In 2012, as part of the Bureau's hazardous fuels reduction program, the 
BLM conducted restoration and hazardous fuels reduction treatments, 
including thinning, salvage, and prescribed burns, on more than 465,000 
acres of BLM-managed forests, woodlands and rangelands.
    Because potential threats to forest health often cross 
jurisdictional boundaries, the BLM has increasingly adopted a landscape 
approach to resource conservation and treatments to reduce the buildup 
of hazardous fuels. The BLM has begun developing vegetation management 
policies that consider entire landscapes, through integrating a number 
of programs--including forestry, rangeland management, riparian 
management, plant conservation, invasive weeds, and fire 
rehabilitation. This integration should result in more coordinated 
policies. The BLM also offered over 242 million board feet of timber 
and other forest products for sale and used timber sales to treat over 
20,000 acres of vegetation in fiscal year 2012. In addition, the BLM 
routinely works with partner agencies, organizations, and landowners to 
engage in land and watershed restoration and hazardous fuels reduction 
activities on Federal, state, and private lands, and the BLM has used 
the pilot Good Neighbor Authority in Colorado on projects where small 
parcels of federal lands were interspersed with state and private 
lands.
    Stewardship contracts, timber sales, and service contracts are 
tools that the BLM uses to manage our forested lands. Stewardship 
contracting authority allows the BLM to award contracts for forest 
health and restoration treatments, including hazardous fuels 
reductions, for a period of up to ten years and to use the value of 
timber or other forest products removed as an offset against the cost 
of services received. The BLM has enjoyed many successes in using 
stewardship contracting authority, thereby achieving goals for forest 
and woodland restoration, and conducting both hazardous fuels reduction 
and habitat restoration treatments. In addition, stewardship contracts 
create jobs and revenue growth for local communities, and protect local 
communities from wildland fire. From 2003 through 2012, the BLM entered 
into over 400 stewardship contracts on approximately 108,000 acres of 
BLM-managed lands. This important authority expires in September 2013, 
and the President's Budget for FY 2014 proposes to make the authority 
permanent.
Partnerships
    The realities of today's federal funding challenges, such as the 
reduction to the hazardous fuels program, highlights the importance of 
working together across landscapes, and with our partners to achieve 
our goals.
    The federal government wildland fire agencies are working with 
tribal, state, and local government partners to prevent and reduce the 
effects of large, unwanted fires through preparedness activities like 
risk assessment, prevention and mitigation efforts, mutual aid 
agreements, firefighter training, acquisition of equipment and 
aircraft, and dispatching; community assistance and hazardous fuels 
reduction. These actions demonstrate Interior's continued commitment to 
the goals of the National Cohesive Wildland Fire Management Strategy 
(restore and maintain resilient landscapes, create fire-adapted 
communities, and response to wildfire).
Federal Wildland Fire Management Policy
    The Department will also continue to take full advantage of the 
current Implementation Guidelines for the Federal Wildland Fire 
Management Policy. Our unwavering commitment to firefighter and public 
safety in managing wildfire is the foundation of the wildland fire 
management program within each DOI bureau. We will continue to respond 
quickly and effectively to control unwanted wildland fires. Initial 
action on human-caused wildfire will continue to suppress the wildfire 
at the lowest risk to firefighter and public safety. When appropriate, 
we will also allow fire managers to manage a wildfire for multiple 
objectives and increase managers' flexibility to respond to changing 
incident conditions and firefighting capability, while strengthening 
strategic and tactical decision implementation supporting public safety 
and resource management objectives.
    Actions by wildland fire managers will be supported by the best 
available science and decision support systems such as the Wildland 
Fire Decision Support System (WFDSS). These tools afford our wildland 
fire managers an enhanced ability to analyze wildfire conditions and 
develop risk informed strategies and tactics, which result in the 
reduced exposure to unnecessary risk during a sequester-impacted 
wildfire season.
Long-Term Programmatic Challenges
    There are several longer-term programmatic challenges facing the 
Department's wildland fire management program including the need to re-
align the overall program to better integrate with land and resource 
management activities We must continue to develop strategies to deal 
with the long-term effects of declining budgets, the changing climate, 
evolving workforce, and the continued need to develop technologies and 
decision support tools to better inform our wildland fire managers of 
the future.
    The Department of the Interior is prepared to meet the wildland 
firefighting challenges of today and tomorrow with the most efficient 
use of its available resources. DOI will maintain operational 
capabilities and continue to improve the effectiveness and efficiency 
of the wildland fire management programs. These efforts are coupled 
with other strategic efforts and operational protocols to improve 
oversight and use of the latest research and technology in order to 
ensure wildland fire management resources are appropriately focused. 
Specific actions include:
        <bullet>  Continued reduction of hazardous fuels in priority 
        areas, where there is the greatest opportunity to reduce the 
        risk of severe wildfires;
        <bullet>  Continued improvement in decision-making on wildland 
        fires by leveraging the Wildland Fire Decision Support System's 
        capabilities to predict what may happen during a wildfire, to 
        safeguard lives, protect communities, and enhance natural 
        resource ecosystem health;
        <bullet>  Continued enhancement to wildfire response that comes 
        from efficient use of national shared resources, pre-
        positioning of firefighting resources, and improvements in 
        aviation management;
        <bullet>  Continued review of wildfire incidents to apply 
        lessons learned and best practices to policy and operations; 
        and
        <bullet>  Continued strategic planning in collaboration with 
        the Forest Service and our tribal, state, and local government 
        partners to develop meaningful performance measures and 
        implementation plans to address the challenges posed by 
        wildfires in the nation.
Conclusion
    The Department of the Interior and the Department of Agriculture 
(USDA) work collaboratively in all aspects of wildland fire management, 
along with our other federal, tribal, state and local partners. 
Together, with all our available resources, we will provide a safe, 
effective wildland fire management program. We will continue to improve 
effectiveness, cost efficiency, safety, and community and resource 
protection with all our available resources.
    This concludes my statement. Thank you for your interest in the 
Department's wildland fire management program and for the opportunity 
to testify before this Committee. I welcome any questions you may have 
and appreciate your continued support.
                                 ______
                                 
    Mr. Bishop. Thank you. Thank you.
    Mr. Rigdon from the Yakama Nation. Can you make sure that 
is turned on and right by your mouth?

STATEMENT OF PHIL RIGDON, DEPUTY DIRECTOR, YAKAMA INDIAN NATION 
                DEPARTMENT OF NATURAL RESOURCES

    Mr. Rigdon. OK. Thank you, Mr. Chairman and members of the 
Subcommittee. I am Phil Rigdon. I oversee the Department of 
Natural Resources for the Yakama Nation. I am a member of the 
Yakama Nation. I am also the President of the Intertribal 
Timber Council. I want to thank you for this opportunity for 
the Intertribal Timber Council to present a tribal perspective 
on wildfire and forest management.
    Nationally, 18.6 million acres of forest and woodlands are 
held in trust by the United States and managed for the benefits 
of the Indians. Pursuant to both tribal direction, Federal law, 
our forests must be sustainably managed. With our BIA partners, 
we actively operate modern, innovative, comprehensive, natural 
resource programs, premised on a connectedness among land, 
resources, and our people. This approach is holistic, striving 
to simultaneously sustain economic, ecological, and cultural 
values, a triple bottom line is our goal.
    Unlike the Forest Service and BLM forests, Indian forests 
and their management require review by an independent science 
panel every 10 years. Just last month, Indian Forest Management 
Assessment team, IFMA, released its third report to Congress 
and the Administration. It finds Tribes have been able to make 
significant improvements in forest management through 
innovation, creativity, and partnership-building. We actively 
manage our forests to sustain benefits for generations to come, 
and we do this with far less funding than other Federal land 
managers.
    But we could do far more if chronic underfunding and 
staffing shortfalls are corrected. Funding discrepancies 
between Indian trust forests and the Forest Service are 
shocking. Using my own reservation as an example, the Yakama 
Nation receives $.57 per acre a year for fire preparedness, 
while adjacent Gifford Pinchot National Forest receives $1.18; 
the Mt. Hood National Forest, $2.11; and the Columbia Gorge 
National Scenic Area, $2.83.
    In trying to do more with less, local flexibility is a key 
element. We aren't hamstrung by blind adherence to policies. We 
understand that policies need to be interpreted with the 
flexibility and prudently applied. One-size-fit-all policy is 
not appropriate or acceptable everywhere, all the time. As 
Tribes, we respond proactively to local conditions, evaluating 
the resources and values at risk, the source and nature of 
threats to forest health, and options for addressing them.
    At Yakama, we responded to the budworm infestation, 
prioritizing timber sales to tree areas that were most severely 
affected by epidemic that peaked in 2000, when the budworm 
defoliated approximately 206,000 acres on our lands. Between 
1999 and 2003, we treated 20,000 acres of infected forest a 
year; 97,000 acres were also treated with the biological 
control agent between 1999 and 2001 to control tree mortality. 
As a result of our proactive treatment, budworm defoliation 
decreased dramatically. In 2002, only 1,207 acres were 
defoliated, a reduction of over 99 percent.
    We recover significant economic value from dead and dying 
trees. And the reduction in forest density promoted forest 
health and resilience. While such forest health treatments are 
common on tribal lands, it would be a challenge to find similar 
speed, scope, and effectiveness on Federal lands. Here is a 
photo of Mescalero, and the land that they treat that is 
adjacent to Forest Service land. As you can see, reducing the 
risk of fire and insect and disease is a priority all across 
Indian country.
    Tribes are also responding to fires more effectively and 
efficiently than the Forest Service. The average size of a fire 
on BIA-managed land is three times smaller than the Forest 
Service. Suppression costs on a per-acre basis are five times 
lower on tribal lands. After fire, Tribes are able to quickly 
respond to recover economic value and begin the rehabilitation 
process.
    For example, the 2002 Rodeo-Chediski fire in Arizona burned 
467,000 acres of tribal and Federal land, including significant 
portions of timber on the Fort Apache. While significant damage 
was done to tribal forests, the intensity of the fire was 
dramatically reduced because, since 1945, the White Mountain 
Apache Tribe had conducted commercial thinning followed by 
prescribed burn on over 30,000 acres per year. Timber salvaged 
forest restoration began within months after the Rodeo-Chediski 
fire, removing up to 500,000 board feet of killed timber a day. 
In contrast, the Forest Service faced litigation and delayed 
salvage operations, reducing its value and increasing its cost. 
As Tribes, our interest in the health and landscape go beyond 
the reservations, and those go on to the Forest Service lands, 
too.
    At this time I would just like to thank you for this 
opportunity to speak.
    [The prepared statement of Mr. Rigdon follows:]

 Statement of Phil Rigdon, President, Intertribal Timber Council, and 
            Natural Resource Deputy Director, Yakama Nation

    Good morning Mr. Chairman and Members of the Subcommittee. I am 
Phil Rigdon, President of the Intertribal Timber Council--or ITC--and 
Natural Resource Deputy Director for the Yakama Nation in Washington 
state. Thank you for this opportunity for the ITC to present a tribal 
perspective on wildfire and forest management.
    Nationally, 18.6 million acres of forests and woodlands are held in 
trust by the United States and managed for the benefit of Indians. 
Pursuant to both tribal direction and federal law, our forests must be 
sustainably managed. With our BIA partners, we actively operate modern, 
innovative and comprehensive natural resource programs premised on 
connectedness among the land, resources, and people. Our approach is 
holistic, striving to simultaneously sustain economic, ecological, and 
cultural values, the so-called ``triple bottom line.''
    Unlike Forest Service and BLM forests, Indian forests and their 
management require review by an independent scientific panel every ten 
years. Just last month, the Indian Forest Management Assessment Team 
(IFMAT) released its third report to Congress and the Administration. 
It finds tribes have been able to make significant improvements in 
forest management through innovation, creativity, and partnership 
building. We actively manage our forests to sustain benefits for 
generations to come, and we do this with far less funding than other 
federal land managers. But we could do far more if chronic underfunding 
and staffing shortfalls are corrected.
    Funding discrepancies between Indian trust forests and the Forest 
Service are shocking. Using my own Reservation as an example, the 
Yakama Nation receives $0.57 per acre per year for fire preparedness, 
while the adjacent Gifford-Pinchot National Forest receives $1.18, the 
Mount Hood National Forest $2.11; and the Columbia Gorge National 
Scenic Area $2.83.
    In trying to do more with less, local flexibility is a key element. 
We aren't hamstrung by blind adherence to policies. We understand that 
policies be interpreted with flexibility and prudently applied. A one-
size fits all policy is not appropriate or acceptable everywhere all 
the time. As Tribes, we respond proactively to local conditions, 
evaluating the resources and values at risk, the source and nature of 
threats to forest health and options for addressing them.
    At Yakama, we responded to budworm infestation by prioritizing 
timber sales to treat areas that were most severely affected. The 
epidemic peaked in 2000 when the budworm defoliated trees on 206,000 
acres. Between 1999 and 2003, we treated 20,000 acres of infected 
forest per year. 97,000 acres were treated with a biological control 
agent between 1999 and 2001 to control tree mortality.
    As a result of our proactive treatments, budworm defoliation 
decreased dramatically. In 2002, only 1,207 acres were defoliated--a 
reduction of over 99%. We recovered significant economic value from 
dead and dying trees, and the reduction in forest density promoted 
forest health and resiliency. While such forest health treatments are 
common on tribal lands, it would be a challenge to find similar speed, 
scope and effectiveness on federal forests.
    Tribes also respond to fires more effectively and efficiently than 
the Forest Service. The average size of a fire on BIA-managed lands is 
three times smaller than on Forest Service land. Suppression costs, on 
a per-acre basis, are five times lower on tribal lands.
    After fires, tribes are able to quickly respond to recover economic 
value and begin the rehabilitation process. For example, the 2002 
Rodeo-Chediski fire in Arizona burned 467,000 acres of tribal and 
federal land, including a significant portion of the timber on the Fort 
Apache Indian Reservation. While significant damage was done to tribal 
forests, the intensity of the fire was dramatically reduced because, 
since 1945, the White Mountain Apache Tribe had conducted commercial 
thinning followed by prescribed burns on 30,000 acres per year.
    Tribal salvage and reforestation began within months of the Rodeo-
Chediski fire--removing up to 500,000 board feet of fire-killed timber 
a day. In contrast, the Forest Service faced litigation that delayed 
salvage operations, reducing its value and increasing its cost.
    As Tribes, our interests in the health of the landscape go beyond 
reservation boundaries. Many tribes have off-reservation treaty rights 
on lands that are now National Forests. We are negatively impacted by 
catastrophic wildfire, disease and insect infestations on these lands. 
Even with effective treatments on our own lands, conditions on nearby 
federal lands can and do inflict significant damage and economic and 
social costs to tribal forests and communities.
    Congress recognized this when it passed the Tribal Forest 
Protection Act in 2004 (TFPA). The TFPA was intended to enable tribes 
to propose and conduct projects on adjacent Forest Service and BLM 
lands in order to protect tribal trust rights, lands, and resources.
    The TFPA has not met expectations on the ground. Since 2004, only 
six TFPA projects have been effectively implemented on Forest Service 
lands. The Forest Service and the ITC recently completed a formal 
review of the TFPA and identified several recommendations to better 
accomplish its intended outcomes. ITC would like to work with this 
Committee and the Congress to explore ways to improve TFPA 
implementation.
    Finally, the loss of forest products infrastructure--both private 
and tribal--threatens the ability to maintain economically and 
ecologically functional forests on the landscape. The ITC supports a 
legislative concept called ``Anchor Forests.'' We have a pilot project 
underway with the Forest Service in Eastern Washington State. The goal 
of the project is to coordinate management across ownerships to support 
the local harvesting, transportation, and processing infrastructure 
needed to provide income and jobs, and to help defray costs of forest 
health treatments.
    In summary, we believe the nation would benefit by looking to 
Indian forestry as models of sustainability. The ITC would like to work 
with this Committee to expand collaborative approaches to forest 
management on a larger scale, and I invite you to visit reservations to 
see how Tribes are actively managing our forests to maintain healthy, 
resilient landscapes.
    Thank you.
                                 ______
                                 

    Response to Questions Submitted for the Record by Phil Rigdon, 
                     President, Intertribal Timber

August 8, 2013

The Honorable Rob Bishop
Chairman
Subcommittee on Public Lands and Environmental Regulation
Natural Resources Committee
U.S. House of Representatives
1017 Longworth House Office Building
Washington, DC 20515

RE: Question for Phil Rigdon--Tribal Forest Protection Act Utilization

Dear Chairman Bishop:

    The Intertribal Timber Council (ITC) appreciates your interest in 
the Tribal Forest Protection Act (TFPA--PL 108-278) and its potential 
to address forest health and risk on neighboring federal lands. This 
spring, the ITC produced a report on a joint ITC/Bureau of Indian 
Affairs/Forest Service review of the TFPA which addresses the 
Committee's question as to why only 6 TFPA projects had been 
implemented since the TFPA was passed in 2004. The major impediments to 
more extensive use of the TFPA noted in the report include:
        1.  Tribes, the BIA and FS have differing perceptions and 
        understanding of the TFPA authority.
        2.  The Forest Service has not provided guidance or incentives 
        to encourage use of the TFPA as a high-priority. The 
        decentralized nature of Forest Service operations and lack of 
        agency-wide direction regarding the TFPA has resulted in highly 
        variable knowledge and interest in utilization of the TFPA 
        authority.
        3.  Administrative processes employed by the Forest Service can 
        extend project analysis for years and subject proposed TFPA 
        projects to protracted and costly litigation. Tribes are 
        reluctant to invest scarce resources to prepare TFPA proposals 
        that require long term and complex planning processes without 
        greater assurances that projects will be approved and 
        implemented. As evidenced by the example appended to Volume I 
        of the ITC's TFPA Report, the Tule River Tribe still awaits 
        approval of their 2005 request to address conditions that 
        threaten the Giant Sequoias that are central to its culture. 
        Tribes are concerned over becoming embroiled in costly and 
        protracted Forest Service administrative processes that are 
        fraught with uncertainties and cast doubt on timely 
        implementation (e.g., funding availability, environmental 
        clearances, impacts of restrictions to protect species listed 
        under the Endangered Species Act, Wilderness designations, 
        Roadless classifications, and litigation). The Warm Springs 
        Tribes, for instance, stopped pursuing a TFPA project that it 
        had worked on for several years when it became apparent that 
        lengthy litigation was imminent. classifications, and 
        litigation). The Warm Springs Tribes, for instance, stopped 
        pursuing a TFPA project that it had worked on for several years 
        when it became apparent that lengthy litigation was imminent
        4.  The Forest Service does not provide specific funding to 
        support the development and implementation of TFPA projects. 
        Congressional appropriations are increasingly being devoted to 
        wildfire suppression; the limited resources available for 
        forest health projects are largely consumed by planning and 
        analysis with little left over for on-the-ground preventative 
        treatments and implementation.
        5.  The Forest Service lacks consistent understanding of, and 
        appreciation for, federal trust responsibilities toward Tribes 
        and the value of collaboration through government-to-government 
        relationships.
        6.  Frequent turnover of leadership and staff, particularly 
        with Forest Service personnel, hampers the development and 
        maintenance of long-term, working relationships at the local 
        level between Tribes and the FS.
    The ITC's report ``Fulfilling the Promise of the Tribal Forest 
Protection Act of 2004'' consists of two volumes. Volume I (attached) 
contains a summary of findings and recommendations for improving 
utilization of the TFPA. Volume II provides detailed data, site visit 
reports, success stories, an implementation plan, and training modules 
which may be of interest to the Committee. The Forest Service's 
response to our TFPA Report is attached.
    Our report's recommendations are largely focused on increasing the 
ability of tribal management capabilities and approaches to provide 
balanced, sustainable management to neighboring federal lands:
        1.  Improve understanding of the TFPA, government-to-government 
        relationships and trust responsibilities by conducting joint 
        training and providing post-training technical support.
        2.  Strengthen the vision and partnership between the Forest 
        Service and Tribes through effective consultation to develop 
        formal agreements that institutionalize working relationships, 
        forums, exchanges, collaborative project planning, engagement 
        in national forest plan revisions, coordinated federal hazard 
        fuel funding, and collaborative efforts to maintain viable 
        infrastructure for utilization of forest products.
        3.  Promote the use of TFPA. Encourage Forest Service use of 
        TFPA through performance incentives and accountability 
        measures, budget direction, monitoring, reviews, and 
        development of direction and guidance.
        4.  The ITC and Tribes should identify ways to amend TFPA or 
        other authorities to expedite consideration, approval, and 
        implementation of TFPA projects by addressing environmental 
        compliance categorical exclusions, alternative dispute 
        resolution processes, and allowing for a greater range of 
        management alternatives in special designation areas. One such 
        example is the recent amendment passed by the House Resources 
        Committee that prioritizes and expedites TFPA projects.
    The ITC and its member tribes are extremely concerned over the 
threats to Indian lands and communities from hazardous conditions on 
federal lands that are conducive to large-scale incidents of wildfire 
and infestations by insects and disease. We recognize that the 
management, harvesting, transportation, and processing infrastructure 
needed to sustain economically and ecologically functional forests on 
the landscape is rapidly disappearing. We understand full well that 
means to help defray treatment costs will be needed to treat the 
millions of acres of forestlands that are rapidly deteriorating. The 
ITC has embarked on a pilot project with the Forest Service called 
``Anchor Forests'' to explore opportunities to develop and sustain 
critical infrastructure.
    We urge the Committee to support extension of the stewardship 
contracting authority and allow for greater certainty for the 
availability of long-term wood supplies for investment in 
infrastructure. Investments will be needed to provide the means to 
enable the land help pay the costs of reducing overstocked fuels and 
for creating fire adapted communities, safe response to fire, healthy 
rural economies, and sustainable ecosystems.
    The TFPA and Good Neighbor authority can be valuable tools that can 
be used to improve the health of federal forests and dependent 
communities. The current wildfire strategy dominated by suppression is 
not working; proactive treatment is the only lasting solution. Tribes 
have demonstrated their ability to effectively manage the land and 
their capacity to bridge chasms between diverse stakeholders that have 
stymied sound, active forest management.

Sincerely.

Phil Rigdon
President
Intertribal Timber
                                 ______
                                 
    Mr. Bishop. I appreciate that very much. I am going to have 
to do a break here. They have had another procedural vote 
called on the Floor. One of the reasons why we should never 
have Floor time in the mornings, when we have Committee time.
    So, this is only one vote. I am going to suspend for a 
second, allow everyone to go take that vote, and then invite 
you to come right back. I am assuming you are going to have to 
cool your heels for about 10 minutes, maybe 15 at the most. We 
will try and pick this up right away.
    So, I apologize for the interruption. Please just enjoy 
yourselves for a few minutes, while we go take care of a vote.
    [Recess.]
    Mr. Bishop. Hello, there I am. I still apologize for that 
wait and that delay. That is the joy of sometimes having 
procedural motions in the middle of a Floor debate.
    So, we will pick it up back up where we were. And I am sure 
that other Members will be joining us as they return from their 
vote.
    Mr. Duda--is that pronounced correctly? Thank you for being 
here with us. I apologize for making you wait. Same rules. The 
oral part, 5 minutes. We would ask you to go ahead.

 STATEMENT OF JOSEPH A. DUDA, DEPUTY STATE FORESTER, COLORADO 
        STATE FOREST SERVICE, COLORADO STATE UNIVERSITY

    Mr. Duda. Thank you, Chairman Bishop, members of the 
Committee. I just want to start off by reminding us what we 
knew in 1992 from the Rocky Mountain Region Annual Report of 
the U.S. Forest Service. It stated that, after decades of fire 
suppression, and in the absence of management, the next most 
likely events were catastrophic loss to insect, disease, and 
fire. So we fast-forward 20 years to today. We are doing half 
the amount of forest management in Colorado that we did in 
1992, and we have suffered exactly what the Forest Service told 
us would happen.
    I don't want to belabor where we have been in the past. I 
want to talk about the path forward. The State of Colorado, we 
are doing our part. Since 1997 to this year, the Colorado 
Legislature has made $15 million available for fuel mitigation 
and forest management projects. And when you tie that together 
with the match from private citizens, that is $30 million of 
impact on the landscape.
    And the Governor has also recently called together a 
wildfire task force. With our projected growth in the wildland-
urban interface to be 300 percent from 2005 to 2030, it is 
clear we need to take a look at a different approach to how 
people live in the wildland-urban interface, and what 
requirements there may be when they move there.
    A couple things, at the direction of Congress, the national 
cohesive strategy brought together State, Federal, NGO's to get 
collective expertise on wildland fire. And the three key issues 
they identified were to create fire-adapted communities, to 
improve wildfire response. And those two deal with the effects 
of wildland fire. The last one, restore and maintain 
landscapes, gets at the cause of fire. The western cohesive 
strategy also talks about using fire where allowable, and 
safely extinguishing fires, but it also talks about the need to 
manage our natural resources. And that is supported by the U.S. 
Forest Service restoration strategy that talks about a need for 
and a pathway to increasing the pace and scale of restoration.
    Clearly, we can't afford to stay on the same path we have 
been in. It is unacceptable to citizens of Colorado and to 
everybody who enjoys national forests. The potential for loss 
of life, property, and damage to natural resources is 
unacceptable.
    Additionally, the Western Forestry Leadership Coalition 
study on the true cost of wildfire in the U.S. showed that for 
the Hayman fire that damaged the Denver watershed and for the 
Missionary Ridge fire, suppression was only 20 and 25 percent, 
respectively, of the cost of those fires.
    So, the path forward is we need to fully fund fire 
suppression, and not at the expense of other programs that can 
make a difference and reduce the need for fire suppression. We 
need to fund forest management and fuel reduction programs to 
get more work done on the landscape. We need to aggressively 
implement existing authorities where applicable, including 
things we can do through the Healthy Forest Restoration Act.
    We should make permanent and expand the use of Good 
Neighbor Authority and stewardship contracting. We would like 
to see it permanent, not just 3 or 5-year reauthorization.
    And then, finally, take a comprehensive look at all the 
laws, policies, and regulations that govern land management to 
increase the effective application of management on the 
landscape. In my career I have managed corporate forest lands, 
and over the last 10 years I have managed our State trust land 
program in Colorado. We give adequate and appropriate 
consideration for environmental considerations, we look at best 
management practices, but we also balance those with the needs 
of social and economic considerations.
    Clearly, the States have an outcome-based system, and we 
can achieve results on the landscape. The Federal process needs 
to move in that same direction. Thank you, Chairman and 
Members.
    [The prepared statement of Mr. Duda follows:]

          Statement of Joseph A. Duda, Deputy State Forester, 
   Colorado State Forest Service, on Behalf of the State of Colorado

    Thank you, Chairman Bishop, Ranking Member Grijalva, and members of 
the Subcommittee for the opportunity to provide written and public 
testimony on challenges and opportunities related to wildfire and 
forest management. I also want to thank Colorado Representatives 
Lamborn and Tipton, and the other members of the Colorado congressional 
delegation for the time they have devoted to addressing important 
natural resources issues in Colorado.
    My name is Joseph Duda and I am the Deputy State Forester for the 
Colorado State Forest Service at Colorado State University.
    The Colorado State Forest Service is a service, outreach and 
technical assistance agency within the Warner College of Natural 
Resources at Colorado State University; we also provide staff support 
to the Division of Forestry in the Colorado Department of Natural 
Resources.
    With more than 37 years of forestry experience, I have extensive 
knowledge of forest management, National Forest management, the forest 
products industry, and the U.S. Forest Service land management planning 
process.
A Firsthand Look at the Impacts of Unwanted Wildfire
    Sixty-eight percent of Colorado's 24.4 million acres of forestland 
are in federal ownership, and the majority is U.S. Forest Service land. 
Colorado's national forests are being negatively impacted by bark 
beetle epidemics and catastrophic forest fires. Over 6.6 million acres 
of forestland have been severely impacted by bark beetles since 1996. 
Drought and climate change have contributed to this scenario, but the 
condition of the forests is the primary underlying factor, with nearly 
homogenous landscapes of mature, single-age stands that are overly 
dense and stressed from competing for nutrients and water. In other 
words, they are ripe for insect attacks and destructive wildfires.
    The West Fork Complex Fire that is currently burning in south 
central Colorado is an example of what can occur as a result of these 
conditions.
    As of July 8, the West Fork Complex Fire had burned more than 
110,000 acres and was only 25 percent contained. The burn area of the 
West Fork Complex lies predominantly in the Rio Grande watershed. In 
one area, the fire burned within a few feet of the Rio Grande River. 
The watershed--along with wildlife and people--will be impacted by this 
fire for decades to come. The fire started on the west side of the 
continental divide, jumped over the divide, and made a seven-mile run 
in high-elevation spruce/fir timber in one day, forcing the evacuation 
of the entire town of South Fork.
    Unfortunately, this story is similar to other stories that 
Coloradans have heard many times over the past decade. This year marks 
the second consecutive year that Colorado has experienced record-
setting fires in terms of property lost in a single wildfire. Last 
year, the Waldo Canyon Fire destroyed 347 homes and killed two people; 
this year, the Black Forest Fire claimed 511 homes and two lives.
    I also have firsthand experience with the disruptive impacts of 
wildfires, as my family and I were recently evacuated from our home in 
South Fork during the West Fork Fire.
A Predictable Scenario
    The scenario in Colorado described earlier was predicted, as the 
following statement from the 1992 U.S. Forest Service Rocky Mountain 
Region Annual Report illustrates:
    ``Following decades of suppressed natural fire, many forested 
ecosystems--their age, density, and species composition--have reached a 
mature stage where insect infestation and catastrophic fire are the 
next likely events. Timber harvest offers a controllable alternative to 
this succession while providing a source of needed wood products. Where 
appropriate, harvesting can improve long term health and productivity 
of the forest, simultaneously contributing to other multiple-uses and 
forest values.''
    Poor forest condition is one of the primary factors that have led 
to destructive wildfires and catastrophic insect and disease outbreaks. 
The response has been to deal with the impacts (i.e. unwanted wildland 
fire), rather than improve the health of our forests through thinning 
and other management activities. For example, this year, we will remove 
less than one-half of the biomass in the form of forest products than 
we did in 1990. Without adequate resources and an efficient process for 
thinning our forests to achieve age class and species diversity, the 
U.S. Forest Service, and Coloradans, will continue to lose ground in 
our collective attempts to address the mountain of dead timber and 
declining forest health. In simple terms, we are managing the 
disturbance, rather than addressing the entire system, which is the 
only real solution to our current situation.
Comprehensive Forest Management is Essential
    As I watched news coverage of the Black Forest Fire, I considered 
what level of forest management has been accomplished in the past to 
promote forest health and address wildfire, and what needs to be done 
in the future. Clearly, defensible space around homes is important and 
the Colorado State Forest Service is actively engaged in implementing 
several programs and grants to help landowners implement fuels 
reduction projects, including defensible space. These programs include 
several U.S. Forest Service cooperative grant programs, such as State 
and Private Forestry Redesign, State Fire Assistance, and Volunteer 
Fire Assistance grants. The Colorado State Forest Service also is the 
state lead for the Firewise Communities/USA and Fire Adapted 
Communities programs. Finally, the State of Colorado has funded a 
Forest Restoration Grant Program at $1 million annually since 2007, and 
in 2013 authorized and funded the Wildfire Risk Reduction Grant Program 
at $9.6 million. With the match these grants require of participants, 
these programs will result in approximately $29 million of management 
on the ground.
    The materials used in home construction also are an important 
component in our efforts to reduce wildfire risk. However, after 
watching the damage caused by wildfire in Colorado over the past 
several years, it is clear that the issue is much broader than home 
construction and clearing the vegetation 100 feet around the home. 
Managing the broader landscape is critical to reducing the impacts of 
wildfire on communities and resources. When wildfires travel several 
miles in one burning period and throw embers that start spot fires a 
mile ahead of the fire, it is clear that we need a different management 
approach. In 2013, the Ecological Restoration Institute stated that 
``WUI [wildland-urban interface]-only treatments result in areas of 
unchanged crown fire potential across the untreated landscape, 
therefore leaving it vulnerable to large, severe, and expensive (mega) 
landscape-scale fire''.
Social, Environmental, and Economic Values
    Over the past several decades, management activity on federal lands 
in Colorado has declined. Currently, more than twice as much tree 
volume on U.S. Forest Service lands in Colorado is lost to insects, 
disease, and fire as is removed through forest management activities. 
This has resulted in a significant decrease in our forest products 
infrastructure.
    Colorado has a small but diversified forest products 
infrastructure, which depends on a steady, predictable supply of 
sawlog-quality timber generated from forest management activities on 
federal lands that can be economically processed into marketable 
finished products. Forest product markets are essential if we are to 
economically manage state and private forestlands. However, we cannot 
produce enough forest products from state and private land to sustain 
an industry without a contribution from federal lands. These forest 
products companies are vitally important to many small communities in 
rural Colorado, and to Colorado's economy.
    Decreasing levels of forest management has resulted in reduced 
markets for forest products, less resilient forest conditions, and 
increased risk of insects, disease, and fire. Additionally, a Colorado 
State University study, Wood Use at the Turn of the Century (Lynch and 
Mackes) in 2001 showed that more than 90 percent of the forest products 
Coloradans use comes from other states, as well as Canada and Mexico. 
We have the opportunity to improve our forest age-class diversity and 
resilience, provide the forest outcomes that Coloradans expect, 
including first class recreation opportunities and clean water, and 
produce forest products for use in Colorado. This represents a balanced 
approach to the social, environmental, and economic values of forest 
management.
    Clearly, this trend in declining forest health and increased 
wildfire risk demands that we take immediate action to determine how to 
most effectively implement the National Cohesive Wildland Fire 
Management Strategy. The strategy identifies three primary factors that 
present the greatest challenges and opportunities for addressing 
wildland fire--restore and maintain landscapes, create fire adapted 
communities, and improve wildfire response. We support restoring and 
maintaining landscapes as goal one because proactively managing our 
forests will provide the greatest benefit to our forest ecosystems. 
Similarly, the U.S. Forest Service Restoration Strategy outlines the 
need for, and a pathway to, increasing the pace and scale of 
restoration.
    A Colorado State University study released in 2007 projected that 
the wildland-urban interface in Colorado will increase from 715,000 
acres in 2005 to 2.1 million acres in 2030. Creating fire-adapted 
communities and improving wildfire response are important components of 
the Cohesive Strategy. However, the single component that will provide 
the greatest long-term benefit is to restore and maintain landscapes. 
Active forest management in Colorado has been sorely lacking over the 
past several decades. We must significantly increase the pace of 
landscape-scale restoration if we want to have a meaningful impact on 
improving forest health and increasing resilience to insects, disease, 
and wildfire.
    In addition to the three primary factors identified in the National 
Cohesive Wildland Fire Management Strategy, the Western Cohesive 
Strategy has adopted the following vision for this century: ``Safely 
and effectively extinguish fire, when needed; use fire where allowable; 
manage our natural resources; and as a Nation, live with wildland 
fire.'' Realizing this vision will take the collective will of public 
land managers, private landowners, industry, and many others.
    In Colorado, the U.S. Forest Service, Colorado State Forest 
Service, Colorado Department of Natural Resources, place-based forestry 
collaboratives, and other stakeholders are working together to 
determine how best to implement forest management projects in areas 
identified as being at high risk to wildfire--both on public and 
private land. Guiding these efforts is the Colorado Forest Action Plan, 
which states that ``a comprehensive approach to forest management that 
capitalizes on our collective knowledge and resources is imperative to 
ensure that Colorado's forests remain productive and resilient for 
present and future generations.'' The plan will provide the state with 
a roadmap for implementing forest management in Colorado over the next 
decade to conserve working forest landscapes, protect forests from 
harm, and enhance public benefit from Colorado's trees and forests.
Using all the Tools in the Toolbox
    Colorado now has more than 200 Community Wildfire Protection Plans, 
which are being used to identify opportunities to implement large-
scale, cross-boundary projects that will help reduce wildfire risk to 
communities and restore forest health. However, lack of adequate 
funding and commitment on the part of individual landowners can be 
barriers to comprehensive and successful implementation of these plans.
    Many communities have successfully competed for federal grants that 
help fund fuels treatments. As noted earlier, the Colorado General 
Assembly and Governor Hickenlooper have passed legislation making 
millions of dollars in state funding available through a competitive 
grant process for forest restoration projects that demonstrate a 
community-based approach. In addition, legislation was passed this year 
that will make additional funds available on a competitive basis for 
fuels reduction projects on state and private land through the Wildfire 
Risk Reduction Grant Program.
    These programs and several others, such as the Front Range Fuels 
Treatment Partnership, which was formed after the devastating fire 
season of 2002, have resulted in treatment on thousands of acres of 
land, reducing wildfire risk to communities and important natural 
resources. Despite these efforts, more resources are needed to 
implement management projects on a scale that will allow us to get 
ahead of the next insect epidemic, disease outbreak, or wildfire that 
threatens not only human lives and communities, but the watersheds that 
supply drinking water to Colorado and 17 other states.
    Another tool that has been effective on a somewhat limited basis in 
Colorado is the Good Neighbor Authority, which will expire on September 
30, 2013. We strongly urge reauthorization and use of the Good Neighbor 
Authority on a broader scale in Colorado.
    Region 2 of the U.S. Forest Service continues to focus much of its 
work on restoring and maintaining landscapes, but new approaches and 
additional resources are critical if we are to be successful in 
creating forests that are resilient and provide all the benefits 
Coloradans and visitors to our magnificent state have come to expect. 
Failure to achieve this outcome will result in further loss of lives, 
communities, critical watersheds and other natural resources, as well 
as revenue. It also will result in further damage and losses to our 
iconic western forests--forests that are renowned throughout the world 
for their scenic beauty and recreational opportunities. Loss of such 
opportunities will have lasting and devastating effects on Colorado and 
the West.
    The 2002 Hayman Fire, the largest in Colorado history in terms of 
acres burned, demonstrated the potential impacts of fire on the 
Colorado's water supply. That fire dumped thousands of cubic yards of 
sediment and debris into Strontia Springs Reservoir, which has cost 
Denver Water millions of dollars to restore over several years. In 
addition, the 2012 High Park Fire west of Fort Collins resulted in mud 
slides on a major highway and dumped ash into the Poudre River, which 
supplies drinking water to several Front Range cities. More recently, 
heavy rain over the Waldo Canyon burn area in Colorado Springs resulted 
in a mudslide that destroyed or damaged several homes and businesses in 
Manitou Springs.
    In 2010, the Western Forestry Leadership Coalition published ``The 
True Cost of Wildfire in the Western U.S.'' While enormous, the 
suppression costs of the two fires examined in the report--the Hayman 
and Missionary Ridge fires--constituted only 20 percent and 25 percent, 
respectively, of the total costs associated with the fire. The 
remaining costs were associated with recovery and rehabilitation of 
lands and water supply infrastructure.
    Colorado and other states cannot afford to continue absorbing the 
enormous costs associated with these fires, most of which have burned 
on federal land, primarily in areas where trees are far too old and 
dense, and often have been affected by insects or disease.
Conclusion
    From a Colorado perspective, we must explore all options to improve 
forest conditions across Colorado. These include full funding for fire 
suppression so the U.S. Forest Service is not required to disrupt 
ongoing programs to fund fire. Forest management funding also should be 
increased to allow treatment on more lands. In addition, we must 
utilize and expand use of the Good Neighbor Authority in Colorado to 
assist in management where practical. We also must take a comprehensive 
look at all opportunities and authorities necessary to reduce U.S. 
Forest Service costs, including the use of existing authorities such as 
the Healthy Forests Restoration Act, which should be aggressively 
implemented. More effective management of Colorado's forested lands 
will set a course for more resilient future forests that provide the 
benefits and outcomes we expect.
    Thank you for the opportunity to be here today. I look forward to 
working with our partners to develop an approach to forest management 
in Colorado that integrates social, environmental, and economic values. 
It is our best hope for a future that includes healthy and productive 
forests for present and future generations.
                                 ______
                                 

   Response to Questions Submitted for the Record by Joseph A. Duda, 
         Deputy State Forester, Colorado State Forest Service:

1.  In your testimony, you said that the wildland-urban interface in 
        Colorado will triple by 2030. At the same time, fire risk is 
        predicted to grow as the climate becomes hotter and drier, with 
        less snowpack. Is Colorado taking action to responsibly manage 
        development in these high-risk areas?
Response:
    Colorado has been and continues to work on issues associated with 
increasing development in the wildland-urban interface and the risk 
from wildfire. The issue is complex, requiring land management 
agencies, elected officials, private landowners, insurance companies, 
and others to work together toward effective solutions.
    In 1972, the Colorado Legislature passed SB 72-0035 that required 
counties to establish development rules for subdivisions with lots less 
than 35 acres. One of the requirements was to allow the Colorado State 
Forest Service (CSFS) to comment on proposed subdivisions from a 
wildfire hazard and mitigation standpoint. Many counties have 
defensible-space and land-use planning regulations designed to reduce 
wildfire hazards. Road standards have improved access for firefighting 
equipment. Shake shingles have been banned in areas and construction 
materials have improved. Fire codes have improved in many areas. These 
new regulations apply to new construction or when a property owner 
rebuilds. CSFS completed State of Colorado Wildfire Mitigation Plans in 
1990, 1995, and 2001 (updated in 2002) following large fire years. All 
of these plans had recommendations for new construction, public 
awareness, defensible space, fuel modification, land use planning and a 
lengthy list of recommendations.
    Following the severe fire season of 2002, the Colorado State 
Forester and U.S. Forest Service Rocky Mountain Regional Forester 
created the Front Range Fuels Treatment Partnership to develop a 
cohesive approach to on-the-ground treatment aimed at reducing 
hazardous fuels. They also brought together a broad coalition of 
partners to form the Front Range Roundtable. Through a consensus 
process, this group identified the lands in critical need of forest 
management (fuels mitigation) on Colorado's Front Range.
    In 2004 and 2005, insurance companies, specifically State Farm, 
expressed interest in reducing risk for homeowners. The Colorado State 
Forest Service provided training to State Farm representatives on 
proper application of defensible-space work around homes and important 
infrastructure.
    In 2008, the Colorado Legislature passed a law to help support 
mitigation efforts, allowing the formation of Special Districts to 
collect revenue for use in implementing fuels mitigation. In addition, 
since 2007, the Colorado State Legislature has provided $18 million in 
funding for fuels mitigation. With the required match, more than $25 
million has been made available to communities and private citizens to 
mitigate hazardous fuels through forest management projects.
    Additionally, with the projected growth in Colorado's wildland-
urban interface and the record-setting fire year of 2012, Governor John 
Hickenlooper issued an Executive Order to assemble the Wildfire 
Insurance and Forest Health Task Force. Water providers; insurance 
companies; local, county, state, and federal agencies; non-governmental 
conservation organizations; banking and mortgage industries; and home 
builders are represented on the Task Force.
    The Task Force is taking a comprehensive look at options to 
mitigate the increasing threat of wildfire to lives, property, and 
critical infrastructure. The Task Force will complete its work and 
submit its recommendations to the Governor, the Speaker of the House of 
Representatives, and the President of the Senate by September 30, 2013. 
Among the recommendations currently being considered is a tax increase 
for those living in the WUI, with a possible tax reduction if 
defensible-space work has been conducted by the property owner. State 
laws and local ordinances also are being considered for anyone who 
builds or rebuilds in the wildland-urban interface.
    The issues associated with the wildland-urban interface are too 
complex for a single entity alone to address. The Colorado State Forest 
Service will continue to work with our partners to identify and help 
implement pro-active solutions to address these critical issues, which 
impact public safety and the ability of our iconic forests to provide 
the wide range of benefits on which Coloradans rely.
                                 ______
                                 
    Mr. Bishop. Thank you, and we appreciate your testimony.
    Mr. Topik, you are recognized for 5 minutes.

  STATEMENT OF CHRISTOPHER TOPIK, PH.D., DIRECTOR, RESTORING 
           AMERICA'S FORESTS, THE NATURE CONSERVANCY

    Dr. Topik. First, I want to join the tributes in solemn 
memory of the Granite Mountain Hotshots. Mr. Chairman, may I 
submit for the record a statement from our Arizona Nature 
Conservancy chapter?
    Mr. Bishop. Without objection.
    [The statement submitted by Mr. Topik for the record 
follows:]

 Statement submitted for the record by Patrick Graham, State Director, 
                   The Nature Conservancy in Arizona

    Chairman Bishop, ranking member Grijalva and members of the 
committee, thank you for the opportunity to submit written testimony. 
My name is Patrick Graham and I am the state director for The Nature 
Conservancy in Arizona. When tragedy struck the afternoon of June 30 
resulting in the loss of 19 elite wildland fire fighters, we were 
stunned. Our thoughts continue to be with the families of the fallen 
firefighters lost protecting people, property and lands we cherish.
    We are all too familiar with the impact of fire in Arizona. While 
fire has always played an important role in maintaining our forests, 
today's fires are more devastating in their scale and intensity. We 
have lost over one quarter of our Ponderosa pine forests in a decade 
and millions of acres remain at risk. There is no one solution or one 
responsible party. It requires many tools, approaches, programs, and 
partnerships. Like a campfire left unattended, it will continue to 
leave a trail of devastation and the costs will be tremendous to our 
water supplies, communities, economy and wildlife habitat.
    We appreciate the leadership of our delegation--in particular, 
Representatives Gosar and Kirkpatrick, whose districts have borne the 
brunt of the fires this past decade. They continue to champion the 
tools and resources needed to make a difference. Arizona is in a unique 
position to demonstrate the changes needed to accelerate forest 
thinning and reduce fuel loads, both essential to protect communities 
and healthy water supplies. We need to work together to innovate and 
accelerate action or continue to spend hundreds of millions of dollars 
fighting fires, restoring the damage done, and helping communities 
recover from the needless loss of property and life. Taking action to 
reduce fuel loads will improve the health of our forests and begin to 
break the unsustainable cycle of reacting to large fires.
    The circumstances of the Yarnell fire illustrate there is no single 
action or response to the range of conditions that exist. A fire in 
chaparral burns hot and is hard to control. When living close to these 
conditions the best action is to create a defensible space that 
provides a chance to slow or stop a fire. Often, mixed land ownerships 
mean no one person or agency is responsible. It takes a partnership by 
federal and state agencies, communities and homeowners. The Firewise 
Community Program plays an important role. We also support coalition 
efforts, such as the fire-adapted communities (fireadapted.org) to help 
educate individuals and communities on their roles at reducing fire 
risk. Creating additional incentives to participate in these community 
efforts is important because these types of forests seldom have enough 
economic value to attract private investment, thus shifting the costs 
to landowners and governments.
    Pine forests present an entirely different opportunity. Here, 
partnerships take on a different role in the West since most of the 
forests are on public lands. You are certainly familiar with the 
challenges of land management on these lands. It surprises many to 
learn the nation's largest contiguous Ponderosa forest stretches from 
Northern Arizona to central New Mexico. Here we have launched the 
nation's first and two largest forest stewardship contracts. The most 
recent is referred to as the Four Forest initiative. A total of 900,000 
acres will be offered in contracts to attract private investment by 
wood products businesses; the first contract for 300,000 acres is 
currently underway.
    Three elements were critical to get this project off the ground. 1) 
Creation of the federal stewardship contracting authority allowed for 
ten-year contracts to provide the assured wood supply necessary to 
attract business investment. 2) Funding the Collaborative Forest 
Landscape Restoration Program (CFLRP) is providing financial support 
essential for completion of the large-scale NEPA analysis over 900,000 
acres and 3) flexibility in the NEPA process.
    Without these federal actions and more, the effort would have 
stalled. It is anticipated these public investments will result in well 
over $250 million in private investments, profits, and returns.
    There also needs to be a sense of urgency. During the planning 
process of the Four Forest analysis, over 500,000 acres in eastern 
Arizona were lost to the Wallow fire at a cost of over $190 million, 
not including the loss of property, impacts to local economies and 
water supplies. We understand the dilemma facing Congress and the 
federal agencies. However, until we invest enough in reducing fuel 
loads, we will be forced to pay the heavy price of fighting fires and 
the los of forests and lives.
    In some situations the cost of reducing fuel loads exceeds the 
economic return yet the risk of doing nothing is very high. Cragin 
Reservoir is such a site. It has higher costs of treatments. Steep, 
forested slopes surround the reservoir. When they burn mudflows will 
fill the reservoir. The town of Payson is constructing a pipeline over 
many miles to utilize the water for their drinking supply. Such 
situations will require investments to close the financial gap to where 
wood products businesses can justify harvesting the wood.
    Investments alone will not solve the problem. There needs to 
partnerships and continued innovation and evolution of policies, 
processes, and approaches. Traditional methods are too costly and slow 
to match today's needs. To reduce fuel loads the focus is on harvesting 
lower value, smaller diameter wood. Today's operators must move quickly 
and efficiently to stay in business and compete in a world marketplace. 
In addition to proposed administrative changes in the planning rule and 
NEPA, we need to redesign how monitoring is conducted and how results 
can be used to continually improve business practices.
    Effective monitoring is essential in maintaining the public support 
needed to act. The Four Forest Initiative has developed a set of 
prescriptions for woodcutters to follow under different circumstances. 
These can be complex and the pressure is on operators to decide quickly 
which tree to cut and which to leave. The current system of monitoring 
is costly, slow and ineffective. We are working to redesign this 
system.
    The Conservancy in Arizona is investing our resources and working 
with woodcutters to bring new technology to redesign the monitoring 
process. Using tablet computers and GPS units mounted in the feller-
bunchers used to cut trees, we are providing technology that helps the 
operator be more effective while providing more timely and accurate 
data for monitoring. This information can then be conveyed more rapidly 
to decision makers and the public to maintain public confidence in 
these large-scale operations. This allows treatments to occur at a 
faster pace and larger scale.
    Congress has an important role in solving these problems. 
Reauthorizing stewardship contracting, funding CFLRP, providing 
adequate funding for fuels reduction, and supporting innovation and 
administrative changes in the planning rules and NEPA to create the 
flexibility to rapidly accelerate the pace and scale of forest thinning 
and fuel reduction.
    Thank you.
                                 ______
                                 
    Dr. Topik. Thank you for inviting me today. The Nature 
Conservancy is a global conservation group with over 50 years 
of experience with hands-on fire. The forest and fire issues 
are urgent, but they are solvable. They have been called wicked 
problems. And this means we have to examine the issues from 
various perspectives, and have many different solutions that 
fit local perspectives. But the national government has a key 
role in all of this. I urge the Congress to work together and 
focus on your agreements, which are substantial.
    The Nature Conservancy is deeply involved in nearly every 
State on this issue. Our participation in the Fire Learning 
Network, the Land Fire Science Team, and other efforts, teaches 
us that solutions require learning, listening, and the ability 
of citizens and public land managers to work together.
    I have had the good fortune to visit exciting, 
collaborative efforts all around the country. And it is not 
just a Western issue; we all need to learn to live with fire 
under our terms. We all understand that restored forests are 
safer from fire danger, and they are more productive of many 
critical values that we all need: water, wildlife, wood, 
recreation, and scenery.
    So, how do we do it? I am going to focus on three things: 
science-based collaboration works; second, we agree proactive, 
hands-on forest management is required; and, third, I want to 
talk about a need for a new wildfire emergency suppression 
funding system.
    So, collaboration and science really do work. Science 
illustrates potential results of various management schemes, so 
citizens and land managers can weigh potential results of 
action and inaction with social and community needs. We monitor 
activities and adapt strategies, based on the results. The 
collaborative forest landscape restoration program is a great 
example of how a bit of Federal funding can spawn new hope for 
action. The Congress needs to support more efforts like this. 
And we also need to help States and communities build local 
capacity to do forestry work, leveraging a tremendous amount of 
efforts.
    Second, proactive forest management works. We have many 
examples where appropriate forest thinning and subsequent 
controlled burning have reduced the intensity and scope of 
wildfires. So the Conservancy is very disappointed at the lack 
of recent Federal support for hazardous fuels reduction 
activities. The President's new budget request for both Forest 
Service and the Interior Department are just not acceptable. We 
hope you reject it.
    Small investments and appropriate forestry yield many 
benefits besides reducing fire danger. A restored forest is 
more productive for wildlife, plants, recreation, and water. So 
we need to remember that much of North America consists of 
fire-driven ecosystems. So we need to learn to live with fire. 
We also have to work with air quality managers and communities, 
so they understand that many of our forests will burn. But it 
is better for our health to have the fire on our terms, rather 
than during catastrophic, uncontrolled fires.
    I hope the Committee will support coalition efforts such as 
the fire-adapted communities initiative, that bring many 
sectors of society together. The Committee also needs to extend 
the authorization of successful legislative tools, especially 
stewardship contracting and good neighbors.
    We do not believe that NEPA is the problem here. New ways 
of using NEPA are needed to make it more flexible. But, in 
fact, I believe it is critical to maintain the public 
participation and full public disclosure that the NEPA 
requires. Better Federal actions result when they are out in 
the open and benefit from input by many interested 
stakeholders.
    And, last, we need to change the way Federal wildland fire 
suppression is funded. We recognize the need for robust, 
proactive, Federal and State firefighting. But the suppression 
costs are now trumping the government's investment in vital 
management and conservation purposes for which the Forest 
Service and the Interior bureaus were even established. 
Suppression costs soar. Paying for this results in fire 
borrowing. And even the threat of fire borrowing has a chilling 
effect on the ability of land managers to plan activities and 
obtain skilled contractors. The Flame Act of 2009 was a 
bipartisan effort to change this, but it hasn't worked.
    So, Mr. Chairman, we must move beyond this harmful and 
disruptive cycle of underfunding suppression needs and then 
robbing from other critical programs to fill the gap. If the 
Congress can't make the flame accounts work, you need a new 
solution. Critical life and safety of fire suppression needs to 
be guaranteed, but this should not come at the expense of these 
other vital conservation, public service, and science 
activities.
    One option to consider is establishing a disaster 
prevention fund that could be utilized to support vital Federal 
fire suppression actions during emergencies, just like the 
disaster relief fund is utilized to help communities recover 
after disasters. Fire suppression is different from other 
disasters, though, because Federal response is needed most 
acutely during the actual event. We and others stand ready to 
work with you and the Administration to help create a solution.
    And I conclude by reminding the Committee that climate 
change is making the fire problem worse. Our forests are 
becoming warmer, drier, and subject to more extreme weather 
events and longer fire seasons. Time is of the essence. We need 
to shift our Nation's approach to wildfire from an emphasis on 
costly emergency response to a more balanced approach that 
stresses prevention and restoration. This will provide the 
ongoing benefits to society and nature.
    Thank you much, Mr. Chairman.
    [The prepared statement of Mr. Topik follows:]

           Statement of Christopher Topik, Ph.D., Director, 
          Restoring America's Forests, The Nature Conservancy

    Chairman Bishop, Ranking Member Grijalva and members of the 
Committee, thank you for the opportunity to participate in this 
important conversation about the role of fire in our nation's forests 
and communities. My name is Christopher Topik and I am the Director of 
The Nature Conservancy's Restoring America's Forests Program. The 
Nature Conservancy is an international, non-profit conservation 
organization working around the world to protect ecologically important 
lands and waters for people and nature. Our mission is to conserve the 
lands and waters upon which all life depends.
    The Conservancy's work across North America is guided by an 
ambitious vision that involves developing nature-based solutions to 
some of humanity's most pressing global challenges. Among our primary 
North American priorities is our Restoring America's Forests program, 
through which we aim to foster a dramatic increase in the proactive, 
science-based restoration of our nation's federal forests, thereby 
reducing the tremendous human and environmental costs associated with 
unnaturally large and damaging megafires.
    The tragic loss of 19 wildland firefighters in Arizona last week 
brought into sharp focus the unacceptable and unbearable level to which 
these costs can rise. We must collectively and immediately dedicate 
ourselves to finding a way to effectively support both essential 
emergency wildfire preparedness and response AND the proactive fuels 
reduction and forest restoration that are needed to reduce the demand 
for emergency expenditures in the future. Our current approach to 
wildland fire and forest management creates a false choice, pitting the 
viability of one against the other. In reality, we cannot afford to 
short-change either. The potential costs are too great.
    Outlined below are five principles that we believe are crucial to a 
successful national wildland fire and forest management strategy. They 
include:
        <bullet>  Collaboration
        <bullet>  Proactive management
        <bullet>  Sufficient funding for emergency response
        <bullet>  Community engagement
        <bullet>  Innovation to increase the pace of success
    The values at stake in our forests are enormous and serve to 
underline the important role forested landscapes play in our essential 
quality of life. Forests cover more than a third of our nation; they 
store and filter half our nation's water supply; provide jobs to nearly 
a million forest product workers; absorb 13% of our nation's carbon 
emissions; generate more than $13 billion in recreation and other 
related economic activity on Forest Service lands alone; and, of 
course, provide habitat to thousands of American wildlife and plant 
species. These are not benefits restricted to rural or forest-dependent 
communities; rather they are integral to the well-being of every single 
American.
    The new reality of ever larger and more frequent megafires is 
stretching the capacity of our emergency response infrastructure to 
respond; of our forests to sustainably provide a full-range of benefits 
and services; and of our public coffers to provide the funding to 
address wildfire suppression and post-fire recovery needs. Time is of 
the essence in shifting our nation's approach to wildfire from an 
emphasis on costly and reactive emergency response to a more balanced 
approach that includes significant investment in proactively restoring 
and maintaining resilient landscapes and creating truly fire adapted 
communities. The U.S. Forest Service's 2012 Report on Increasing the 
Pace of Restoration and Job Creation on Our National Forests \1\ 
estimates that there are as many as 65 million acres of National Forest 
System land at high or very high risk of catastrophic wildfires. These 
numbers are further magnified when the condition and management needs 
on other federal and non-federal lands are considered.
---------------------------------------------------------------------------
    \1\ http://www.fs.fed.us/publications/restoration/restoration.pdf.
---------------------------------------------------------------------------
    The societal, environmental and fiscal costs of fire in our 
nation's forests continue their precipitous climb. During the 2012 
wildfire season, alone, a relatively small 68,000 fires burned across 
nearly 10 million acres and resulted in a $1.9 billion bill for federal 
wildfire suppression (on top of the nearly $1.5 billion required to 
staff the federal fire programs). The cost of wildfire management 
currently consumes more than 40% of the U.S. Forest Service budget, 
leaving an ever smaller pool of funds to support hazardous fuels 
reduction, timber management, wildlife habitat improvement, 
recreational access, watershed protection and the wide variety of other 
important services that the American people value and expect.
    Climate change is exacerbating the fire problem as our forests are 
becoming warmer, dryer and subject to both more extreme weather events 
and longer fire seasons. The Forest Service itself expects severe fires 
to double by 2050.\2\ Last year was the third biggest fire year since 
1960, with 9.3 million acres burned--the Forest Service is estimating 
20 million acres to burn annually by 2050. We are already seeing these 
impacts: the Four Corners region has documented temperature increases 
of 1.5-2 degrees Fahrenheit over the last 60 years.\3\
---------------------------------------------------------------------------
    \2\ http://www.globalchange.gov/what-we-do/assessment/nca-overview;
     http://www.denverpost.com/breakingnews/ci_22943189/feds-project-
climate-change-will-double-wildfire-risk?source=email.
    \3\ Managing Changing Landscapes in the Southwestern United States, 
Center for Science and Public Policy, 2011, find here: http://
azconservation.org/downloads/category/southwest_regional.
---------------------------------------------------------------------------
    The National Cohesive Wildland Fire Management Strategy (Cohesive 
Strategy) establishes a helpful framework for guiding us toward a more 
balanced approach to fire, forests and communities, but it will take 
more than a document to enact the kind of fundamental and swift change 
that is needed. We must also collectively put our time, money and 
resources behind our words--and we must do it now.
    During this time of tight federal budgets and pressing forest 
restoration needs, it is essential that we invest the limited resources 
we have both strategically and proactively in order to reduce our 
exposure to the unbearable and unacceptable costs of catastrophic 
wildfire and to maximize both current and future benefits for people, 
water and wildlife.
    In short, we are convinced that science-based collaboration and 
open, public processes can foster community and economic conditions 
that create the social license allowing more forest treatments to be 
done, with locally based goals and benefits to local communities, 
water, and wildlife. And, by creating a new method of funding emergency 
fire suppression, we can avoid the current situation in which important 
restoration and fire risk reduction projects and other vital 
conservation projects are held-up at the mercy of mega-fires. By 
broadly investing in fire risk prevention, we can get additional 
sectors of society to share in the preparation and benefits of being 
fire adapted communities.
    Below are additional details on the five principles we feel must be 
addressed as we pursue this important course of action.
1. Collaboration is a Foundation for Success
    The scale and complexity of the situation facing our nation's 
forests and communities means that we must find ways to forge agreement 
among diverse interests about the ``where, when and how'' of forest 
management and then focus our resources on those landscapes that are 
poised for success. Collaboration, once considered ``innovative'' and 
``new,'' has become an essential tool in the tool box of those hoping 
to reduce wildfire risks, increase forest restoration and contribute to 
the sustainability of local economies. By bringing together county 
commissioners, local mill owners, water and utility managers, fire 
protection officials, conservation groups, scientists and others, 
collaborative groups can identify mutually beneficial solutions to 
forest health challenges and, sometimes by enduring a few bumps and 
bruises, pave the way for smooth and successful projects on the ground.
    Although effective collaboration takes many forms, the 
Collaborative Forest Landscape Restoration (CFLR) Program has been a 
valuable vehicle for prioritizing and testing a variety of 
collaborative, science-based approaches to forest restoration that both 
reduce wildfire risks and contribute to local jobs and economic 
opportunities.
    In just three short years since its inception, the CFLR Program has 
provided support to 20 projects in 14 states, with an additional 3 high 
priority restoration projects receiving support from non-CFLR funds. 
Through these projects, the CFLR Program is demonstrating that 
collaboratively-developed forest restoration plans can be implemented 
at a large scale with benefits for people and the forests. From fiscal 
year 2010--fiscal year 2012, the cumulative outputs generated by the 
funded projects already total: 94.1 million cubic feet of timber; 7,949 
jobs created or maintained; $290 million in labor income; 383,000 acres 
of hazardous fuels reduction to protect communities; 229,000 acres of 
fire prone forest restoration; and 6,000 miles of improved road 
conditions to reduce sediment in waterways.
    Equally important is the long-term commitment these projects have 
fostered to both community sustainability and forest resilience.
    We must continue to fully fund the CFLR Program, including the 
matching funds and monitoring requirements, as well as the project 
planning and preparation activities that facilitate implementation 
success, over the ten year life span of the projects. We must also 
increase our emphasis on and support for collaboration as a fundamental 
aspect of successful forest restoration planning and implementation. 
This should involve applying lessons learned through the CFLR Program 
to improve National Forest management throughout the system as 
collaborative, large-scale projects are created and new land management 
plans are developed under the new forest planning rule.
2. Proactive Management is a Responsible Investment
    Across the nation, communities and land managers are struggling 
with how to address tens of millions of acres of National Forest, and 
several million acres of other federal and non-federal lands, in need 
of treatment to reduce the risk of unnaturally large or damaging 
wildfires. In the absence of large-scale restoration management, the 
federal government spends up to $2 billion annually on emergency fire 
suppression to minimize loss of lives, property, community 
infrastructure and vital natural resources. Hundreds of millions more 
are spent by local, state and federal governments, as well as private 
citizens, to address the devastating and often long-lasting impacts 
left in the wake of wildfires.
    Strategic, proactive hazardous fuels treatments have proven to be a 
safe and cost-effective way to reduce risks to communities and forests 
by removing overgrown brush and trees, leaving forests in a more 
natural condition resilient to wildfires. A recent meta-analysis of 32 
fuels treatment effectiveness studies, conducted on behalf of the Joint 
Fire Science Program (JFSP), confirmed that when implemented 
strategically, fuels treatments can make a crucial difference in the 
size, spread and severity of wildfires.\4\ These treatments can improve 
the safety and effectiveness of firefighters and provide protection for 
a community or essential watershed that might otherwise see extensive 
loss.
---------------------------------------------------------------------------
    \4\ Martinson, E.J.; Omi, P.N. 2013. Fuel treatments and fire 
severity: A meta-analysis. Res. Pap.
    RMRS-RP-103WWW. Fort Collins, CO: U.S. Department of Agriculture, 
Forest Service, Rocky Mountain Research Station. 35 p.
---------------------------------------------------------------------------
    Many of these hazardous fuels reduction projects are also providing 
jobs and other economic benefits to rural communities. For example, a 
recent economic assessment of forest restoration in Oregon revealed 
that ``an investment in forest health restoration has the potential to 
save millions of dollars in state and federal funds by avoiding costs 
associated with fire suppression, social service programs and 
unemployment benefits.'' \5\ In addition, for every $1 million invested 
in hazardous fuels treatments, approximately 16 full-time equivalent 
jobs are created or maintained, along with more than half a million in 
wages and over $2 million in overall economic activity.\6\
---------------------------------------------------------------------------
    \5\ National Forest Health Restoration: An Economic Assessment of 
Forest Restoration on Oregon's Eastside National Forests. Prepared for 
Governor John Kitzhaber and Oregon's Legislative Leaders. November 26, 
2012. Quote on page (iv). http://www.oregon.gov/odf/BOARD/docs/
2013_January/BOFATTCH_20130109_08_03.pdf.
    \6\ The Employment and Economic Impacts of Forest and Watershed 
Restoration in Oregon. Max Nielsen-Pincus and Cassandra Moseley, 
Institute for Sustainable Environment, University of Oregon. Spring 
2010, page 1.
---------------------------------------------------------------------------
    It is absolutely essential that we maintain federal investments and 
skilled capacity in reducing hazardous fuels. The Ecological 
Restoration Institute's (ERI) valuable new study on the efficacy of 
hazardous fuels treatments joins the JFSP analysis referenced above in 
building a growing body of literature documenting the many instances in 
which on-the-ground actions have modified wildfire behavior, thereby 
allowing firefighters to safely engage in protecting infrastructure and 
landscapes.\7\ Rather than repeat those references, I will described a 
couple of instances where I personally witnessed the role strategic 
fuels reduction treatments can play in enabling an entire community to 
survive a horrific wildfire.
---------------------------------------------------------------------------
    \7\ http://library.eri.nau.edu/gsdl/collect/erilibra/index/assoc/
D2013004.dir/doc.pdf.
---------------------------------------------------------------------------
    I refer first to the Esperanza Fire, arson caused blaze which 
tragically cost the lives of five firefighters in California's San 
Bernardino National Forest in October 2006. The Esperanza Fire also 
destroyed 30 homes, but the entire town of Idyllwild may well have been 
destroyed if not for the extensive hazard reduction activities that 
were implemented in the area thanks to funding from the U.S. Forest 
Service and Natural Resources Conservation Service. During an official 
oversight trip for my previous job with the House Appropriations 
Committee, I toured the entire Idyllwild area the day before the fire, 
and then witnessed the fire's progression from a distance. Defensible 
space treatments implemented along the main roads into and out of 
Idyllwild fostered the safe passage of citizens and firefighters; areas 
where strategic thinning had reduced overly dense stands of trees 
served to modify the potential for crown fire; and reduced brush in 
proximity of structures helped to slow fire spread.
    The post-fire assessment of Arizona's record-setting 2011 Wallow 
Fire also clearly demonstrated that homes and forest were saved in and 
around the town of Alpine by management treatments applied in tandem 
with FireSafe practices near structures. I had the good fortune of 
flying with Project Lighthawk last summer over the entire Wallow Fire 
burn site. The fire area was huge, over half a million acres, and a 
very complicated and complex burn pattern occurred. It was clear that 
the extensive tree thinning treatments around the town of Alpine caused 
the fire to calm down so that firefighters, including the Conservancy's 
own Southern Rockies Wildland Fire Module, could protect extensive 
infrastructure.
    My informal case studies, along with those that have been more 
formally documented, provide further evidence that proactive forest 
management pays. But it is also clear that the scale and pace of this 
proactive forest management must increase and that treatments must be 
balanced between both developed and wildland areas.
    We also point out that near the end of the protracted fiscal year 
2013 federal appropriations process, the House Appropriations Committee 
offered a higher funding level for USDA Forest Service wildland fire 
management than was eventually agreed to by the Senate and signed into 
law. Those funds could have been used during the current fiscal year to 
bolster risk reduction projects, such as hazardous fuels reduction, as 
well as aid fire suppression preparedness. We hope that the House and 
Senate can find a way to support vital forest treatment actions as they 
are about to mark-up the FY 2014 appropriations bills.
    The Nature Conservancy was very disappointed to see that the 
President's FY 2014 Budget proposes devastating cuts to the Hazardous 
Fuels Reduction programs for both the U.S. Forest Service and the 
Department of the Interior. The nation has experienced a 57% increase 
in acres burned this past decade; the National Interagency Fire Center 
predicted extreme fire potential for most of the West this summer and 
that prediction is, unfortunately, bearing out as the season 
progresses.\8\ It does not make sense to reduce the nation's investment 
in one of the few proven federal programs that get us ahead of the 
problem.
---------------------------------------------------------------------------
    \8\ http://www.predictiveservices.nifc.gov/outlooks/outlooks.htm.
---------------------------------------------------------------------------
    We are also concerned to see that the President's FY 2014 Budget 
emphasizes protecting structures nearly to the exclusion of natural 
areas that support life and livelihood. The Conservancy agrees that 
funding is urgently needed to create community protection buffer zones 
that can limit the damage from wildfire. Fighting fires will remain 
costly until such buffers are in place and people feel safe.
    But shifting too much funding away from undeveloped forest areas 
where fires have been excluded for a century, and conditions remain 
overly dense and susceptible to unnaturally damaging wildfire, will 
have a long-term negative impact on forest health and resiliency. The 
Nature Conservancy urges a balanced allocation of funding between 
treatments in wildland and developed areas.
    Strategic mechanical fuels reduction in wildlands, combined with 
controlled burning to reduce fuels across large areas, can 
significantly reduce the chance that megafires will adversely impact 
the water supply, utility infrastructure, recreational areas and rural 
economic opportunities on which communities depend.
    We hope that this Committee will work with the Appropriations 
Committee, the Administration and others to foster funding that 
facilitates proactive management and hazardous fuels reduction, 
including the use of fire as a safe and cost-effective management tool, 
at a meaningful scale. We also encourage sustained investment in 
applied research, such as the Joint Fire Science Program, that develop 
both information and tools that enable land managers to maximize the 
effectiveness and ecological benefit of fuels treatments.
3. Provide Sufficient Funding for Emergency Wildfire Response
    The Nature Conservancy recognizes that even with a robust, 
proactive approach to land management, federal fire preparedness and 
suppression resources will still need to be maintained at an effective 
level to protect life, property and natural resources. But emergency 
preparedness and response resources must be provided through a 
mechanism that does not compromise the viability of the forest 
management activities that can actually serve to reduce risks to life 
and property and mitigate the demand for emergency response in the 
future. The current system of funding fire preparedness and suppression 
at the expense of hazardous fuels and other key programs threatens to 
undermine--and eventually overtake--the vital management and 
conservation purposes for which the USDA Forest Service and Department 
of the Interior bureaus were established.
    The dramatic increase of homes near natural areas that are prone to 
frequent and unnaturally damaging fire has added significantly to the 
cost of fire suppression. In the past, paying for this tremendous cost 
often resulted in ``borrowing'' or outright transfer of funding from 
critical land management and conservation programs into fire 
suppression accounts. Fire borrowing, and the threat of fire borrowing, 
has a chilling effect on the ability of land managers to plan the 
complex activities that modern forestry requires and retain skilled 
contractors and workforce. Previous hearings and GAO work documented 
the tremendous adverse impacts of this fire borrowing helping to 
generate the public outcry and Congressional action that led to the 
FLAME Act.\9\
---------------------------------------------------------------------------
    \9\ Wildfire Suppression Funding Transfers Cause Project 
Cancellations and Delays, Strained Relationships, and Management 
Disruptions GAO-04-612, June 2004.
---------------------------------------------------------------------------
    The FLAME Act of 2009 \10\ was signed into law as part of a 
bipartisan effort to change the funding mechanism for wildfire 
suppression by establishing two emergency wildfire accounts funded 
above annual suppression. The original version of this Act passed the 
House of Representatives in March 2009 with a vote of 412-3. These 
FLAME reserve accounts were intended to serve as a safeguard against 
harmful fire borrowing and should have represented an important change 
in the funding mechanism for wildfire suppression.
---------------------------------------------------------------------------
    \10\ Federal Land Assistance, Management and Enhancement Act of 
2009. Title V of Division A of 123 STAT. 2904 PUBLIC LAW 111-88--OCT. 
30, 2009.
---------------------------------------------------------------------------
    One of the cornerstones of the FLAME Act was the establishment of 
two FLAME wildfire suppression reserve accounts, one each for the 
Forest Service and the Interior Department. In passing the FLAME Act, 
Congress intended to fully fund federal wildfire suppression needs, 
while avoiding the need to transfer monies from other agency programs 
to fund emergency wildfire suppression expenses. Annual suppression was 
to be calculated using an improved predictive modeling that included 
the ten-year average and other indicators. The FLAME reserve accounts 
were to be funded at levels beyond average annual suppression 
expenditures and not at the expense of other agency programs. 
Additionally, any balances remaining in the FLAME accounts were to 
carry-over into future years so that funds retained in years when we 
have less than average expenditures could be held over for the 
inevitable, high cost years.
    Disappointingly, the implementation of the FLAME Act has not 
proceeded as intended. Due to several factors, last year the 
Administration again transferred hundreds of millions of dollars from 
the agencies' non-suppression programs into emergency response accounts 
before the end of FY 2012.
    Forecasts for the fiscal year 2013 wildfire season suggest another 
costly year ahead and strongly indicate that funds will again be 
transferred from non-suppression accounts, resulting in severe 
disruption of agency programs, including the hazardous fuel reduction 
and other forest management programs that would help to reduce wildfire 
suppression costs in the future.
    If and when fire and funding projections suggest that federal 
wildland fire suppression funds will be exhausted within a month, we 
strongly encourage the Congress to provide emergency supplemental 
funding in a timely manner. This would give fire suppression and our 
first responders the same treatment as occurs regularly for the FEMA 
Disaster Relief Fund.
    In order to move beyond this harmful and disruptive cycle of 
underfunding suppression needs and then robbing from other critical 
programs to fill the gaps, we recommend that the FLAME Accounts be 
fully funded as intended, separately from and above the ten-year 
average used to calculate annual wildfire suppression needs. We also 
recommend that annual suppression needs be fully funded using the ten-
year average along with more predictive modeling based on current 
weather conditions, fuel loads and other data that contribute to 
wildfire risk. Finally, we ask that any remaining balance in the FLAME 
accounts at the end of FY 2013 carry over into FY 2014.
    The Nature Conservancy further recommends that an expert panel be 
commissioned to provide options for a more effective and sustainable 
approach to federal emergency wildfire suppression funding. The 
critical life and safety mission associated with wildfire suppression 
should be guaranteed adequate funding, with oversight and efficiency 
safeguards, but this funding should not come at the expense of the 
other vital conservation, public service and science activities for 
which the federal land management agencies, and other agencies and 
bureaus which share the same federal funding source, were established.
    The Conservancy recommends that a new, separate federal funding 
source be established so vital fire suppression activities are funded 
distinct from existing land management requirements. One option the 
Committee might consider is the establishment of a ``Disaster 
Prevention Fund'' that could be utilized to support vital federal fire 
suppression actions during emergencies just as the Disaster Relief Fund 
is utilized to help communities recover after disasters. Fire 
suppression is different from other natural disasters, since the 
federal response is needed most acutely during the actual event. Such 
support should complement prevention and risk reduction activities 
discussed earlier, and post-fire recovery and restoration actions.
4. Communities Must Be Part of the Solution
    Federal agencies alone cannot prevent the loss of homes, 
infrastructure and other values in the wildland-urban interface (WUI). 
Individuals and communities living in the WUI must meaningfully invest 
in preparing for and reducing their own risk from fire. Post-fire 
studies repeatedly show that using fire resistant building materials 
and reducing flammable fuels in and around the home ignition zone are 
the most effective ways to reduce the likelihood that a home will 
burn.\11\ Similarly, community investments in improved ingress and 
egress routes, clear evacuation strategies, strategic fuel breaks and 
increased firefighting capacity can go a long way toward enabling the 
community to successfully weather a wildfire event.
---------------------------------------------------------------------------
    \11\ See, for example, Four Mile Canyon Fire Findings. Graham, et 
al. Pages 64-69. http://www.fs.fed.us/rm/pubs/rmrs_gtr289.pdf.
---------------------------------------------------------------------------
    Many communities across the nation are already deeply engaged in 
trying to proactively address their role within fire driven forest 
ecosystems, but this engagement must be both sustained and increased. 
For more than 10 years, the Nature Conservancy has worked cooperatively 
with the U.S. Forest Service and the Department of the Interior to 
foster the Fire Learning Network (FLN) that brings communities together 
and helps them build collaborative, science-based strategies that 
protect both people and ecosystems. The FLN supports public-private 
landscape partnerships that engage in collaborative planning and 
implementation, and provides a means for sharing the tools and 
innovations that help them scale up. Locally, the FLN helps federal 
land managers to: convene collaborative planning efforts; build trust 
and understanding among stakeholders; improve community capacity to 
live with fire; access training that helps fire professionals work with 
local communities; and address climate change and other emerging 
threats.
    Community commitment is also necessary to effectively shift our 
national approach to wildfire from a costly emphasis on disaster 
response to a balanced and proactive strategy with multiple benefits. 
Research increasingly shows that rising wildfire suppression costs are 
directly linked to the growing presence of homes and related 
infrastructure in the wildland-urban interface.\12\ A corresponding 
analysis by Headwaters Economics revealed that 84% of the WUI is still 
undeveloped, so there is tremendous potential for the costs associated 
with wildfire protection to exponentially increase.\13\ According to 
the same study, if just half of the WUI is developed in the future, 
annual firefighting costs could explode to between $2.3 and $4.3 
billion. By comparison, the U.S. Forest Service's total average annual 
budget is $5.5 billion.
---------------------------------------------------------------------------
    \12\ Wildfire, Wildlands and People: Understanding and Preparing 
for Wildfire in the Wildland Urban Interface. Stein, et al. Page 7. 
http://www.fs.fed.us/rm/pubs/rmrs_gtr299.pdf.
    \13\ http://headwaterseconomics.org/wildfire/fire-research-
summary/.
---------------------------------------------------------------------------
    Given the potential for devastating increases in both values lost 
and public expense, a diverse range of agencies and organizations 
(including The Nature Conservancy) have begun promoting the concept of 
``fire-adapted communities.'' The U.S. Forest Service defines a fire-
adapted community as a knowledgeable and engaged community in which the 
awareness and actions of residents regarding infrastructure, buildings, 
landscaping, and the surrounding ecosystem lessen the need for 
extensive protection actions and enables the community to safely accept 
fire as a part of the surrounding landscape.\14\
---------------------------------------------------------------------------
    \14\ http://www.fs.fed.us/fire/prev_ed/index.html.
---------------------------------------------------------------------------
    The U.S. Forest Service and other members of the Fire Adapted 
Communities Coalition are working to get communities the information 
and resources they need to successfully live with fire. The web site 
www.fireadapted.org provides access to a wide variety of educational 
materials and tools in support of community wildfire protection 
planning and action. Coalition members are also working to develop 
local, grassroots leaders and partnerships. These partnerships are 
essential for engaging all relevant stakeholders to assess and 
continually mitigate a community's wildfire risk.
    This level of individual and community preparedness goes beyond 
just developing a plan and begins to make the fundamental shift that 
must occur if we are going to get beyond our current wildfire 
suppression burden and toward restoring resilience to our nation's 
forests.
    Programs such as State and Volunteer Fire Assistance provide 
important resources to help states and local communities develop and 
sustain community wildfire protection capacity. We encourage both the 
federal land management agencies and this Committee to prioritize 
programs that foster the development of fire-adapted communities and, 
specifically, to allocate other federal resources in a way that rewards 
communities for proactive actions that collectively result in national 
benefit. Building local community capacity to learn to live with fire 
is the most cost effective way of reducing harmful impacts to society, 
while also allowing for enhanced, safe and controlled use of fire to 
restore wildlands as appropriate.
5. Efficiency and Innovation to Increase the Pace of Success
    The Nature Conservancy strongly supports the Administration's goal 
of accelerating restoration in our Nation's forests as described in the 
February 2012 report, Increasing the Pace of Restoration and Job 
Creation on Our National Forests. In this report, the agency 
acknowledges that the pace and scale of restoration must dramatically 
increase if we're going to get ahead of the growing threats facing our 
forest ecosystems, watersheds and forest-dependent communities. In 
order to facilitate this accelerated rate of treatment, we must make 
effective use of all available management tools and explore 
opportunities to increase the efficiency of planning and implementation 
processes.
    Stewardship contracting, for example, is an innovative and critical 
tool that allows the U.S. Forest Service and Bureau of Land Management 
to implement projects that restore and maintain healthy forest 
ecosystems, foster collaboration and provide business opportunities and 
local employment. Stewardship contracts are the only administrative 
tool that can ensure up to 10 year supplies of timber, a level of 
certainty that encourages job creation and long-term industry 
investment. Without Congressional action, Stewardship Contracting 
authority will sunset on September 30, 2013. Permanent reauthorization 
is urgently needed to provide surety for contractors and communities 
and to ensure that the USFS and BLM retain this important proactive 
tool to address our daunting forest restoration needs.
    The beneficial use of fire as a tool for resource management is 
another area where greater forest restoration efficiency and 
effectiveness could be achieved. By increasing the use of both 
controlled burns and naturally ignited wildland fires to accomplish 
resource benefit, land managers can accomplish both ecological and 
community protection goals on a larger scale and at reduced cost. In 
fact, some states annually reduce fuels on more than 100,000 acres in 
wildlands with fire treatments. The Nature Conservancy recommends that 
both Congress and the Administration make it clear that the safe and 
effective use of fire is a priority for land management agencies, and 
provide the necessary funding, training and leadership support needed 
to foster increased fire use where appropriate.
    The Conservancy also stresses how important it is to maintain 
regular use of fire as a habitat and restoration tool for our Nation's 
public lands, including National Forests, Parks, Refuges, and BLM 
lands, as well as support for our Native American trust lands.
    We were pleased to see the emphasis on collaborative, science-based 
and adaptive management contained in the new National Forest System 
Land Management Planning Rule and draft Directives. We hope that, once 
finalized, this new framework will be promptly implemented and will 
guide a new round of forest planning that is both more meaningful and 
more efficient, and sets the stage for timely implementation of 
projects that achieve multiple benefits on the ground. Clear guidance 
and support for the development and implementation of monitoring 
strategies will also be essential to the Rule's success.
    Finally, while we are committed to the principles of public 
engagement and environmental review embodied in the National 
Environmental Policy Act (NEPA), we believe there may be opportunities 
to significantly increase the efficiency of these processes through 
targeted adjustments in policy and implementation. The U.S. Forest 
Service is currently testing and tracking a variety of innovative NEPA 
strategies that hold promise for broader application. Adaptive NEPA, 
for example, is a relatively new approach in which the official record 
of decision allows sufficient leeway for some variety of subsequent 
federal actions, thereby greatly streamlining the analysis, allowing 
for more efficient project implementation, and enabling land managers 
to more effectively incorporate emerging science. These innovative 
approaches to NEPA should be expanded and additional opportunities 
sought for streamlining policies and processes in a way that increases 
the pace and scale of implementation while holding true to the core 
values inherent in the Act.
Conclusion
    Thank you for your attention to these important issues related to 
wildfire, forests and communities. We appreciate the opportunity to 
offer the Nature Conservancy's perspective on how we might shift our 
focus toward a more proactive and cost-effective management approach 
that provides multiple benefits to people and nature. Please let us 
know if we can provide any additional information or assistance to the 
Committee as you move forward in this arena.
                                 ______
                                 

 Response to Questions Submitted for the Record by Christopher Topik, 
                     Ph.D., The Nature Conservancy

1.  Could you explain why noncommercial thinning does not produce as 
        much useable wood fiber as commercial harvest does? Why is 
        noncommercial thinning important despite being unprofitable?
    Many of North America's forestlands evolved as fire-driven 
ecosystems in which regular cycles of fire served to reduce 
competition, promote growth and facilitate diversity and resilience in 
the face of change. These natural (or characteristic) fires had a major 
impact on the structure and composition of our forests. In ponderosa 
pine and mixed conifer forests, for example, repeated, low to moderate 
intensity fires served to clean out the understory and keep tree 
stocking at levels that allowed remaining trees ample space to grow 
strong and become sufficiently large to avoid damage from low 
intensity, cleansing fires. During the 20th Century, aggressive fire 
suppression policies were very successful at reducing the incidence of 
wildfires in a great many locations across the country. Over decades, 
this lack of fire resulted in vast areas that are overstocked with 
brush and dense, small trees.
    These overly dense and homogenous forest conditions pose a 
tremendous hazard to both people and nature because they promote 
unnaturally large, severe and fast-moving wildfires. It is vital that 
we find ways to reduce the brush and small trees that contribute to 
these conditions, but their removal is challenged by the fact that they 
hold very little traditional commercial forest products value. Faced 
with this challenge, a number of businesses, communities and land 
managers have been seeking innovative ways to realize some commercial 
value from these materials, including their utilization as woody 
biomass for energy. While they are not likely to produce a significant 
profit, these innovative approaches can provide jobs and other benefits 
to local economies while also reducing the costs of treatment overall.
    Because lives and essential livelihoods are at stake, we must 
continue to emphasize the management of forested landscapes at high 
risk to uncharacteristic wildfire, whether or not the materials removed 
ever result in a profit. When we consider the future value of the 
improved forest and watershed, and the future ability of the forest to 
resist damage from wildfires, this is a sound investment for society. 
There is substantial scientific literature on these issues, some of 
which is reviewed in the recent paper by Martinson and Omi cited in my 
formal testimony.
2.  In your testimony, you mentioned the importance of ``strategic 
        mechanical fuels reduction'' in reducing the severity of fires. 
        What makes fuel reduction strategic?
    Strategic fuels reduction projects are those that are designed and 
implemented at a scale and in a location that maximizes positive impact 
on the forest environment after the treatment. Science-based 
understanding of the local forest conditions, along with relevant fire 
behavior and weather patterns, can guide forest managers in planning 
fuels reduction projects. Strategic projects will be placed so as to 
interfere with the potential wildfire paths suggested by the local 
vegetation inventory, topography, weather and climatic conditions. 
Strategic projects have much greater impact than just the stand that is 
treated; they affect processes over larger areas for longer periods and 
therefore are much more efficient and productive at achieving forest 
improvement over larger areas.
    We understand that there are many millions of forest acres that 
have altered fire risk, in many cases due to decades of successful fire 
suppression and in some cases from historic harvest practices and 
unnatural forest regeneration. It is vital that we have thorough forest 
inventories, such as those developed by the LANDFIRE science team, that 
indicate the existing vegetation across ownership and jurisdictional 
boundaries. We also need science-based understanding of potential 
responses of various kinds of forests and vegetation to different 
treatments and different environments. When taken together with an 
understanding of local community desires for the landscape, strategic 
projects can be developed that will have greater impact on reducing 
future fire severity. There is plentiful peer-reviewed literature that 
discusses this issue as well, for instance, the paper by James K. Agee 
and Carl N. Skinner (2005, Forest Ecology and Management, ``Basic 
principles of forest fuel reduction treatments'' and the recent paper 
by Mathew P. Thompson, et al. in the January 2013 issue of the Journal 
of Forestry (Quantifying the Potential Impacts of Fuel Treatments on 
Wildfire Suppression Costs).
                                 ______
                                 
    Mr. Bishop. Thank you.
    And finally, last but not least, Mr. Roady. We are finally 
getting to you. Five minutes, as well.

  STATEMENT OF CHARLES W. ``CHUCK'' ROADY, VICE PRESIDENT AND 
     GENERAL MANAGER, F.H. STOLTZE LAND AND LUMBER COMPANY

    Mr. Roady. Mr. Chairman and Ranking Subcommittee Member, my 
name is Chuck Roady, and I am the Vice President and General 
Manager of F.H. Stoltze Land and Lumber Company in Columbia 
Falls, Montana. Stoltze is the oldest family owned lumber 
company in Montana, and having recently celebrated our 
centennial by dedicating a new wood biomass cogeneration 
facility. Our company employs 120 families, 80 contractors, and 
we manufacture 70 million board feet each year. I also sit on 
the Board of Directors of the Federal Forest Resource 
Coalition, representing 650 member companies in 28 States.
    Our mill, like many others around the country, was 
originally established to be located close to an abundant 
supply of timber growing on Federal public lands. These lands 
supported our local communities, not only through direct jobs, 
but also the sharing of the 25 percent of the gross revenues 
for our roads and schools in the counties of Montana.
    Unfortunately, over the last 30 years, the management 
philosophy on our Federal lands has lost its focus, and has 
become increasingly passive. This three-decade decline in 
active management follows almost a century of very effective 
forest suppression efforts. Combined with the effects of insect 
infestation, disease, and severe overstocking and drought, our 
national forests have been allowed to deteriorate into an 
alarming forest health crisis.
    Nowhere has this been more evident than in the national 
forests of Montana, right out our back door at Stoltze, while 
the local forest, the Flathead, is the backdrop for millions of 
visitors each year to Glacier National Park and our surrounding 
wilderness areas. It is experiencing the same serious forest 
health problems that we are witnessing in the other national 
forests around the country. A decline in our age classes and 
our species diversity, due to continuous fire suppression has 
left many stands more susceptible to the large catastrophic 
wildfires.
    During the last several decades, we have seen more than 15 
to 20 percent of Montana's Federal timberlands destroyed or 
damaged by fire. Many of these fires have burned so intensely 
and so hot from the over-fuel loading and over-crowded timber 
stands, they require the agency to replant most acres, because 
there are not enough remaining live trees to provide a seed 
source for natural regeneration.
    Sadly, these intense fires are not isolated events to 
Montana. The pine forests of Arizona and New Mexico, which have 
had--for years adapted to low intensity fires, have seen 
increasingly common large, mega-scale fires travel very 
quickly. They destroy the forest canopy, and they sterilize the 
soil.
    About 25 percent of Arizona's pine forests have seen 
catastrophic fires in the last decade. The types of landscapes 
remaining after these super-intense fires are not providing the 
multiple benefits that the American public expects. The lack of 
management we see on our Federal forests is a result of both a 
conscious decision to reduce the harvest as part of the revised 
forest management plans, as well as a result of an aggressive 
campaign of litigation.
    The list of litigation on forest management projects on 
Forest Service land is extremely long, especially in region one 
of Montana and Idaho. A great example is our Colt Summit 
project in Western Montana, where many parties came together to 
arrive at a decision in a collaborative effort, only to be 
litigated by those selfish groups who refuse to play at the 
table. This project demonstrates that a small corps of activist 
groups will not only go out of their way to stop direly needed 
forest management, but they make a point of engaging in 
indiscriminate litigation. These groups continually force the 
Forest Service to engage in an endless, expensive analysis, 
even on the smallest of projects with broad community support.
    Make no mistake. These serial litigants do not sue the 
Federal Government because they have this heartfelt love of the 
land or a fondness for a specific bird, fish, or wildlife. They 
sue because they have learned how to control, manipulate, and 
profit financially through the court systems. The endless 
litigation is what leads the Forest Service to spend over $350 
million annually on their NEPA analysis, rather than on 
designing, implementing, and completing badly needed forest 
health projects. We need some form of legislated litigation 
relief on our national forests, and we need it to happen quick.
    Routinely now, we commonly see wildfires which start and 
burn uncontrollably on the Federal Forest Service lands. And 
then, with a full wall of flames, they travel on to actively 
managed State and private lands. These high intensity crown 
fires, when hitting the managed stands of different ownerships, 
generally transform into a more workable, low-intensity ground 
fire, allowing the firefighter crews to step in and gain an 
upper hand in the fire. Unfortunately, when these huge 
wildfires escape from the unmanaged Federal lands and burn on 
to the adjacent ownerships, they threaten people's lives, their 
homes, the wildlife habitat, and municipal watersheds.
    The FFRC members like myself, we value the national forests 
for more than just the economic benefits that they provide to 
our companies and our communities. We too spend time recreating 
in these forests, in addition to earning our living there, and 
believe the poor forest health conditions and the large 
wildfires that we are now witnessing on national forests are 
unacceptable to most Americans, as well.
    With clear legislative direction from Congress, the Forest 
Service can prioritize their management actions, reduce their 
unit costs, and begin to address the forest health and the 
wildfire crisis that plagues our national forests. Without this 
clarity, and an improved budgeting process, the health of our 
forests and our communities will continue to suffer.
    I would add, members of the Committee, this is a 
nonpartisan, non-regional issue. It is simply a case of doing 
the right thing to actively manage our public forests. And if 
we don't, Mother Nature is going to do it for us. And when she 
does it, it is uncontrollable and catastrophic. Thanks. I 
appreciate it.
    [The prepared statement of Mr. Roady follows:]

Statement of Chuck Roady, General Manager, F.H. Stoltze Land and Lumber 
      Company, on behalf of the Federal Forest Resource Coalition

    Mr. Chairman, Ranking Member, my name is Chuck Roady, and I am the 
General Manager of F.H. Stoltze Land and Lumber in Columbia Falls, 
Montana. I sit on the board of directors of the Federal Forest Resource 
Coalition, a national non-profit trade association representing a 
diverse coalition of federal timber purchasers, conservation groups, 
and county governments. With over 650 member companies in 28 States, 
FFRC members employ over 390,000 people and contribute over $19 Billion 
in payroll. I also sit on the board of directors of the Rocky Mountain 
Elk Foundation, a national group dedicated to ensuring the future of 
elk, other wildlife, their habitat, and our hunting heritage.
    FFRC members purchase, harvest, transport, and process timber and 
biomass from the National Forest System and lands managed by the Bureau 
of Land Management. We live and work in communities near to or 
surrounded by Federal public lands. Our businesses rely upon healthy, 
productive forests, and a sustainable and growing supply of raw 
materials from these lands.
    Our members continue to make investments in our facilities and our 
communities because we believe we can be a part of a more prosperous 
future, both for our communities and for our National Forests. However, 
significant forest health problems, particularly overstocking, insect 
mortality, and large scale, uncharacteristic wildfires threaten not 
just the timber our member mills rely upon but the health of 
watersheds, wildlife habitat, and the recreational values millions of 
Americans take for granted.
    These negative trends in forest health, combined with continuing 
drought, have lead to a ``new normal'' for wildland fire, with an 
average of over 6.4 million acres burned in each of the last 5 years. 
As was demonstrated just over a week ago, the consequences of this new 
normal include the tragic loss of life, with 19 hotshots killed on the 
Yarnell Hill Fire in Arizona. The thoughts and prayers of all our 
members go out to the families of the fallen.
    We have been dismayed to see the Administration propose reductions 
in the very programs needed to address these threats: the forest 
products, hazardous fuels reduction, and capital improvement and 
maintenance programs of the Forest Service. These program reductions, 
partially due to the sequester--but proposed again for 2014--will lead 
to a worsening of the forest health and wildfire crisis on our Federal 
lands.
Extreme forest health problems plague the National Forest System:
    The Forest Service and Bureau of Land Management (BLM) manage over 
193 million acres of forest lands. By some estimates, more than 82 
million acres of Forest Service lands and hundreds of millions of acres 
of other Federal lands are at increased risk of catastrophic 
wildfire.\1\ Even in landscapes where fires are infrequent, fuel loads 
and mortality are well outside of historic norms.
---------------------------------------------------------------------------
    \1\ http://www.fs.fed.us/publications/policy-analysis/fire-and-
fuels-position-paper.pdf.
---------------------------------------------------------------------------
    These fuel problems lead to large scale forest mortality and 
increased occurrence of catastrophic wildfires. Last year, 9.3 million 
acres burned, including 2.6 million acres of Forest Service lands. 
These fires have cost the agency more than $2.0 billion in suppression 
costs, including over $400 million which was redirected from land 
management, research, and State and Private Forestry.
    Figure 1 shows that these fires disproportionately impact the 
National Forest System. The Forest Service controls only about 17% of 
the land base, yet accounted for more than 26% of the Wildland fire 
acres last year.
    The large fires in Idaho and Montana in 2012 forced the closures of 
popular campgrounds, destroyed dozens of recreational cabins, and 
forced cancellations of Fourth of July events at popular mountain 
resorts. Numerous National Forests in the Southwest and Central Rockies 
are closing trails, campgrounds, and other recreational facilities due 
to elevated fire danger again this year. Campers, hikers, hunters, and 
skiers all want to visit healthy, green, and growing forests.
The Role of Harvest in Forest Restoration:
    After nearly three decades of drastically reduced harvest, the 
National Forest System is facing an ecological and managerial crisis. 
Overstocked stands, drought, climate change, insects, and fire threaten 
to reconfigure the landscape and damage watersheds throughout the west. 
The large fires that result from this overstocking also threaten 
management on the rest of the National Forest System. Resources--money 
and people--are redirected away from forest management throughout the 
System; last year, over $400 million was redirected from forest 
management programs for this purpose. Non-fire prone forest, such as 
the Superior in Minnesota, the Ottawa in Michigan, and the Francis 
Marion in South Carolina, still lose the ability to manage when key 
staff are diverted to firefighting rather than managing the land.
    And yet a great deal of research, including research conducted by 
the Forest Service, indicates that active management which produces 
valuable timber can help reduce fire threats while meeting a wide 
variety of restoration goals. Active forest management and timber 
harvest have been shown to have multiple long-term benefits, including 
reducing fuel loading, reducing potential for crown fires, increasing 
structural stage diversity, increasing age class diversity, reducing 
stand density and thus susceptibility to mountain pine beetles and 
other bark beetles, and improving wildlife habitat. Wildlife habitat 
can either be directly improved or indirectly improved by reducing the 
potential for catastrophic fires
    Forest Service Researchers Ken Skog and James Barbour, for 
instance, found that thinning which produces sawtimber can treat more 
than twice as many acres as treatments which rely solely on non-
commercial thinning. The thinning projects that produce timber, the 
researchers found, could treat 17.2 million acres, whereas non-
commercial thinning could only treat 6.7 million acres. This study 
eliminated roadless areas and stands on steep slopes from 
consideration, and evaluated treatments on whether they reduce stand 
susceptibility to insect attack, fire, and windthrow.\2\
---------------------------------------------------------------------------
    \2\ Evaluation of Silvicultural Treatments and Biomass Use for 
Reducing Fire Hazard in Western States, Kenneth E. Skog and R. James 
Barbour, et. al, Forest Service Research Paper FLP-RP-634, 2006.
---------------------------------------------------------------------------
    One of the most productive National Forests in the country, the 
Ouachita National Forest in Arkansas, is actively restoring significant 
wildlife habitat through the use of commercial timber sales, 
Stewardship contracts, and active support from conservation groups such 
as the National Wild Turkey Federation (an FFRC affiliate member) and 
the Nature Conservancy. While producing commercially valuable shortleaf 
pine timber, this forest is also creating habitat for the Red Cockaded 
woodpecker, prairie warbler, yellow breasted chat, and common 
yellowthroat. The Forest noted that red cockaded woodpeckers had 
increased by almost 300% due to the improved habitat. Researcher Larry 
Hedrick noted that ``The ability to sell valuable wood products is at 
the very heart of restoration efforts. . . . All commercial thinning or 
regeneration cutting is accomplished through the use of timber sales 
that are advertised and sold to the highest bidder. Further . . . 
portions of the proceeds from these timber sales are retained to pay 
for most of the follow-up midstory reduction and prescribed burning 
needed to restore the stands.'' \3\
---------------------------------------------------------------------------
    \3\ Shortleaf Pine-Bluestem Restoration in the Ouachita National 
Forest, Larry D. Hedrick et. al. Transaction of the Sixty-Second North 
American Wildlife and Natural Resources Conference, Washington, DC, 14-
18 March, pp. 509-515.
---------------------------------------------------------------------------
    It should be noted that in many respects, the Short Leaf Pine 
forests in Arkansas are similar ecologically to the Ponderosa pine 
forests that are facing huge fire threats in the west. As fire adapted 
pine types, these forests need active management to maintain natural 
disturbance regimes, and they can be effectively managed in ways that 
help support the local economy.
    In the case of northern goshawks, present forest conditions in the 
southwestern United States may be adversely affecting goshawk 
populations. Management of goshawk habitat focuses on creating and 
sustaining a patchy forest of highly interspersed structural stages 
ranging from regeneration to old forest throughout a goshawk territory. 
Managing the forest, through timber harvest and other treatments, to 
thin the understory, create small openings, and provide different tree 
sizes across the landscape will help produce and maintain desired 
forest conditions for goshawks and their prey.\4\
---------------------------------------------------------------------------
    \4\ Implementing Northern Goshawk Management in Southwestern 
Forests: A Template for Restoring Fire-Adapted Forest Ecosystems, James 
A. Youtz, Russell T. Graham, Richard T. Reynolds, and Jerry Simon; 
Proceedings of the 2007 National Silviculture Workshop.
---------------------------------------------------------------------------
    The Senate Energy & Natural Resources Committee recently heard from 
Diane Vosick from the Ecological Restoration Institute at Northern 
Arizona University, who noted that research indicates that hazardous 
fuels treatments are effective at reducing large fire costs, protecting 
property, and preserving watersheds. She also noted that there is a 
substantial opportunity cost to delaying thinning projects, meaning 
that delays don't just wind up deferring costs, they increase them.\5\
---------------------------------------------------------------------------
    \5\ The Efficacy of Hazardous Fuel Treatments: Ecological Research 
Institute, May 2013.
---------------------------------------------------------------------------
    Certainly not all acres of the National Forest System are suited to 
be managed for timber. FFRC members value wildland as much as the rest 
of the public, and frequently our members don't just earn their living 
in these remote places, but they depend on them for recreation, 
hunting, and family time as well. But ample research indicates that 
active management can produce a multitude of benefits, well beyond 
timber harvest.
    In the current budget environment, it makes sense to look at this 
research and see how the value of the trees and other forest products 
can help pay for the management that science says need to take place.
The Forest Service continues to treat too few acres, using too much 
        prescribed fire, foregoing treatments that are more cost 
        effective and produce more jobs:
    With a few notable exceptions, the Forest Service continues to 
propose projects that are not significant enough to meaningfully reduce 
wildfire danger on a landscape level. Of the 82 million acres at 
significant risk, the Forest Service has only implemented mechanical 
treatments on 6.8 million acres since 2001, or less than 10% of the 
acres at risk. Further, by the Forest Service's own accounting, only 
25% of projects produce any usable wood fiber.\6\
---------------------------------------------------------------------------
    \6\ http://www.forestsandrangelands.gov/resources/reports/
documents/healthyforests/2009/FY2009HFAccomplishments.pdf.
---------------------------------------------------------------------------
    The statistics from 2011 are illustrative in this regard (Figure 
2). In 2012, the Forest Service told this committee that they 
``restored'' some 3.7 million acres of National Forests. However, once 
you break down this claim by type of treatment, it become obvious that 
the agency is relying on both wildfires and prescribed fires to claim 
these large numbers. Some acres received more than one treatment, so 
the numbers don't total up.
    Over 1 million acres were ``treated'' with prescribed fire; over 
400,000 of these acres were ``treated'' by wildfires burning within 
prescription. This is 10% of the total, and 37% of the prescribed burn 
acres.
    The Forest Service only harvested usable wood fiber from 195,000 
acres that were commercially thinned. This means that on 3.5 million of 
the acres restored, the Forest Service was generating no revenue 
whatsoever, and on 90% of the acres restored, there was no thinning of 
any kind.
    In other words, when Congress provides substantial funds to pay for 
restoration work and encourages the agency to provide jobs and usable 
wood fiber, it is important for Congress to know how little of the 
National Forest System gets treated every year. If we accept the 82 
million acre figure in the Administration's ``accelerated'' restoration 
strategy, they are on pace to complete a thinning of these acres in a 
mere 241 years, in the unlikely event that these forests do not succumb 
to insects, disease, and/or wildfire before then.
Prioritize Management to Save Jobs, Preserve Forest Products 
        Infrastructure, and Avoid Future Fire Costs:
    We need to invest more resources up front to keep our forests green 
and healthy rather than wait until they are dead and dying, or on fire. 
Policies which prioritize reducing hazardous fuels loads and actively 
managing National Forest timberlands must be combined with budgets 
which invest in these activities if there is any hope of restoring our 
Forests in the foreseeable future.
    The current model basically pits management against fire 
suppression annually, and when significant fires threaten communities, 
property, and watersheds, suppression wins that battle ever time. As 
noted above, the Forest Service moved more than $400 million last year 
from management and other accounts, primarily from accounts such as K-V 
and Salvage sales, to pay for suppression costs. Figure 3 demonstrates 
that even before these transfers, fire suppression has grown to crowd 
out forest management as a portion of the Forest Service budget:
    Substantial increases in National Forest Timber Management, 
Hazardous Fuels Reduction, and other line items which can support 
large, landscape scale projects that reduce fuel loads, produce 
merchantable wood, can help avoid future fire suppression costs and 
reduce unemployment, thereby lowering Federal social program costs, 
such as welfare, unemployment, and food stamps. Moving from the current 
harvest level of 2.4 billion board feet to 3 billion board feet could 
produce some 14,400 direct jobs, with thousands of additional indirect 
jobs.
    Unfortunately, the sequester and the Administration's 2014 budget 
proposal both go in the wrong direction, proposing a smaller timber 
sale program and a reduced amount of hazardous fuels reduction 
treatments. The budget proposes to do this while increasing the amount 
spent on land acquisition, even while acknowledging an increase in 
capital improvement and maintenance backlogs from $5.3 billion in 2012 
to $6 billion in 2014. This is precisely the wrong direction for an 
agency facing a wildfire and land management crisis.
Reduce Overhead and Project Preparation Costs to Ensure that Funding 
        Leads to Meaningful Management.:
    In addition to redirecting the budget towards management and fuels 
reduction, the Forest Service must reduce overhead and project 
preparation costs in the land management programs, particular forest 
products, hazardous fuels reduction, and salvage sale funds. Current 
overhead rates are over 50%, and in some regions, 70% of appropriated 
dollars go into NEPA compliance, not project design and implementation. 
The agency admits they spend more than $350 million annually conducting 
analysis required by NEPA and other laws.
    There are some steps the Forest Service can take to reduce these 
costs on their own, such as doing larger scale NEPA analysis (the Black 
Hills Mountain Pine Beetle Response Project is an example of this 
approach), ensuring that land management projects actually meet the 
purpose and need statement in the NEPA, and making greater use of 
alternative sale administration techniques such as designation by 
description. We work with the Forest Service closely to identify 
opportunities such as these and hope we will see continued progress on 
these items. We also believe the agency should make greater use of 
existing authorities such as those available in the Healthy Forest 
Restoration Act.
    However, as we have noted elsewhere, we believe what is ultimately 
needed is legislative reform which provides clarity on the land 
management goals on Forest Service lands. Currently, elaborate forest 
planning efforts lead to land use designations, including the 
designation of suitable for timber production. Yet after these plans 
are completed, the Forest Service finds it must conduct even more 
exhaustive analysis, even on lands with this designation and even when 
conducting modest land management projects.
    We've noted the Colt Summit Forest Restoration Project on the 2 
million acre Lolo National Forest in Montana. This 2,000 acre thinning 
project, widely recognized as a collaborative effort called for in the 
community wildfire protection plan, nonetheless required over 1,400 
pages of NEPA documentation, over a year of analysis, and was still 
enjoined by a Judge who sided with a minor environmental group. This 
group chose not to participate in the collaborative and only was able 
to win an injunction based on speculative impacts of future, 
hypothetical projects.
    This was not an isolated incident. Region 1 in particular is facing 
an onslaught of litigation, with over 30,000 acres of hazardous fuels 
reduction projects either appealed or litigated. The Region has more 
volume under injunction that any other, while mills struggle to survive 
and meet customer demands. Meanwhile, overstocked forests experience 
significant mortality and large scale fires.
Principles of Reform:
    FFRC recommends that Congress enact legislation which clarifies the 
land management direction on the 23% of the National Forest System 
designated under current forest plans as suitable for timber 
production. Clarifying that timber management is the primary goal of 
these acres and reducing the required NEPA analysis, reducing appeals, 
and giving the Forest Service some deference in litigation is 
absolutely necessary to reducing the cost of management and improving 
forest health.
    A trust mandate on these acres will provide clarity to the Forest 
Service's land management mission and free up substantial financial 
resources to conduct hazardous fuels reduction work, particularly in 
the Wildland urban interface, where costs are highest and the ability 
to harvest commercial timber is sometimes limited.
    Not inconsequentially, moving to a trust model will enable the 
Forest Service to meet it's obligations to rural communities which has 
currently been met with direct payments to Counties from the U.S. 
Treasury, a model whose time has come and gone.
    A trust approach to land management has been successfully applied 
in many regions of the country. Most State lands in the West are under 
trust management. Minnesota has Permanent School Trusts and University 
Trust Lands as well. The Lincoln Institute of Land Policy notes that 
``Unlike other categories of public lands, the vast majority of state 
trust lands are held in a perpetual, intergenerational trust to support 
a variety of beneficiaries, including public schools . . ., 
universities, penitentiaries, and hospitals. To fulfill this mandate, 
these lands are actively managed for a diverse range of uses, 
including: timber, grazing, mining for oil and gas and other minerals, 
agriculture, commercial and residential development, conservation, and 
recreational uses such as hunting and fishing.''\7\ Several large State 
Trust lands forestry programs have been certified under one or more 
forest management certification program.\8\
---------------------------------------------------------------------------
    \7\ Trust Lands in the American West: A Legal Overview and Policy 
Assessment; Peter W. Culp, Diane B. Conradi, & Cynthia C. Tuell, 2005, 
Sonoran Institute.
    \8\ See, for instance, WA DNR: http://www.dnr.wa.gov/Publications/
frc_fsc-sfi_certification_factsheet.pdf, PA DCNR: http://
www.dcnr.state.pa.us/forestry/stateforest
management/Certification/index.htm.
---------------------------------------------------------------------------
        <bullet>  Streamline NEPA analysis, ESA consultation, and 
        judicial review for projects conducted on lands designated for 
        timber production.
        <bullet>  Set clear volume and acreage treatment targets to 
        ensure accountability.
        <bullet>  Clarify to the courts that timber production is the 
        primary objective on this small portion of the National Forest 
        System, and not one use among many.
        <bullet>  Focuses on timber economics in the design, operation, 
        and management of projects on lands designated for production.
Locking in Conservation, Sustainable Timber Production while 
        Effectively Reducing Hazardous Fuels:
    A trust approach on lands designated for timber production would 
focus on the small portion of the National Forest System which is 
supposed to be producing timber. Lands which have been set aside after 
countless hours of public involvement, Congressional review, and 
official designation as wilderness would remain off-limits to 
commercial harvest. Agency resources, currently wasted by over-
analyzing even modest timber sales or hazardous fuels projects, would 
be freed up to offer economic timber sales, or to fund restoration work 
through Stewardship contracts.
    On acres designated for timber production, concrete management 
requirements would help spur investment in wood using industries and 
land management capacity. Existing mills would receive some assurance 
that the National Forests they depend on will produce reliable supplies 
of timber into the future. Economic development, currently stymied by a 
declining forest products sector and extreme wildfires, would be 
encouraged.
    The American public would no longer be forced to bankroll a 
litigation driven analysis machine, and instead could spend the few 
dollars available to actually improve the condition of the National 
Forest System.
    The current system is unsustainable, socially, economically, and 
ecologically. Piecemeal reforms hold little promise. The opportunity to 
change the management paradigm is here.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Bishop. Thank you. All right. We will now turn to 
questioning. Mr. McClintock, do you have questions? We will go 
there first.
    Mr. McClintock. Thank you, Mr. Chairman.
    Mr. Douglas, in your testimony, you say that DOI has 
achieved a high success rate in suppressing unwanted fires 
during the initial attack stage. Was the Department of the 
Interior involved with the Reading fire in California several 
years ago?
    Mr. Douglas. I am not familiar with that particular fire, 
sir.
    Mr. McClintock. Well, that was the fire that the Federal 
authorities--I believe it was the Department of the Interior--
decided would be healthy to let burn, because fire is our 
friend. It is a cleansing thing, according to this bizarre 
philosophy that seems to have developed within your department. 
So they let it burn until it went completely out of control. 
All of the State and local fire services were absolutely 
incredulous by the decisions that were made by the Federal 
Government during that period. Do you have any comment on that?
    Mr. Douglas. I am not familiar with that particular fire. 
We can look into----
    Mr. McClintock. How long have you been in your position?
    Mr. Douglas. I have been in these kinds of positions in the 
Department for 15 or 20 years, but I am not familiar with that 
particular fire, sir. And I am happy to look into it and have 
an explanation about----
    Mr. McClintock. Mr. Hubbard, can you shed any light on 
that?
    Mr. Hubbard. No, sir.
    Mr. McClintock. Unbelievable. I believe it was Mr. 
Hubbard--in your testimony you spoke of sequestration. Maybe it 
was Mr. Douglas. I am referring to the written presentations. I 
seem to recall a time when we had no problem properly managing 
the forests, because we harvested the excess timber, sold that 
timber, and those revenues went into the Federal treasury.
    In my region, five, the timber harvest, as I recall, is 
down over 80 percent from the 1980s, and it has been down every 
year for the last several years. Every time we are told by the 
regional forest manager that we should expect--pardon me. That 
is Department of Agriculture, I guess, isn't it?
    Mr. Hubbard. Yes, sir.
    Mr. McClintock. Well, anyway, we are told that we should 
expect from the national forests increasing returns. We keep 
getting lower and lower returns, to the point where the forests 
are now completely overgrown. Why are we doing that?
    Mr. Hubbard. Mr. McClintock, the current direction from the 
Chief of the Forest Service to those regions is to accelerate 
the scale and the pace of restoration treatments. And that is 
what they intend to do within the limits of the laws that they 
have to abide by.
    Mr. McClintock. Well, the fact that the timber harvests are 
down so dramatically, does that bother you at all?
    Mr. Hubbard. Absolutely. We would much prefer to have more 
active management on the national forests.
    Mr. McClintock. Mr. Roady, has that been your impression?
    Mr. Roady. Congressman, I think the Forest Service would 
like to do something. It hasn't happened, for the same reasons 
we have all mentioned. We need to do something. I think 
Congress can help. No, it hasn't happened. There is no active 
management by the Forest Service. It is----
    Mr. McClintock. Do you see an attitude within the Forest 
Service that is conducive to the sound forest management 
practices that served our country and served it well, served 
the economy well, served the environment well, while it was 
practiced?
    Mr. Roady. You bet. When it was working, it worked. We 
wouldn't be arguing about Secure Rural Schools, we wouldn't 
worry about where the money is coming from. When we removed 
products from the timber harvest, the system worked.
    Mr. McClintock. And there was money flowing to the treasury 
by the sale of that excess timber, there was money going into 
the economy because of the enormous economic activity that 
produced, we removed the overgrowth from the forest so that we 
had much healthier forests, much more resistant to both fire 
and pestilence and disease, and we had small timber crews 
spread throughout the mountains, with good timber roads, 
meaning that if a fire started on an adjoining ridge, it was no 
trouble for the crew to get its equipment over there quickly 
and put out the fire.
    And now, those crews are gone, the logging roads are 
disintegrating, forests are overgrown, the treasury is empty. 
These are the policies that have misguided our government for 
the past 20 years or so. They have failed. They have failed 
catastrophically. And I believe that it is time for this 
nonsense to end, and those responsible for it to go.
    Mr. Bishop. Thank you. Mr. Grijalva?
    Mr. Grijalva. Thank you.
    Mr. Bishop. Do you want to get your phone, first, or----
    Mr. Grijalva. No.
    Mr. Bishop. OK.
    Mr. Grijalva. I can't seem to be able to turn it off.
    This is a question for all the panelists. It is a quick 
question. To each panelist, would you support immediate 
consideration and enactment of stewardship contracting 
authority and Good Neighbor Authority, separate from a broader 
forest policy legislation? If you could just go down and start, 
thank you.
    Mr. Hubbard. Mr. Grijalva, the Forest Service does support 
the enactment of authorities for both those tools.
    Mr. Douglas. Same for the Department of the Interior.
    Mr. Rigdon. The Intertribal Timber Council would support 
both of those things. But also, I would like to add that Tribal 
Forest Protection Act is a good neighbor kind of authority 
inside there, and I think we did a report this year, and taking 
some of the recommendations to enhance that would be something 
I would recommend.
    Mr. Grijalva. Thank you.
    Mr. Duda. State of Colorado supports and urges permanent 
authority for both of those.
    Mr. Grijalva. Thank you.
    Dr. Topik. Thank you. The Nature Conservancy is in the same 
position, as I said in my testimony.
    Mr. Roady. Mr. Congressman, we support that in the industry 
as well. But we are only kidding ourselves to think those go 
far enough.
    Mr. Grijalva. Thank you for your yes or no. Dr. Topik, 
thank you for coming today. I appreciate the testimony you 
submitted on behalf of the organization. And to be honest, I 
was surprised and gladdened by the fact that there is overlap 
between what you are saying in your testimony, the agency's 
testimony, and the industry's testimony.
    But I also want to better understand the differences, as 
well. Can you address the criticism that collaboration efforts, 
as we just heard, aren't producing enough timber? Also, can you 
talk about TNC's view on how we make decisions about fuel 
reduction outside the wildland-urban interface?
    Dr. Topik. Thank you very much. With respect to the 
collaboration, not every individual collaborative effort is 
going to be wildly successful. But, as a whole, when we look at 
them--and I have had the good fortune of going out on the 
ground and visiting with, I believe, nine collaborative groups 
around the country, I have sat in on a number of collaborative 
meetings--I was just recently in Arkansas, for instance--this 
does work. It takes some time, it takes some patience, it 
requires people to listen. It requires a bit of capacity. You 
need to have somebody there with some scientific tools, with 
some GIS tools. But there is an awful lot that can work. It is 
not going to work in every instance, perfectly, but I believe 
it creates the social license that is the only way forward.
    Mr. Grijalva. OK.
    Dr. Topik. And so I am very much in believing that--on 
that.
    With respect to the forestry cutting, we clearly need to 
have that kind of collaborative science vision to come up with 
how we want the forest to look. And so, that will include a lot 
of work right next to houses and right next to the wildland-
urban interface. But we also need to do appropriate kinds of 
thinning and controlled burning. And in particular, back 
country areas to help break up so we don't get the mega-fires.
    Mr. Grijalva. Mr. Rigdon, thank you for your testimony. The 
IFMA report concludes that the Federal Government continues to 
inadequately fulfill the trust obligations with regards to 
Indian forestry. If you can, give me some quick examples for 
the record of some of these failures that were pointed out in 
the report, including infrastructure investments. Your 
testimony listed, but if you wouldn't mind.
    Mr. Rigdon. I think the IFMA report is very important in 
showing the discrepancy between them, the resources that we 
reserve to conduct stewardship on our lands. A good example of 
that we highlighted to Department of the Interior yesterday and 
to USDA yesterday in a briefing on this, the Tribes receive a 
third of the budget, so nearly $3 per acre for management on 
our land versus nearly $9 per acre for other Federal lands. And 
this discrepancy is actually, with sequestration and these 
other things that have hit, is putting us into a very difficult 
time where we are seeing a tough time on Tribes achieving their 
goals and objectives and land management objectives.
    Mr. Grijalva. Well, I thank you for the suggestion that 
also the issue on tribal lands be integrated overall with the 
other collaborative efforts. I appreciate that.
    Mr. Roady, you described in your testimony recent wildfires 
as large-scale and uncharacteristic. Recent negative trends in 
forest health is a new normal. And scientists agree with you, 
and they say these changes are caused by a warming of the 
climate. Given predictions of more drought and bigger fires, 
are you concerned about the impact of climate change on your 
industry?
    Mr. Roady. Certainly I am concerned. I am more concerned 
that we have done an excellent job of being Smokey Bear with 
fire suppression. And that, more than any single factor, has 
led to these super, overcrowded, heavily fuel-loaded forests 
that increase the fuels and they make our fires much more 
intense. I would say that is much more----
    Mr. Grijalva. I can surmise by your comments that climate 
change is then second to the other statement that you are 
making now.
    Mr. Roady. It certainly is right now.
    Mr. Bishop. All right. Thank you. I will turn to Mr. Tipton 
for questions.
    Mr. Tipton. Thank you, Mr. Chairman. I would like to thank 
the panel for taking the time to be here today.
    Mr. Duda, great to be able to see a fellow Coloradan here. 
Always appreciate you making the trip. You talked about active 
forest management. Can you describe that a little bit for us? 
What entails active forest management?
    Mr. Duda. Thank you, Mr. Tipton. Active forest management 
includes everything from the application of prescribed fire on 
the landscape to fuel mitigation activities to removal of 
timber, both in the wildland-urban interface and, as equally 
important, across the landscape.
    Mr. Tipton. Great. In your experience, do you believe that 
this active forest management should also include implementing 
authorities similar to those in Healthy Forest Management and 
Wildfire Act of 2013?
    Mr. Duda. Absolutely.
    Mr. Tipton. I appreciate that answer. We have to be able to 
get our folks actively involved.
    Mr. Hubbard, you are a former Coloradan, and I appreciate 
having the opportunity to be able to visit with you. You had 
noted in your testimony that you can only manage 4 million 
acres, and we have 65 to 82 million acres of our land that is 
currently at risk from wildfires. Is that correct?
    Mr. Hubbard. That is correct.
    Mr. Tipton. That is correct. Mr. Chairman, I would like 
to--and if we can pull it up, we have the graph displayed up 
here. We are seeing right now--we had about 4 billion board 
feet that started to be burned in 1983 to 1985. It has now 
increased to better than 9 billion board feet that are burning. 
If we look at the graph bars that are showing there, we see as 
our timber harvesting has gone down, the actual threat of 
wildfire is increasing.
    So, would it be a sensible policy for us to be able to get 
in, actively manage that, to be able to open the door for our 
timber industry to be able to harvest those trees and help 
create forests, healthy forests?
    Mr. Hubbard. We, the Forest Service, would like to see more 
active management, without a doubt. We know that scale and pace 
needs to be accelerated to restore those landscapes. And while 
we are behind like this, it becomes increasingly important that 
we pick our priorities right to protect those communities, and 
that means engaging with the Tribes, the States, and the local 
governments in deciding where we place those----
    Mr. Tipton. So is the Forest Service--because I know in 
your written testimony you had spoken to the one timber mill 
that we now have in Colorado. One, one timber mill in Colorado, 
down in Montrose. They would like to be able to operate 24 
hours a day. We have a lot of smaller ones, as well. Are you 
willing to make that commitment, to be able to open those 
forests up for responsible harvesting of that?
    Mr. Hubbard. What commitment I can make is that I know that 
the Forest Service did assist the region in making more 
resources available to help the Montrose mill with supply.
    Mr. Tipton. And to be able to keep that going through. 
Would it be a sensible approach from the Forest Service, when 
we are talking about the inability to be able to manage these 
forests--right now, in the budget that was presented by Chief 
Tidwell, they are proposing to spend $60 million on acquisition 
of more land when we are saying we can't actively manage the 
land we currently have. Wouldn't it be a better use of that 
money to be able to go in and treat forests?
    Mr. Hubbard. I believe that those proposals, those budget 
proposals, have differences of opinion in them. And it is a 
process. We are early in that process, and we hope to have more 
engagement in the dialog.
    Mr. Tipton. Well, and I hope--we seem to have unanimity of 
opinion that our forests are at risk. It is hurting our 
watersheds, it is hurting our environment, it is hurting 
endangered species. And we are saying let's acquire more land 
that we can't manage, too. Let's take those resources and put 
them to actually help address the threat to human life and 
habitat. Wouldn't that be sensible?
    Mr. Hubbard. Yes, it would be sensible.
    Mr. Tipton. I agree.
    Mr. Hubbard. And we would welcome the dialog.
    Mr. Tipton. Great. I would like to talk a little bit about 
the importance--we have a lot of discussions here, and mothers, 
fathers, grandparents that are here, we all care about our 
children. And an important component for us, Mr. Duda, in 
Colorado--you mentioned about managing the State trust lands as 
being able to fund Secure Rural Schools. A lot of that is off 
of timber harvesting. Mr. Roady had mentioned that, as well.
    If we could give some advice to the Federal Government, 
shouldn't it be to have responsible timber management to be 
able to help support education, to be able to educate our 
children, and to be able to create a healthy environment?
    Mr. Duda. Yes.
    Dr. Topik. I appreciate that. Mr. Roady, do you have a 
comment on that?
    Mr. Roady. It is a proven fact the school trust system is a 
working system all throughout the Western States. Absolutely.
    Mr. Tipton. Well, thank you. With that I yield back, Mr. 
Chairman.
    Mr. Bishop. Thank you. Mr. DeFazio.
    Mr. DeFazio. Thank you, Mr. Chairman. It has been about 11 
or 12 years since I had a major fire burning in my district. 
And they had had those years of Rodeo fire, and I sat here and 
watched what the normal debates are here, which become very 
partisan, and I kind of blew up. And after that, George Miller, 
John Shadegg, McInnis from Colorado, and a few of us got 
together on a bipartisan basis. And we came up with the concept 
that ultimately, after a number of ups and downs, became HFRA.
    I don't think we are utilizing HFRA to its full extent. Is 
there anybody there who thinks that the Hazardous Fuels 
Reduction budgets are adequate? Anyone want to volunteer that? 
Anybody think it is adequate? Anyone want to tell me the last 
year you think it was adequate? I have been on this Committee 
26\1/2\ years. I remember asking the first chief in the first 
budget hearing back in those days, ``Is there enough money in 
this budget for fire suppression and for fuel reduction?'' And 
he gave a candid answer. ``No.''
    It's been like that for 26\1/2\ years. Republican 
Administrations, Democratic Administrations. You get these 
trolls down at OMB that don't think that hazardous fuel 
treatment works. Well, they don't live in the West, they have 
probably never been to the West.
    Now, we have dramatic evidence from a collaborative forest 
landscape restoration program on the Deschutes Forest with 
results. This is a very, very high fire-prone area. I have a 
cabin in that area. It is in Greg Walden's district. It works. 
We know it works. They have had fires start and they haven't 
become the conflagrations that we potentially expect on that 
side of the mountains.
    This is going to be a really bad year, and there are just 
tens of thousands of acres that are pleading for this similar 
hazardous fuel reduction, and it is not happening. The money 
isn't there. I have the map for Oregon this year. There is a 
few little tiny dots on it showing what we are going to do in 
the coming year. I mean I wish I had it to put it up there. And 
when you compare it to the needs, it is ridiculous.
    So, I would say the number one task here is to get some 
more money in there, fully utilize the tools of HFRA, fully 
utilize the collaborative process, which we do have. I do think 
that we--and I direct this to the Forest Service--I have been 
with Mark Ray and now with this Administration--no, actually, I 
started with Jim Lyons, through Mark Ray and this 
Administration, saying we need 20-year stewardship contracts. 
You will only do 10. We need 20.
    If we are going to get people to invest in an area, a huge 
timbershed, if you have it, that needs fuel reduction. We have 
them in Oregon, I know other guys have them in their States. If 
someone is going to make an investment for a biomass plant or 
whatever in that area, they need more time to amortize that 
investment. But what it does for you is you can get someone who 
will charge less per acre to do the work because they are 
getting some economic value out of that crummy dead lodge pole 
that isn't worth anything to anybody else, because they are 
turning it into a usable product, electricity.
    Can we get to 20-year stewardship contracts? I mean right 
now we are about to see stewardship contracts go away if this 
Committee doesn't act. But do you think 20-year contracts to 
get that kind of investment, at least in targeted areas where 
we have high need in very large areas for fuel reduction, could 
work?
    Mr. Hubbard. We constantly hear from the industry that the 
longer term is required for the investment that they would have 
to make in carrying out the projects that we propose. But can 
we get it? That is another question.
    Mr. DeFazio. Have you asked for it? Have you asked? Has the 
Administration sent down a request to us to--I mean we are 
looking at stewardship reauthorization.
    Mr. Hubbard. Currently we have asked for reauthorization of 
stewardship.
    Mr. DeFazio. OK. But you would be fully amenable if we were 
to augment that by giving you the flexibility to do 20-year 
contracts, given local conditions and need for those sorts of 
investments to deal with those local----
    Mr. Hubbard. We would very much welcome working with you.
    Mr. DeFazio. OK. Thank you. Mr. Chairman, I hope we can 
move down that path. I think it would be an improvement. Thank 
you, Mr. Chairman.
    Mr. Bishop. Thank you. Mr. Amodei.
    Mr. Amodei. I am with Mr. DeFazio. I mean I have never said 
that before, but----
    [Laughter.]
    Mr. DeFazio. John Shadegg said that same thing 12 years 
ago.
    Mr. Bishop. Thank you. Your time has expired. Mr.----
    [Laughter.]
    Mr. Amodei. Can I give you a couple more minutes, before I 
get kicked off the Committee? Thank you, Mr. Chairman.
    Regaining what is left of my composure, this is an 
oversight hearing on wildfire and forest management. And at 
least that is what the Chairman said it is, and I think he is 
telling the truth. And I know some of you, and I know most of 
you are messengers, so please don't take this personally. But 
when I look at fuels reduction budgeting, the unmistakable 
message that I should come away with is, ``What?''
    I mean I look at this stuff, and I am glad that, Jim, you 
are here on behalf of the whole Department of the Interior, 
because I represent a State that is north of 80 percent 
federally owned. So it is our yard work that we are talking 
about. Now, some of it is the Forest Service's. And some people 
are talking about school funds and other stuff, and many of us 
here represent States that are looking at a sage hen listing, 
and the Fish and Wildlife Service is under the Department of 
the Interior. And I look at this and people talk about 
regulatory systems to manage that habitat. And in our State, 86 
percent of the threat is wildland fire.
    And so, you sit there and you say, ``We are going to manage 
the ag guys, we are going to manage the recreation folks, we 
are going to manage the''--although we don't have wild horses 
in the State for purposes of range management and that is not 
your fault, although some of it is funding--but it is like, 
``We are going to manage all these things, and then we are 
going to go to that agency in the Department of the Interior 
called Fish and Wildlife Service and say, `Don't list it 
because we have addressed 15 percent of the threat to that 
habitat.' ''
    And I say, ``Well, guess what? I don't know of a school 
where 15 percent is a passing grade. You are going to get 
listed if you continue to ignore wildland fire.'' And when you 
say, ``We are going to manage it,'' with all due respect, you 
guys know better than I do you get to days where you have 
catastrophic fuel buildup, you have minimal moisture, and you 
have a lot of wind--and with all due respect to the profession, 
it is like, guess what? It is going to burn until something 
changes. I mean we experienced that just 15 miles outside of my 
home. Largest fire ever in the range, 25,000 acres, 6 days. 
Kind of went until it--you know, no disrespect to those people 
working on it.
    And then we sit there and we talk about wildland fire, and 
you talk in a bipartisan fashion that says, ``You know what? 
Maybe what you did before the fire can be as important as 
anything else.'' And I look at this stuff--and I know you 
didn't make the decision--I look at this stuff that says, well, 
we cut it in half from 2012, and then we took another half out 
of it in 2013. It is like, wow, amazing. And I haven't heard 
anybody say, ``That fuels management stuff is BS.''
    And so, I mean for purposes of oversight and further 
Committee work, I assume--it is like please tell me the message 
I am supposed to take away on those budget requests from these 
two agencies. I am not accusing you of making them, but it is 
like what is the unmistakable--what am I supposed to do as the 
takeaway on fuels management in the context of wildland fire in 
the West? Please jump in, whoever feels strongly.
    Mr. Douglas. Clearly, we think fuels management is an 
important tool. We haven't done enough. We need to do much, 
much more. We were faced with a number of hard choices that had 
to be made in the budgets that were sent forward, and the 
budgets that were sent forward are what they are. I think we 
are actively working between our two agencies right now----
    Mr. Amodei. No, and I appreciate that. I mean I read your 
statement. I get that.
    Mr. Douglas. Yes.
    Mr. Amodei. But, I mean, I don't know if anybody up here is 
saying that is a dumb thing to be spending the money on. And 
when you look at Mr. Tipton's chart that says--and forest 
stuff, I know a lot of folks don't think there are trees in 
Nevada, but there are. I just go, ``Wow.''
    I guess all I can say is that I am going to yield back some 
time. But I am just absolutely stunned that you can say this is 
a very important management tool we have, maybe what we do 
before the fire is the most important thing, but, by God, we 
are cutting it. And, by the way, please, with all due respect 
to sequester, I don't want to hear about single-digit stuff in 
the face of these cuts.
    Mr. Hubbard. I believe another factor here is that we do 
have to respond to wildfire. We do have to cover our 
suppression costs. And that is becoming increasingly difficult 
when you formulate a budget under constraint. And that may be 
something we need to look at.
    Mr. Douglas. And I would just add, Mr. Amodei, that 
irrespective of fuels--extremely important, and I don't 
disagree with you on that--our suppression folks are very 
actively working on the habitat issue, as well. The engines 
have the maps, they know where all the high-priority areas are. 
They are very sensitive to that. So, when there is fire, which 
does happen, we are very cognizant of response actions that are 
sensitive to the need to protect that habitat.
    Mr. Bishop. All right, thank you.
    Mr. Amodei. Thank you, I----
    Mr. Bishop. We have votes that are taking place. I intend 
to go through some more questions here. So, Mr. Daines, go 
ahead.
    Mr. Daines. Thank you, Mr. Chairman. I represent an entire 
State, the State of Montana, so I spend a lot of time in a 
pick-up truck, driving around, when I am back home. And as I 
have driven around the State, spending time at the saw mills--
and I tell you, I appreciate the gentleman from Oregon's 
comments, as well. I think as Westerners we stare at this 
problem of these trees waiting to be cut, the forest fires in 
the summertime. My son plays high school football. We canceled 
football games last fall because of air quality.
    And yet, I go to a mill, another mill, I was at Chuck 
Roady's mill and I went down the south central part of our 
State to the RY mill outside of Livingston, Montana. They had 
some trees going through that they were cutting at that time, 
because they took them off a forest fire that burned up Pine 
Creek last summer that was on private land. And so they were 
able to get some burned trees to cut in their mill. They are 
very concerned, after they got done with that contract, that 
they were going to run out of logs.
    And we stare at all these Federal lands that we can't get 
in and harvest the logs, and then they burn in the summer time. 
And we are pulling our hair out, looking at this and saying--in 
fact, this mill down in South Central Montana would immediately 
hire another 100 employees for the mill and another 100 loggers 
if we could get access to more logs. And so, the question I 
always ask is, why is it? What is the barrier stopping this?
    And I, too, am a little bit of a skeptic when I hear the 
word ``sequestration'' is the problem. I don't buy it. I spent 
28 years in the private sector. We just can't keep throwing 
money and saying it is going to solve the problem. We have to 
look at how the money is currently being spent, and spend it 
more wisely. And I was struck by Chuck Roady's comment of the 
dollars, $350 million, that was spent in terms of NEPA and so 
forth. I think part of it is getting ready for lawsuits.
    I had my staff go through and look at region one, which is 
Montana and there in Idaho. In Fiscal Year 2012 and 2013--we 
ran a spreadsheet here, looking at all the timber contracts, 
124 projects. Forty percent have been appealed or litigated.
    Here is the other problem. And I am a big proponent of 
collaboration, and I have spent a lot of time with our logging 
guys now, and with our wilderness groups. They are kind of 
tired of collaboration, because it is not generating the 
results, because the people--as I think Mr. Roady mentioned--
the people who are at the table collaborating aren't the people 
who are then filing these lawsuits later on, after the fact, 
and stopping progress.
    Let me say this. Of the projects that were in collaborative 
agreements right now in region one in Fiscal Year 2012 and 
2013, six of those seven--there were seven collaborative 
agreements--six of those seven are ones that are currently 
being appealed and litigated. That is a problem.
    The Colt Summit project that Chuck mentioned, I was in the 
mill, down there at Seeley Lake, the day after that ruling came 
down. Listen to this. This project, they had it already--it was 
a stewardship contract. A local extremist group, the Alliance 
for the Wild Rockies, files a lawsuit, and there were 14 
counts. Thirteen were dismissed, but the judge issued an 
injunction on the fourteenth count and stopped it.
    My question is, what role do these lawsuits play, in terms 
of being a barrier to healthy forest management? I will start 
and go down the line.
    Mr. Hubbard. In your part of the country, South Central 
Montana in particular, a huge role. It has virtually shut 
things down in the national forests. And so, environmental 
clearance there, collaboratives or not, has been difficult. And 
we continue to try to figure out how to work through NEPA to 
get that kind of clearance and get a judge's opinion that 
allows us to proceed. Particularly where you are talking 
about----
    Mr. Daines. And I think there is a cause and effect there, 
because we are in the ninth circuit court would be my added 
comment to that. Thank you.
    Other comments on litigation, particularly in region one?
    Mr. Douglas. I am not sure that we have the same issues the 
Forest Service does, to the same degree and scale, but we have 
the same need to work through and find acceptable solutions for 
everybody, and it is one of the challenges that we have, 
obviously.
    Mr. Daines. Sure. Chuck, what is your thought on that?
    Mr. Roady. Our company alone, we participate in four 
different collaborative groups. And I do feel that it is a 
plus. But it is becoming extremely frustrating. We spend a lot 
of time--and it is those people that don't play in the sandbox. 
I mean I have heard the chief many times and the leadership in 
the Forest Service stress collaborative. But that only goes so 
far. If you get shot out of the saddle after you have 
collaborated, you get pretty tired and frustrated with that. 
And that is where we are at in Montana and Idaho. It is pretty 
sad.
    Mr. Bishop. All right. Thank you. We have 8 minutes left on 
this procedural motion. I had an intention of going to Mr. 
Gosar next before votes--well, first of all, there is 8 minutes 
left, but 300 people haven't voted yet, so we got some time. I 
intend to stay here through this vote series, if anyone else 
wishes to. Apparently, there is still 10 minutes of time left 
on the rule for the Floor, so voting will happen on a series of 
votes after that, this one, is over. But I am going to miss 
this one so we can finish this and let these people go. And if 
we adjourn by one vote, I will apologize to leadership.
    So, however you want to handle yourselves, that is what I 
intend to do. Mr. Gosar, we have plenty of time for your 5 
minutes of questions, though.
    Dr. Gosar. Well, thank you. Mr. Rigdon, I want to go back 
to success models, I mean, because we are burning our wheels 
over and over again. And there is something that the Tribes 
emulate that I think we need to get back to. Do you have any 
less respect for the environment than any of the environmental 
groups?
    Mr. Rigdon. Actually, I think the Tribes live on the land 
that we manage, and so I think we have a more vested interest 
in what is going on on our lands. And inside of that, we take 
more--a lot better time evaluating and doing management 
practices that we do.
    Dr. Gosar. So you have a real stewardship, always been part 
of your culture, right?
    Mr. Rigdon. Yes.
    Dr. Gosar. So let's go back. And in your testimony you 
talked about the Yakama's success in regards to the budworm 
infestation. How were you successful?
    Mr. Rigdon. The first thing that happened is we came 
together, our tribal council declared a state of emergency. We 
were watching our forest all fall apart. It was dying right 
before our eyes. And our leadership then gave direction to the 
Bureau of Indian Affairs and to the Natural Resource Department 
at our agency, to tackle this problem, to bring back a solution 
that reduces the loss that we were seeing from our forest due 
to those things.
    With that direction, we streamlined and fast-tracked 
through the Natural Environmental Protection Act. We met with 
U.S. Fish and Wildlife Service on spotted owls and ESA 
consultation. And that was the thing. It was the priority of 
the Tribe and our leadership, taking the steps to make sure 
that we were centered and moving forward with these things.
    Our Natural Resource Departments came together and we 
evaluated and took on the challenge to make sure that we did 
the forest management that was necessary, but we also respected 
those resources that we have values for across our land, also.
    Dr. Gosar. But I mean I want to highlight, because I have a 
bill sitting here, and you said the magic words along my lines. 
It is emergency declaration, going through the proper 
management.
    But you are missing a piece here, if I am not mistaken, and 
that is the litigation aspect from environmental groups. They 
don't have the same standing in tribal lands, if I am not 
mistaken, as they do in the rest of the world. Do they?
    Mr. Rigdon. No, they don't. Environmental groups, they have 
to have standing to appeal a decision within the reservation. 
And so, in most instances, it would have to be a tribal member 
within our community. And then there are certain aspects of 
that that lie out with them. They would have to fund a certain 
aspect to cover the timber sales that would be lost if they 
appealed those decisions, and those kind of things.
    Dr. Gosar. And I want to bring--we are coming full circle 
here. I mean I had the Waldo fire in my district in 2011, and 
the largest fire in--you are aware of what the White Mountain 
Apache had done through the Rodeo-Chediski, or the thinning 
process.
    Mr. Rigdon. Right. I have been there several times, 
actually, and I have seen the activities there. They do a great 
job.
    Dr. Gosar. So why did the fire stop when it started coming 
in to tribal land?
    Mr. Rigdon. Well, I think the active management, the 
reduction of fuel loads, reduction of forest canopy, the fire 
dropped to the ground and you had fires that were there, 
historically, that were driven by our Indian people, by the 
Apache people that probably before managed the land. I think 
you see that all across Indian country. If it is the same up in 
Montana to what we do on our reservation.
    Dr. Gosar. It is a model that works, right?
    Mr. Rigdon. Yes.
    Dr. Gosar. A model that works. Imagine that. A model that 
works.
    You know, let me ask you a question, Mr. Hubbard and Mr. 
Douglas. If we took Equal Access to Justice findings, and 
instead of giving it to claimants, put it through mitigation of 
our forest, that would give you some access to some dollars, 
wouldn't it? I mean I am kind of aware that it is somewhere 
around $1 billion per year. I mean the Justice Department won't 
give us those numbers, but wouldn't that be interesting, that 
if we actually put it to use, other than constant litigation, 
actually put skin in the game?
    Mr. Hubbard. It would make a difference, I believe.
    Dr. Gosar. Thank you. You know, the next person I want to 
talk to is Chris. Chris, I want to tell you thank you very, 
very much for trying to come back to common solutions that Phil 
brought forward. There is a lot of things we could be doing, is 
there not, in regards to these collaborative management 
processes?
    One of the things I want to throw out is that one of the 
successes in energy are these PMAs in which we have these power 
management authorizations. What if we were to create some of 
these forest management authorities that goes back to local 
authority, that works with joint ventures, that actually puts 
these collaborative aspects--mitigation from Federal funding, 
but also some of these timber sales--imagine that, that we are 
actually working collaboratively--would that be something of 
interest to you?
    Dr. Topik. Yes. Thank you very much. I think things like 
that are very much of interest. I think it is very important 
for this Committee and the leadership here to also reach out to 
a whole bunch of other sectors of society and the economy, with 
respect to tourism, with respect to water, utilities. There is 
a whole lot of folks that need to be brought into this who are 
heavily impacted by these issues. And so I think there is a lot 
of ways forward on those kind of fronts.
    Dr. Gosar. Thank you for your insights. Thank you.
    Mr. Bishop. Thank you. Mr. Gosar, you still have 2, almost 
3 minutes on the vote, and there are 200 that haven't voted 
yet. So decide what you need to do there.
    Let me ask a couple of questions on my own, if I could. Mr. 
Hubbard, let me start with you. In the documents, you said that 
the goal for the Forest Service was to increase the number of 
acres being treated and increase forest products to 3 billion 
board feet. Yet, unfortunately, the Administration's budget 
request proposes a 15 percent reduction in that timber target. 
Is the Administration's goal still to reach 3 billion board 
feet?
    Mr. Hubbard. We will continue to ask our regions to 
increase their restoration efforts. Our projection is we will 
probably be at closer to 2.6 billion board feet.
    Mr. Bishop. All right. So that kind of comes up to the 
other one. You talked about the Forest Service treating 4 
million acres this year, 27 million over the past 10 years. 
What that really means is the options of treating means either 
cutting something or burning something.
    So, how many acres of those that were treated were 
commercially thinned?
    Mr. Hubbard. Of the 27 million I think it is close to 10 
million acres were mechanically treated. The rest was 
prescribed fire.
    Mr. Bishop. By mechanically, is that commercially?
    Mr. Hubbard. Not necessarily, but mostly.
    Mr. Bishop. But mostly. All right. Let me talk to you about 
tankers for just a quick second, if I could. I understand you 
have awarded contracts for seven Next Generation air tankers. 
How many of those aircraft are flying in this fire season?
    Mr. Hubbard. Well, all those vendors had 60 days to put 
their planes in the air, to pass the test, and to tank them and 
go through the process. We expect them to do that. So by the 
end of the season, at least, we hope all seven are flying. 
Currently, three are flying.
    Mr. Bishop. OK. You got three right now, you expect the 
other four within the next 2 months at some time. I guess that 
is the questions there.
    Mr. Douglas, I have a problem also with the one other 
mention of the word ``sequestration,'' simply because the 
Administration's budget request has reduced hazardous fuel 
funding by more than 30 percent. So how does the Administration 
then blame sequestration for these impacts, when their budget 
is much deeper, much more devastating in a reduction proposal?
    Mr. Douglas. So two things. The mention of sequestration 
was just to note that, in fact, we have somewhat fewer 
resources this summer to deal with the current fire season and 
we are prioritizing our resources to do that. I think the issue 
about the amount of funding for fuels is certainly more than 
the sequestration issue, and it is a more fundamental problem--
--
    Mr. Bishop. All right. So what you were talking with 
sequestration is the manpower and the training you can provide?
    Mr. Douglas. That is our principal concern for this fire--
--
    Mr. Bishop. But the budget is still down by 30 percent, as 
proposed----
    Mr. Douglas. Correct.
    Mr. Bishop [continuing]. By the Administration. At the same 
time--let me go back to Mr. Hubbard on this one, instead.
    The Secretary of Agriculture has proposed $40 million for 
forest land acquisition. Now, I understand at times in the 
past, when we have asked that question about wouldn't it be 
wiser to spend that on actually being able to fight wildfires, 
we were told that those funds can't be transferred back and 
forth. Is that still the basic problem we have?
    Mr. Hubbard. Yes, sir.
    Mr. Bishop. So what we really need is, first of all, the 
authorization in legislation to allow you to make those 
transfers. And, if not, it is what a couple of other people 
have mentioned. Even if we are actually using money for 
acquisition and acquiring more land, all we are doing is 
exacerbating the potential problem that is out there. But what 
you really need is you can't do that until there is something 
that allows you to make that kind of a transfer.
    Mr. Hubbard. Correct.
    Mr. Bishop. All right. Well, I hope some day we can get 
there with that.
    Mr. Rigdon, if I can try and hustle with these questions, 
you talked about the Yakama success in addressing the budworm 
infestation, and said it wouldn't be a challenge to find 
similar speed, scope, and effectiveness--I am sorry, it would 
be a challenge to find the similar speed, scope, and 
effectiveness on Federal forests. Shy?
    Mr. Rigdon. I think there are a couple important parts--is 
the process of the Forest Service seems to take a lot longer, 
and it is not--we joined the forest collaborative, the Tapash 
Forest collaborative, in 2007. We have the last mill in the 
region, in our region. And we would like to get our saw mill 
going again. And just the process, we still have not gotten any 
small diameter wood that would be coming off that would meet 
the objective of what we are trying to achieve off of Forest 
Service land as of yet. And we continue to go down that path, 
and we continue to try to reach those goals.
    And I just think the part of the NEPA, there is more 
concern about other stakeholders and those type of things that 
it slows down the process, the litigation thing.
    Mr. Bishop. OK, thank you. I have to call me out of order 
here.
    I have some more questions. But first, Mr. DeFazio, do you 
have some additional questions?
    Mr. DeFazio. Yes. Thank you, Mr. Chairman. To Dr. Topik, 
toward the end of your testimony you say, ``Finally, while we 
are committed to the principles of public engagement and 
environmental review in NEPA, we believe there may be 
opportunities to significantly increase the efficiency of these 
processes through targeted adjustments in policy and 
implementation.'' Would you please be specific, or expand on 
that for me?
    Dr. Topik. Thanks very much. Let me give you a real 
specific example. Just recently I was in Arkansas on the Ozark 
National Forest, participating in a collaborative group 
meeting, and then a 2-day field trip. And the way the NEPA 
planning projects work there is just remarkable. It is so 
different from some of these other areas that I have been. For 
instance, on the Deschutes, I have been out on that process 
also with a collaborative group. They are able to do a very 
large area, to have it under a NEPA plan that explains all the 
kind of activities they want to do, but doesn't get tied down 
to one acre or another acre.
    It ties very much down into the description of the sites 
and the description of the treatments and expectation of the 
treatments. And so they are able to do large areas, and the 
forests just look wonderful. They are doing terrific projects 
across ownerships in a common way. It is an exciting kind of 
example.
    I think there are a number of other examples around the 
country where they are able to use NEPA and to get more 
innovative. I think it is something we all need to work 
together to figure out more ways of making it faster and larger 
scale, where appropriate, get more of the public involved 
quickly.
    Mr. DeFazio. So basically, people agreed on what they 
wanted it to look like when they were done.
    Dr. Topik. Yes.
    Mr. DeFazio. Right? In terms of, OK, we have proper spacing 
now, if we remove this--why doesn't--I mean, we have given you 
some tools--HFRA, we had talked about that a little bit 
earlier. What he is talking about there, why can't we do that 
in other areas, and do it more, so that we can expedite these 
larger-scale projects? Some kind of programmatic EIS or 
something that covers a large area?
    Mr. Hubbard. Mr. DeFazio, that is something the Forest 
Service is pursuing. Now----
    Mr. DeFazio. What do you need to more successfully and more 
quickly pursue it? Do you need more staff? Do we need to make 
adjustments to HFRA or other laws? What do you need to use it 
more broadly, more quickly, so we aren't spending 10 times as 
much to suppress a fire as opposed to prevent it?
    Mr. Hubbard. I am not sure that we do need anything at the 
moment. Just do it. This large landscape approach has shown 
promise, especially in the East. We moved it to the Black 
Hills, we want to try it in other places, as well.
    Mr. DeFazio. OK. Well, I would invite you to try it in 
particularly Eastside Oregon, where I think we have had some 
collaborative process, and where there is widespread agreement 
about the risk, the fire risk.
    I would like to turn to something the Chairman raised. And 
I am concerned about the tankers. I mean, I think it was 15 or 
more years ago we were talking about the decrepit state of the 
tanker fleet. And since then things got a lot worse, and then 
we grounded the whole thing a couple of years ago. This doesn't 
look like a process that is unfolding very quickly, in terms of 
reinforcing our tanker fleet. I saw a demonstration of this 
massive dump that could be adjusted out of an evergreen plane. 
I think it is either a DC-10 or a 747.
    I mean what--are there things out there that we could be 
using this year you could contract for? And also, what do you 
need to do to move ahead more quickly with acquisition of an 
adequate fleet?
    Mr. Hubbard. Several things, sir. We are--our original 
tanker fleet, which is----
    Mr. DeFazio. I know all about the original tanker fleet.
    Mr. Hubbard. Yes, it is----
    Mr. DeFazio. World War II, right? OK.
    Mr. Hubbard. Correct. That is diminished to the point that 
we only have seven of those airplanes left. They are under what 
we call a legacy contract for the next 5 years. The Next 
Generation contract is seven more planes, and we are testing 
out new models. Our specifications were that they fly faster 
and they carry more of a load. And so the planes that bid and 
were successful under that are going to be doing it. And we 
will see those in flight, I say, this summer.
    The other part of that is in this mix it becomes important 
that the government owns some of these planes, we believe. So, 
government-owned, contractor-operated. Currently, the best 
option for that is the C-27's from the military.
    Mr. DeFazio. OK. I mean you had this study from Rand that 
said that you use scoopers, and you decided that was a bad 
idea. I think the biggest scooper I have seen, I think, is 
actually a Russian model. I mean I am not advocating buying 
Russian planes, but I am just saying scoopers can't work, or--
what is the deal?
    Mr. Hubbard. Scoopers are like helicopters. They are water 
delivery and not retardant delivery. They are effective.
    Mr. DeFazio. OK, thank you. Thank you, Mr. Chairman.
    Mr. Bishop. Thank you. I appreciate the fact that your 
constituents have heard you actually propose Communist buys 
here. That is really great.
    Thank you. Mr. McClintock, do you have an additional 
question or two?
    Mr. McClintock. Thank you. I want to talk to Mr. Douglas, 
again, regarding the Reading fire. Let me try and refresh his 
memory. And I am incredulous that the Acting Director of the 
Office of Wildland Fire in the Department of the Interior was 
not even aware of this fire. It was started on July 23, 2012 by 
lightning strikes at the Lassen Volcanic National Park in 
California. The Park Service allowed this fire to burn for what 
they called ``ecosystem benefits.'' CalFire and the local fire 
companies begged the Department of the Interior to put it out 
while it was still controllable. They warned the Department 
over and over that the conditions were extremely dangerous. 
This was in the middle of the summer--and that this fire posed 
a tremendous hazard to life and property throughout the region. 
These warnings fell on deaf ears.
    On August 6th, the fire blew up into an uncontrolled 
wildfire. It grew from 200 acres to 1,300 acres on the first 
day. It ultimately burned for 2 solid weeks, sent up a plume of 
smoke 30,000 feet high. It destroyed 28,000 acres of forest, 
including 17,000 acres on National Park Service land, an 
additional 11,000 acres on U.S. Forest Service land. It cost 
$15 million. The excuse given at the time was that the overall 
result was beneficial, it reflected the testimony we heard 
earlier that we have to learn to live with fires, that 
philosophy.
    Congressman Herger conducted a public meeting on this 
subject last year, which I attended. It was also attended by 
Bill Kaage, who is the Wildland Fire Branch Chief for the 
National Park Service. Darlene Koontz attended. She is the last 
park superintendent. We were promised a full and complete 
review of these policies. And you can't even recall the 
incident?
    Mr. Douglas. Sir, I recall that there was that fire. I am 
sorry if I was incorrect in that. I don't know the specifics. 
That was the National Park Service's management responsibility.
    Mr. McClintock. Well, aren't they under the Department of 
the Interior?
    Mr. Douglas. They are, but they have the responsibility----
    Mr. McClintock. Aren't you the Acting Director of the 
Office of Wildland Fire?
    Mr. Douglas. I am. My----
    Mr. McClintock. Were you acting in that capacity last year?
    Mr. Douglas. I was not.
    Mr. McClintock. Who was?
    Mr. Douglas. We had a director of that office. Our office--
--
    Mr. McClintock. What were you doing in that period?
    Mr. Douglas. I was in a position----
    Mr. McClintock. Has--go ahead, I am sorry.
    Mr. Douglas. I am sorry. I was the senior advisor to our 
Deputy Assistant Secretary working on other projects at that 
time.
    Let me clarify that the----
    Mr. McClintock. Well, you are the Acting Director of 
Wildland Fire now. Can you tell me if a complete review of this 
fire was conducted, and what was the outcome of that review?
    Mr. Douglas. I don't know what the outcome of that review 
is. I am happy to find that out and get back to you on that.
    Mr. McClintock. Were the decisions made to allow this fire 
to burn out of control consistent with Department policy?
    Mr. Douglas. Those decisions are made at the park level by 
the local managers.
    Mr. McClintock. Were they consistent with Department 
policy?
    Mr. Douglas. We have Department policy that says that local 
managers make appropriate decisions based on the information 
they have at hand. I am not familiar with the particular 
decisions that were made. You made reference to the hearing 
that Mr. Herger had in which the decisionmakers explained 
themselves. I don't know the details of those----
    Mr. McClintock. Does the Department adhere to the 
philosophy we heard from another witness that we just have to 
learn to live with fires?
    Mr. Douglas. The Department believes that fire is a part of 
our natural world, and it is going to be out there. We have to 
work with it at the appropriated time. When it challenges 
structures and other values at risk----
    Mr. McClintock. You were warned--your Department was warned 
repeatedly that it was an imminent danger, under catastrophic 
conditions, and those warnings were ignored. Some would say 
blissfully ignored.
    Mr. Douglas. Again, I am not familiar with the specifics of 
the decisions that were made on that fire at the time.
    Mr. McClintock. Mr. Hubbard, I want to go for one more 
moment to finances in my remaining minute--seconds. I am told 
that 4.5 billion board feet grows every year on the national 
forests within California. Seven percent of that is now all 
that is harvested for commercial purposes. How much money would 
be coming into the treasury, available for the Department, if 
the Department was simply keeping pace with the growth in board 
feet in the national forests?
    Mr. Hubbard. More than now. And I can get you a specific 
figure, if you would like.
    Mr. McClintock. Billions of dollars?
    Mr. Hubbard. I don't believe billions, but more than now.
    Mr. McClintock. More than the sequester cuts that you were 
complaining about?
    Mr. Hubbard. Yes, sir.
    Mr. McClintock. Well, then, why don't you do it? Thank you, 
Mr. Chairman.
    Mr. Bishop. You don't have to answer that last one. Mr. 
Gosar? I think we have time for a couple more questions if you 
have some.
    Dr. Gosar. Yes, I do. Well, first of all, Mr. Hubbard, 
thank you very much. I have a vested interest in the 4FRI 
initiative, and I know a lot of it is following through. Part 
of that problem is trust, isn't it?
    Mr. Hubbard. Part of getting it established is trust. It is 
my impression that 4FRI was successful, though, in moving 
forward, and that the land treatments are occurring. I think 
there are problems with the financials for utilization of the 
products. But the treatments are occurring.
    Dr. Gosar. Well, in Arizona, no. The 4FRI is looking at the 
large-scale test model, which still has not gotten off the 
ground. Because we can mitigate all we want around buildings 
and structures, but we have to go to the larger diameter, up to 
the 16 inches, which we made agreements in the 4FRI. We haven't 
gotten that off. And part of that is trust, trust from the 
Department, trust from the logging industry, trust from the 
environmental groups. True?
    Mr. Hubbard. True. But once again, I do believe 4FRI is 
prepared to move forward on those----
    Dr. Gosar. Well, I beg to differ. We are ready, we have 
been saying we are ready, I know the Chief has gone through 
heroic aspects to get even the RFP done, and I think we can all 
agree with that. But the problem is it is not done. We are 
sitting in catastrophic environments. ``No'' isn't an answer 
any more. We have to be doing something to mitigate.
    Let me ask you--and I pitched this once before. 
Particularly in streamlining EIS and NEPAs, we have a tool 
sitting at our disposal that actually can build trust, because 
when you see things actively being managed and done, it 
actually helps build trust, because it actually--you see 
templates actually in real time.
    We have these small, unmanned aerials that we can actually 
use--infrared, we can actually do templates, we can actually 
use GPS in collaboration with that, so that we can actually 
propose these templates, actually see them done in real time. 
It speeds it up for the logging industry. It also streamlines 
the NEPA and NEPA EIS. But it also allows all the partners in 
that environment to see it actively being done, so that you can 
twist and torque and change the parameters as it is done in 
real time.
    That is what I am after. That is what Arizonans are wanting 
right now. They want to see something being done that is 
working with everybody on the table. And I hope that is an 
opportunity to do this. I can't look at these 19 families in my 
district any other way. We have to put this on the table. It 
can't be tomorrow, it can't be a month from now, it can't be a 
year from now. It has got to be now. And we have to show a 
demonstration project of these large-scale things to put it on 
the table.
    I know that Mr. DeFazio made comments about 20-year scales. 
Yes, well, we can get that, but we have to show it being done.
    And I want to compliment the Nature Conservancy, because 
they have actively said, ``We have to have skin in the game, we 
actually have to have something done. We actually have to show 
the process working.''
    And it goes to this gentleman from Montana with the logging 
industry. They are stewards. You don't have an industry if you 
aren't a steward of it. And that is why I kept coming back to 
you, sir. The Tribes have shown us, ``Here is the way.'' It has 
been sitting there in front of our face all the time. The 
problem is--I am a science guy. I am built on science. And 
science sets you free. Facts set you free. But when we start 
deliberating this on technicalities and philosophies and 
poetry, I can't deal with that, and neither can the American 
people. We are at catastrophic reasons.
    And I see, when I look up at those things that--the charts 
that Mr. Tipton showed, it is remarkable. You can do all the 
stuff that you want, but you have to have an industry to 
promote this. It has to be a joint venture, because there is 
not enough money in the treasury. It is not going to happen. We 
got to go back to having that trust. I would hope that you 
would invest and start looking at some of these aerials. They 
actually do work. And I would like to see that template get off 
the ground now, not later.
    Mr. Hubbard. Mr. Gosar, we share the now with you, 
especially with what you have just been through. We would like 
to follow up.
    Dr. Gosar. Yes. I think part of that reason is there are 
some problems within the bureaucracy of the Forest Service. I 
think you will agree, and I think that the Chief will agree 
with that. And we have to have a streamlined process. But I 
think what we can do is when willing hands come to the table to 
work together, and we can utilize our tribal members to 
actually show us the way, I mean, it does work.
    But we have reached a catastrophic breaking point. We can't 
have this happen again. Thank you.
    Mr. Bishop. Thank you, Mr. Gosar. Let me ask a couple of 
what I hope may be the final questions here.
    Mr. Roady, for example, you mentioned in your testimony--
you talked about crown fires. Can you just explain what that 
term means?
    Mr. Roady. A crown fire is when it gets up into the tops of 
the trees and spreads. When the fuel loading builds up in a 
forest, and that fire starts, whether it is man-caused or 
lightning, and it can travel up those ladder fuels when we 
haven't done any mechanical thinning, we haven't done any 
management, and those get into the crowns of the trees, that 
fire spreads. It gets up into the wind, and----
    Mr. Bishop. So has this phenomenon not historically been 
the pattern in Montana?
    Mr. Roady. No, because we had--just as Phil explained, 
historically we had low-intensity ground fires. It took away 
those fuels.
    Mr. Bishop. OK. And in your property that you own in 
Flathead Valley----
    Mr. Roady. Yes?
    Mr. Bishop [continuing]. Are you experiencing this, or is 
that----
    Mr. Roady. No.
    Mr. Bishop. Do you have catastrophic fires on the property 
you have?
    Mr. Roady. No. The only catastrophic fire we have had is in 
an isolated 160 acres that were surrounded by Forest Service 
land that wasn't managed.
    Mr. Bishop. And the thinning process, you say, is one of 
the benefits?
    Mr. Roady. When you mechanically thin, you lower the 
intensity of those fires.
    Mr. Bishop. Thank you. Mr. Duda, can you just simply talk 
to me briefly--very briefly--about the process and the 
timeframe that Colorado uses to implement a fuel reduction 
program, and maybe vis a vis what the Federal Government is 
doing on the similar property?
    Mr. Duda. Chairman Bishop, on our State trust lands we do a 
forest management plan. We look at all the environmental 
implications of the project. We get approval from the State 
Board of Land Commissioners, and we implement--from the start 
of the management planning to implementation would be a year or 
less.
    Mr. Bishop. Thank you very much. And, Mr. Rigdon, I am 
amazed at the numbers you threw out of the costs that you have. 
Why is the cost for both maintaining the tribal land forest, as 
well as the cost for fire suppression so much lower on your 
tribal land forest than it seems to be on the Federal forest?
    Mr. Rigdon. To me that is a good question. I think Tribes 
are forced to deal with the budgets that we get through the 
Department of the Interior. And at times we don't get 
priorities toward the trust and fiduciary responsibility.
    The thing that I will say is that--but we do take our 
mission seriously, and we are able to accomplish and use 
creative and innovative ways to reach our objectives. And the 
Indian Forest Management Assessment Team did the analysis just 
recently, and it really does showcase that discrepancy that we 
are seeing between those things, but also the innovation that 
Tribes are able to, you know, complete the task that we have.
    Mr. Bishop. All right, I appreciate that. And in response 
to--I think it was to Mr. Grijalva's question, if I understand 
this right, you have a forest on tribal lands. You also have 
Federal forest land which you use. So when you were responding 
to his question, it is on different types of land.
    Mr. Rigdon. So we retain treaty rights on Forest Service, 
BLM, and other lands.
    Mr. Bishop. All right. So they are two different kinds of 
property we are talking about here.
    Mr. Rigdon. And so when we approach the Forest Service or 
BLM or any of these things, we are trying to see active 
management to protect those resources that we have treaty 
rights for, if that is wild fish, if it is deer and elk, or 
foods that our people gather, or places that have spiritual 
importance to our community.
    Mr. Bishop. I appreciate that. You also mentioned one thing 
in your testimony, that there are only six projects that have 
been implemented under the authority granted by the Tribal 
Forest Protection Act. Does there need to be greater direction 
for the Forest Service and BLM to allow the Tribe to do 
projects on Federal lands?
    Mr. Rigdon. I think that is one of the biggest parts, is 
that there is no accountability with this piece of the law. It 
is a ``you may,'' instead of ``you shall,'' and I think that 
has a direct consequence, where they don't take the full effort 
into--there is no incentive for the district rangers or those 
folks to work with Tribes on these projects.
    Mr. Bishop. I appreciate that. I thank you very much. Is 
there anything else, Mr. McClintock, Mr. Gosar?
    [No response.]
    Mr. Bishop. Look, I want to thank you all for being here. 
Some of you have come great distances to give testimony. I 
think it has been a marvelous hearing. We have had a lot of 
great ideas that have come from the Administration and some 
ideas that have come from the private sector, as well as from 
the State and tribal governments.
    You obviously noted, from the number of people and the 
number of questions, as well as the intensity of some of the 
questions, this is a significant topic of which we have a great 
deal of concern, as you do, as well. So I appreciate that. What 
I hope is that we can come up with some solutions, maybe 
looking outside what we have done traditionally in the past, 
and finding a new way of making sure that the resources are 
available. And maybe some partnerships are available so we can 
do things in a much more effective and a cheaper manner than we 
have done before, with the idea of not only being able to deal 
with fire suppression, but also doing that which would limit 
the amount of fires that take place in the first place.
    So, I want to thank you for being here. I want to let you 
know that there may be some questions from Members who are not 
here that still have to come. They may come to you in writing. 
We would ask you if you would respond to those in writing, as 
well.
    Unless there is anything else, we appreciate you being 
here. Especially we appreciate you being here. And this hearing 
is adjourned.
    [Whereupon, at 12:38 p.m., the Subcommittee was adjourned.]

                                 <all>

</pre></body></html>
